<html>
<title> - THE ROLE OF SOCIAL SCIENCE RESEARCH IN DISASTER PREPAREDNESS AND RESPONSE</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]



                       THE ROLE OF SOCIAL SCIENCE
                          RESEARCH IN DISASTER
                       PREPAREDNESS AND RESPONSE

=======================================================================

                                HEARING

                               BEFORE THE

                        SUBCOMMITTEE ON RESEARCH

                          COMMITTEE ON SCIENCE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                           NOVEMBER 10, 2005

                               __________

                           Serial No. 109-32

                               __________

            Printed for the use of the Committee on Science


     Available via the World Wide Web: http://www.house.gov/science

                                 ______

                     U.S. GOVERNMENT PRINTING OFFICE
24-463PS                  WASHINGTON : 2006
_________________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001




                          COMMITTEE ON SCIENCE

             HON. SHERWOOD L. BOEHLERT, New York, Chairman
RALPH M. HALL, Texas                 BART GORDON, Tennessee
LAMAR S. SMITH, Texas                JERRY F. COSTELLO, Illinois
CURT WELDON, Pennsylvania            EDDIE BERNICE JOHNSON, Texas
DANA ROHRABACHER, California         LYNN C. WOOLSEY, California
KEN CALVERT, California              DARLENE HOOLEY, Oregon
ROSCOE G. BARTLETT, Maryland         MARK UDALL, Colorado
VERNON J. EHLERS, Michigan           DAVID WU, Oregon
GIL GUTKNECHT, Minnesota             MICHAEL M. HONDA, California
FRANK D. LUCAS, Oklahoma             BRAD MILLER, North Carolina
JUDY BIGGERT, Illinois               LINCOLN DAVIS, Tennessee
WAYNE T. GILCHREST, Maryland         RUSS CARNAHAN, Missouri
W. TODD AKIN, Missouri               DANIEL LIPINSKI, Illinois
TIMOTHY V. JOHNSON, Illinois         SHEILA JACKSON LEE, Texas
J. RANDY FORBES, Virginia            BRAD SHERMAN, California
JO BONNER, Alabama                   BRIAN BAIRD, Washington
TOM FEENEY, Florida                  JIM MATHESON, Utah
BOB INGLIS, South Carolina           JIM COSTA, California
DAVE G. REICHERT, Washington         AL GREEN, Texas
MICHAEL E. SODREL, Indiana           CHARLIE MELANCON, Louisiana
JOHN J.H. ``JOE'' SCHWARZ, Michigan  DENNIS MOORE, Kansas
MICHAEL T. MCCAUL, Texas
VACANCY
VACANCY
                                 ------                                

                        Subcommittee on Research

                  BOB INGLIS, South Carolina, Chairman
LAMAR S. SMITH, Texas                DARLENE HOOLEY, Oregon
CURT WELDON, Pennsylvania            RUSS CARNAHAN, Missouri
DANA ROHRABACHER, California         DANIEL LIPINSKI, Illinois
GIL GUTKNECHT, Minnesota             BRIAN BAIRD, Washington
FRANK D. LUCAS, Oklahoma             CHARLIE MELANCON, Louisiana
W. TODD AKIN, Missouri               EDDIE BERNICE JOHNSON, Texas
TIMOTHY V. JOHNSON, Illinois         BRAD MILLER, North Carolina
DAVE G. REICHERT, Washington         DENNIS MOORE, Kansas
MICHAEL E. SODREL, Indiana           VACANCY
MICHAEL T. MCCAUL, Texas             VACANCY
VACANCY                                  
SHERWOOD L. BOEHLERT, New York       BART GORDON, Tennessee
             ELIZABETH GROSSMAN Subcommittee Staff Director
            JIM WILSON Democratic Professional Staff Member
      MELE WILLIAMS Professional Staff Member/Chairman's Designee
        AVITAL BAR-SHALOM, KARA HAAS Professional Staff Members
                 RACHEL JAGODA BRUNETTE Staff Assistant



                            C O N T E N T S

                           November 10, 2005

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Bob Inglis, Chairman, Subcommittee on 
  Research, Committee on Science, U.S. House of Representatives..     9
    Written Statement............................................     9

Statement by Representative Darlene Hooley, Ranking Minority 
  Member, Subcommittee on Research, Committee on Science, U.S. 
  House of Representatives.......................................    10
    Written Statement............................................    11

Prepared Statement by Representative Eddie Bernice Johnson, 
  Member, Subcommittee on Research, Committee on Science, U.S. 
  House of Representatives.......................................    11

Prepared Statement by Representative Russ Carnahan, Member, 
  Subcommittee on Research, Committee on Science, U.S. House of 
  Representatives................................................    12

                               Witnesses:

Dr. Susan L. Cutter, Carolina Distinguished Professor and 
  Director, Hazards Research Lab, University of South Carolina
    Oral Statement...............................................    13
    Written Statement............................................    15
    Biography....................................................    24
    Financial Disclosure.........................................    25

Dr. Shirley Laska, Professor, Environmental Sociology; Director, 
  Center for Hazards Assessment, Response and Technology, 
  University of New Orleans
    Oral Statement...............................................    26
    Written Statement............................................    28
    Biography....................................................    46

Dr. H. Dan O'Hair, Chairman, Department of Communications, 
  University of Oklahoma
    Oral Statement...............................................    47
    Written Statement............................................    49
    Biography....................................................    58
    Financial Disclosure.........................................    59

Dr. Roxane Cohen Silver, Professor, Department of Psychology and 
  Social Behavior and the Department of Medicine, University of 
  California, Irvine
    Oral Statement...............................................    59
    Written Statement............................................    61
    Biography....................................................    64
    Financial Disclosure.........................................    65

Discussion.......................................................    66

              Appendix: Answers to Post-Hearing Questions

Dr. Susan L. Cutter, Carolina Distinguished Professor and 
  Director, Hazards Research Lab, University of South Carolina...    82

Dr. Shirley Laska, Professor, Environmental Sociology; Director, 
  Center for Hazards Assessment, Response and Technology, 
  University of New Orleans......................................    84

Dr. H. Dan O'Hair, Chairman, Department of Communications, 
  University of Oklahoma.........................................    87

Dr. Roxane Cohen Silver, Professor, Department of Psychology and 
  Social Behavior and the Department of Medicine, University of 
  California, Irvine.............................................    94

 
   THE ROLE OF SOCIAL SCIENCE RESEARCH IN DISASTER PREPAREDNESS AND 
                                RESPONSE

                              ----------                              


                      THURSDAY, NOVEMBER 10, 2005

                  House of Representatives,
                          Subcommittee on Research,
                                      Committee on Science,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 10:05 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Bob Inglis 
[Chairman of the Subcommittee] presiding.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            HEARING CHARTER

                        SUBCOMMITTEE ON RESEARCH

                          COMMITTEE ON SCIENCE

                     U.S. HOUSE OF REPRESENTATIVES

                       The Role of Social Science

                          Research in Disaster

                       Preparedness and Response

                      THURSDAY, NOVEMBER 10, 2005
                         10:00 A.M.-12:00 P.M.
                   2318 RAYBURN HOUSE OFFICE BUILDING

1. Purpose

    On Thursday, November 10, 2005, the Research Subcommittee of the 
Committee on Science of the U.S. House of Representatives will hold a 
hearing to better understand how the social sciences can inform 
planning for, response to, and recovery from natural hazards and 
disasters.

2. Witnesses

Dr. Susan Cutter is a Professor of Geography at the University of South 
Carolina, and the Director of the Hazard Research Laboratory.

Dr. Roxane Silver is a Professor in the Department of Psychology and 
Social Behavior in the Department of Medicine at the University of 
California, Irvine.

Dr. H. Dan O'Hair is a Professor and the Chair of the Department of 
Communication at the University of Oklahoma. He is also the current 
Vice President of the National Communications Association.

Dr. Shirley Laska is a Professor of Environmental Sociology and 
Director of the Center for Hazards Assessment, Response and Technology 
at the University of New Orleans.

3. Overarching Questions

        <bullet>  How do individuals perceive risk and respond to 
        warnings and other crisis communications? What role does the 
        media play in risk communication and the formation of public 
        views and behavior?

        <bullet>  How do individuals respond to traumatic experiences, 
        such as terrorist attacks or natural disasters? How can 
        insights into fundamental questions of cooperation, social 
        order and resilience improve preparation for and response to 
        new threats and disasters?

        <bullet>  How is local or regional vulnerability to natural 
        hazards and disasters assessed? How does the natural and built 
        environment affect the perception of risk and subsequent 
        behavior?

        <bullet>  What are the priority social science research areas 
        related to disaster preparedness and response? How are the 
        results of such research being translated into practice?

4. Brief Overview

        <bullet>  The U.S. is exposed to a wide range of natural 
        hazards, such as hurricanes, floods and earthquakes, as well as 
        the continuing threat of terrorism and other technological 
        disasters. While new tools and technologies have improved the 
        prediction of many natural hazards, complete preparedness and 
        response also requires an understanding of human behavior, 
        particularly in emergency situations. This is the domain of the 
        social sciences.

        <bullet>  The National Science Foundation (NSF) accounts for 
        nearly half ($106 million in fiscal year 2004) of the overall 
        federal investment in basic social sciences research at 
        colleges and universities. In the areas of disaster 
        preparedness and response, NSF supports short-term research 
        projects immediately after disasters to gather and analyze 
        information about public attitudes and behavior. NSF also 
        supports longer-term studies on individual and group perception 
        of risk, the vulnerability of different regions and populations 
        to particular dangers, and individual and group resiliency in 
        the aftermath of a natural or other disaster.

        <bullet>  While there is a body of social science knowledge on 
        disasters, particularly in the context of natural hazards, the 
        lack of connections between researchers and emergency planners 
        and responders has led to uneven or incomplete application of 
        lessons learned to improve current disaster preparedness.

5. Background

    Because of its natural, climatic and geographic diversity, the U.S. 
is exposed to a wide range of natural hazards, such as hurricanes, 
floods and earthquakes, as well as the continuing threat of terrorism 
and other technological disasters. These risks, combined with increased 
population densities and the development of flood plains, coasts, and 
other vulnerable areas, have raised the disaster risk for the U.S. to 
an all time high.
    The Federal Government has been investing in science and technology 
to combat terrorism and manage natural hazards. As a result, new tools 
have been developed to improve the detection and remediation of 
biological, chemical, radiological and nuclear threat agents, and new 
technologies, such as satellites and Doppler radar systems, have 
improved the prediction of hurricane, tornado and other storm paths. 
These tools are an important part of managing a disaster, but a 
complete response also requires an understanding of human behavior, 
particularly in emergency situations.
Disaster Research at the NSF Directorate for Social, Behavioral and 
        Economic Sciences
    Most social science research at NSF is funded through the Social, 
Behavioral and Economic Sciences (SBE) Directorate. For more than 
thirty years, NSF has supported disaster research that immediately 
dispatches scientists and engineers in the wake of crises ranging from 
hurricanes to terrorist attacks. NSF has a variety of mechanisms 
available to support this type of research, including the Small Grants 
for Exploratory Research (SGER, pronounced ``sugar''). These SGER 
grants are offered across the foundation and they are awarded quickly 
to allow scientists to gather data that is likely to disappear over 
time.
    Within SBE, SGER grants are used to focus on such issues as 
organizational preparedness for and response to social crises, risk 
assessment and vulnerability analysis, and resilience. In the aftermath 
of hurricane Katrina, for instance, SBE awarded 35 SGER grants to study 
decision-making and political mobilization before, during, and after 
the hurricane, the economic and psychological dimensions of recovery on 
children and adults, and the breakdown of law and order following 
Katrina and its effects on recovery efforts and on victims. Similarly, 
after the terrorist attacks of 2001, SBE SGER grants funded research on 
issues predicting affective reactions to collective loss, understanding 
individual response to a salient and pervasive health threat such as 
anthrax, and resiliency and coping in the wake of the attacks and 
ongoing threats.
    SBE also funds longer-term research that is relevant to natural 
hazards and disasters. SBE research on how human emotion drives 
decisions can help emergency planners understand how personal choices 
can turn a crisis into a disaster. For instance, one NSF study found 
that most people living in areas prone to floods, earthquakes, and 
other devastating natural disasters take no steps to protect themselves 
or their property--important information for federal, State and local 
emergency managers. In addition, according to NSF-supported research, 
there are several myths about public response to crisis warnings, 
including the belief that people are confused if given too much 
information, that ``crying wolf'' leads to inaction, and that people 
automatically follow instructions. Other research into risk perception 
has highlighted how the genders react differently--white males perceive 
risks as much smaller and much more acceptable than other groups do, 
while women are more likely than men to seek out information from the 
media and then take responsibility for adapting in a crisis.
    Other SBE supported research is helping gain insights into the 
origins of terrorism and the after effects of an attack. For instance, 
the intelligence community and NSF are sponsoring research on the 
detection of deception that includes investigation and development of 
behavioral biometrics, content analysis of foreign documents and 
speech, alternatives to the polygraph, and improvements in intelligence 
analysis by increasing understanding of thought processes, learning and 
decision-making in individuals and teams. In addition, and in an 
attempt to better understand the beliefs of people in Islamic 
societies, SBE recently supported an analysis of attitudes and values 
of the Islamic public in Egypt, Iran and Morocco. Researchers concluded 
that there is considerable and unexpected variation in values. Despite 
living under a religious regime for more than two decades, Iranians 
appear to be less religious and more nationalistic than either 
Egyptians or Jordanians, who live under secular regimes. They also 
found that Iranians have more liberal attitudes toward marriage and 
women working outside the home than the respondents from the other two 
countries.
National Science and Technology Council Reports on Research Related to 
        Disasters and Counterterrorism
    Interagency coordination of research related to disaster 
preparedness and response and to combating terrorism occurs through 
meetings and reports of the National Science and Technology Council 
(NSTC), a cabinet-level council tasked with coordinating federal 
policies for science and technology. In July 2003, the NSTC's 
Subcommittee on Disaster Reduction issued a report on Reducing Disaster 
Vulnerability Through Science and Technology which identified six areas 
critical for meeting the challenges of future hazard risk reduction for 
the Nation.\1\ They are:
---------------------------------------------------------------------------
    \1\ NSTC's report Reducing Disaster Vulnerability Through Science 
and Technology can be found on line at http://www.ostp.gov/NSTC/html/
SDR<INF>-</INF>Report<INF>-</INF>ReducingDisasterVulnerability 
2003.pdf.

        1.  Leverage existing knowledge of natural and technological 
---------------------------------------------------------------------------
        hazards to address terrorism events;

        2.  Improve hazard information data collection and prediction 
        capability;

        3.  Ensure the development and widespread use of improved 
        hazard and risk assessment models and their incorporation into 
        decision support tools and systems;

        4.  Speed the transition from hazard research to hazard 
        management application;

        5.  Increase mitigation activities and incentives; and

        6.  Expand risk communication capabilities, especially public 
        warning systems and techniques.

    Social science research plays a critical role in the each of these 
areas, from development of vulnerability assessment techniques (area 2) 
to determination of effective incentives for risk mitigation (area 5) 
and evaluation of effective risk communication (area 6).
    In February 2005, NSTC's Subcommittee on Social, Behavioral and 
Economic Sciences released a report entitled Combating Terrorism: 
Research Priorities in the Social, Behavioral and Economic Sciences.\2\ 
The report found that the social sciences have much to contribute to 
the development of strategies that enhance the Nation's capacity to 
predict, prevent, prepare for and recover from a terrorist attack. The 
immediate priorities for social science research include:
---------------------------------------------------------------------------
    \2\ NSTC's report Combating Terrorism: Research Priorities in the 
Social, Behavioral and Economic Sciences can be found on line at http:/
/www.ostp.gov/nstc/html/terror.pdf.

        <bullet>  collection of data, such as the outcomes of threat 
        scenario exercises and health surveillance data, that can be 
---------------------------------------------------------------------------
        used to inform and model preparation strategies;

        <bullet>  application of modeling methods to complex problems 
        such as understanding the intersections of terrorists and 
        victims and the vulnerabilities of terrorist networks;

        <bullet>  application of decision science research to risk 
        communication strategies, including assessing people's risk 
        perception and educating those who deliver risk and 
        vulnerability messages about how to increase their 
        effectiveness; and

        <bullet>  application of risk, threat and vulnerability 
        assessment and vulnerability models in the creation and 
        evaluation of response plans.

NSF Directorate for Social, Behavioral and Economic Sciences
    NSF Directorate for Social, Behavioral and Economic Sciences (SBE) 
supports basic research, education and infrastructure in the 
behavioral, cognitive, social and economic sciences, referred to 
collectively as the social sciences. The Fiscal Year 2006 (FY06) budget 
seeks $198.79 million for SBE, nearly $2 million over the FY05 level, 
or about 4.2 percent of overall funding for NSF research. SBE accounts 
for nearly half of all federal support for basic research in the social 
sciences at colleges and universities, and, in some fields, such as 
anthropology, SBE is the predominant or exclusive source of federal 
support.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    SBE comprises two research divisions: Social and Economic Sciences 
(SES) and Behavioral and Cognitive Sciences (BCS). Research in 
economics, sociology, political science, decision-making and risk 
analysis, supported by SES, has yielded theories and information that 
have helped inform and improve public policy, business management, and 
economic and regulatory action. Research into the psychological, 
cognitive anthropological and geographic sciences, supported by BCS, 
has improved understanding of human cognition, action and development, 
helping scientists answer fundamental questions, including how the 
human brain learns. SBE also supports the collection and dissemination 
of statistics related to the science and engineering enterprise through 
the Science Resources Statistics Division.
Other NSF Disaster Research
    Outside of SBE, most of NSF's long-term research into natural 
hazards, disasters and their mitigation takes place within the 
Geosciences and Engineering Directorates. Specifically, the Engineering 
Directorate funds research on the impact of natural and technological 
hazards on buildings and the environment, including studies of the 
mechanisms of structural failures. The Geosciences Directorate supports 
research into the mechanisms that cause tornadoes, windstorms, and 
hurricanes through the collection and analysis of meteorological data, 
including wind speeds and storm surge. Like SBE, the Engineering and 
the Geosciences Directorates use SGER grants to fund research in the 
immediate aftermath of disasters.
    NSF also funds research into Human and Social Dynamics, an NSF-wide 
priority area which supports research on human actions and development 
as well as on organizational, cultural, and societal adaptation. 
Although responsibility for Human and Social Dynamics priority area, 
and the bulk of the $40 million in funding, comes from SBE, other NSF 
Directorates contribute support and expertise to the research on how 
humans and societies understand and cope with change, including natural 
hazards and disasters.
Other Federal Support for the Social Sciences
    Outside of NSF, the National Institutes of Health (NIH) and the 
Department of Defense (DOD) provide the bulk of federal funding for 
social science research. At NIH, behavioral and social science research 
is integrated into most NIH institutes and centers, with the largest 
amounts of funding being used to study the impact of behavior and 
society on diseases and illnesses such as drug abuse, mental health, 
cancer, and alcohol abuse. Now that budget increases are more modest, 
most of this research is associated with a specific disease and more 
projects are becoming clinical or applied in nature. The National 
Institute for Mental Health (NIMH) has developed a research program to 
assess the mental health impact of the World Trade Center and Pentagon 
attacks, it has convened a major national workshop on mental health 
needs in disaster response and it is currently exploring additional 
behavioral/mental health research aimed at the treatment of trauma in 
individuals and communication during public health crises and other 
traumatic events.
    At DOD, the social and behavioral sciences fund research in the 
broad categories of personnel training, leadership development, war-
fighter sustainment and physical performance, and systems interfaces 
and cognitive processing. This research is typically more applied and 
more specific to DOD's mission. Similarly, federal support for social 
science research closely tied to their missions also comes from the 
Departments of Agriculture and Justice.
    A new source of funding for basic social science research related 
to natural hazards and disasters is emerging at the Department of 
Homeland Security (DHS). In January 2005, DHS established a Center of 
Excellence for Behavioral and Social Research on Terrorism and Counter-
Terrorism at the University of Maryland. The $12 million, three-year 
grant supports basic research in the social sciences, including studies 
on the sources of, and responses to, terrorism, the psychological 
impact of terrorism on society, and how to increase the American 
public's preparedness, response, and resilience in the face of threat. 
In addition, in 2003, DHS established the Center for Risk and Economic 
Analysis of Terrorism Events at the University of Southern California 
to support the development and application of tools for assessing the 
risks and consequences of terrorism. Also, the DHS Scholars and Fellows 
Program supports the development and mentoring of the next generation 
of scientists, including social scientists, as they study ways to 
prevent terrorist attacks within the U.S., reduce America's 
vulnerability to terrorism, and minimize the damage and recovery 
efforts from attacks that do occur.

6. Witness Expertise and Questions:

Susan Cutter is a Carolina Distinguished Professor of Geography at the 
University of South Carolina. She is also the Director of the Hazards 
Research Lab, a research and training center that integrates 
geographical information science with hazards analysis and management. 
Dr. Cutter's primary research interests are in the area of 
vulnerability science--what makes people and the places where they live 
vulnerable to extreme events and how this is measured, monitored, and 
assessed. In response to the 9/11 terrorist attack, Dr. Cutter led a 
team of researchers who examined the use of geographical information 
science techniques (e.g., geographical information systems, remote 
sensing) in the World Trade Center rescue and relief efforts. Dr. 
Cutter has also led post-event field studies of evacuation behavior 
from the 2005 Graniteville, SC train derailment and chlorine spill, and 
the geographic extent of the storm surge inundation along the 
Mississippi and Alabama coastline after hurricane Katrina.
    Dr. Cutter has been asked to address the following questions in her 
testimony:

        <bullet>  How do you assess local or regional vulnerability to 
        environmental hazards? How can differences in vulnerability and 
        losses be anticipated and embodied in mitigation and response 
        to lessen the impact on individuals and places? And what are 
        the limitations of risk modeling in emergency management or 
        response or in determining overall vulnerability?

        <bullet>  How does the natural and built environment impact the 
        perception of risk and subsequent behavior?

        <bullet>  What role do technologies, such as geographic 
        information systems and remote sensing, contribute to 
        forecasting and managing a disaster? How can lessons learned 
        mitigate the consequences of natural hazards and disasters?

        <bullet>  What are the top remaining research questions in this 
        area?

Shirley Laska is a Professor of Environmental Sociology at the 
University of New Orleans and the Director of the Center for Hazards 
Assessment, Response and Technology. Dr. Laska's work has drawn 
attention to the need for more sub-regional analysis of hurricane 
evacuation behavior; more consideration to flood-proofing structures 
for less than 100-year floods to complement more stringent protection; 
more attention to considering local area drainage solutions to 
repetitive flood loss rather than demolition of individual repeatedly 
flooded structures; inclusion of the human/social impacts of coastal 
restoration rather than only the ecological; and also improving hazard 
mitigation outcomes by including community members and stakeholders as 
full participants in efforts to reduce the human risk to hazards. In 
November 2004, she published an article in Natural Hazards Observer 
entitled ``What If Hurricane Ivan Had Not Missed New Orleans?''
    Dr. Laska has been asked to address the following questions in her 
testimony:

        <bullet>  How do you assess local or regional vulnerability to 
        environmental hazards? How can differences in vulnerability and 
        losses be anticipated and embodied in mitigation and response 
        to lessen the impact on individuals and places?

        <bullet>  What are the top remaining research questions in this 
        area?

        <bullet>  How is social science research on disaster 
        preparedness and response being translated into practice? What 
        are the barriers to the implementation of research findings and 
        how can these barriers be overcome or removed?

H. Dan O'Hair is Professor in the Department of Communication at the 
University of Oklahoma. His teaching and research interests include 
organizational communication, health systems, risk communication, and 
terrorism. Dr. O'Hair has published over 70 research articles and 
scholarly book chapters in communication, health, management, and 
psychology journals and volumes, and has authored and edited 12 books 
in the areas of communication, business, and health. In 2006, Dr. 
O'Hair will serve as president of the National Communication 
Association, the world's largest professional association devoted to 
the scholarly study of communication.
    Dr. O'Hair has been asked to address the following questions in his 
testimony:

        <bullet>  How do individuals respond to warnings and other risk 
        communications? How important is the perception of risk--rather 
        than a quantitative estimate of it--in determining individual 
        or societal response to a natural hazard or disaster? And how 
        do responses vary, based on individual cultural, economic and 
        experiential differences?

        <bullet>  How is risk communicated in an uncertain environment? 
        What role does the media play in risk communication and the 
        formation of public views and behavior?

        <bullet>  What lessons have we learned from effective--and 
        ineffective--risk communications about natural hazards or 
        disasters? How are these lessons being used to improve future 
        risk communications?

        <bullet>  What are the top remaining research questions in this 
        area?

Roxane Cohen Silver is a Professor in the Department of Psychology and 
Social Behavior at the Department of Medicine at the University of 
California, Irvine. Dr. Silver is an expert in acute and long-term 
psychological reactions to stressful events, ranging from the loss of a 
child to war and natural disasters, and she has researched and written 
extensively on the predictors of effective coping and the general theme 
of individual and community resiliency. Dr. Silver recently completed a 
three-year national longitudinal study of responses to the September 
11, 2001 terrorist attacks. In 2003, Dr. Silver was appointed to the 
Department of Homeland Security's Academe and Policy Research Senior 
Advisory Committee. More recently, she was appointed to the Department 
of Homeland Security's Homeland Security Advisory Council's Weapons of 
Mass Effect Prevention Task Force.
    Dr. Silver has been asked to address the following questions in her 
testimony:

        <bullet>  How do individuals respond to traumatic experiences, 
        such as terrorist attacks or natural disasters? Are there 
        common misperceptions about the coping process and its outcome? 
        Is misinformation about response to a traumatic experience a 
        problem in terms of managing a natural hazard or disaster?

        <bullet>  What explains the variability in response to a 
        traumatic experience by individuals and by communities?

        <bullet>  What lessons have we learned about individual and 
        community resiliency following a trauma? And how are these 
        lessons being used to design effective interventions for 
        response and recovery?

        <bullet>  What are the top remaining research questions in this 
        area?
    Chairman Inglis. Good morning. I would like to call this 
meeting of the Research Subcommittee to order, and I appreciate 
the presence of our witnesses this morning, and have an opening 
statement.
    Today's hearing on The Role of Social Science Research in 
Disaster Preparedness and Response is one that we undertake 
even as we are beginning to understand the physical and 
emotional consequences of hurricanes Katrina and Rita.
    From the 2001 terrorist attacks to the 2004 Asian tsunami, 
to hurricanes Katrina and Rita, and now, to the devastating 
earthquake in Kashmir, we have been inundated with natural 
disasters and other events recently. Even as this nation comes 
to terms with the human and economic toll of these events, we 
continue to face the threat of terrorism, and inevitable other 
natural disasters that will come our way, as well as potential 
pandemics like the avian flu.
    This committee has heard from experts who can forecast the 
paths of hurricanes with great accuracy, monitor fault lines to 
determine potential danger from earthquakes, and identify 
potential cyberinfrastructure vulnerabilities. It is reassuring 
to know that science and technology can and have aided our 
ability to predict and manage natural hazards and disasters. To 
effectively plan for, mitigate against, and respond to natural 
hazards and disasters, we may also benefit from a better 
understanding of human behavior, and how that behavior can turn 
a localized hazard into a full-blown catastrophe.
    This hearing will focus on the social, behavioral, and 
economic aspects of disaster planning. Among other things, our 
witnesses will discuss how the social sciences assess the 
vulnerability of a group or region, how individuals perceive 
and respond to risk and disaster warnings, and how disasters 
impact individuals and groups. I hope this hearing will 
contribute to a better understanding of the social and 
psychological impacts of a disaster, the complexities of 
disaster response and relief, and the issues that affect the 
physical, social, and economic recovery of individuals and 
communities in general.
    Mark Twain once said that everyone talks about the weather, 
but nobody does anything about it. Well, we will be talking 
about the weather a bit today, and educating ourselves on what 
the social sciences have to offer on these difficult problems 
we face, and how these lessons, especially about the weather 
and other extreme events, can help us plan and prepare for 
additional, more complex hazards and disasters.
    [The prepared statement of Chairman Inglis follows:]
               Prepared Statement of Chairman Bob Inglis
    Good morning. Today's hearing on ``The Role of Social Science 
Research in Disaster Preparedness and Response'' is one that we 
undertake even as we are only beginning to understand the physical and 
emotional consequences of hurricanes Katrina and Rita.
    From the 2001 terrorist attacks, to the 2004 Asian tsunami, to 
hurricanes Katrina and Rita and now to the devastating earthquake in 
Kashmir, we have been inundated with natural hazards and other 
disasters recently. Even as this nation comes to terms with the human 
and economic toll of these events, we continue to face the threat of 
terrorism and inevitable other natural disasters, as well as new 
threats, such as Avian Flu.
    This committee has heard from experts who can forecast the path of 
hurricanes with accuracy, monitor fault lines to determine potential 
danger from earthquakes, and identify potential cyber infrastructure 
vulnerabilities. It's reassuring to know that science and technology 
can and have aided our ability to predict and manage natural hazards 
and disasters. To effectively plan for, mitigate against, and respond 
to natural hazards and disasters, we may also benefit from a better 
understanding of human behavior--and how that behavior can turn a 
localized hazard into a catastrophe.
    This hearing will focus on the social, behavior and economic 
aspects of disaster planning. Among other things, our witnesses will 
discuss how the social sciences assess the vulnerability of a group or 
region, how individuals perceive and respond to risk and disaster 
warnings, and how disasters impact individuals and groups.
    I hope this hearing will contribute to a better understanding of 
the social and psychological impacts of a disaster, the complexities of 
disaster response and relief, and the issues that affect the physical, 
social and economic recovery of individuals and communities in general.
    Mark Twain once said, ``Everyone talks about the weather but nobody 
does anything about it.'' We'll be ``talking about the weather'' a bit 
today and educating ourselves on what the social sciences have to offer 
on the difficult problems we face--and how these lessons, especially 
about the weather and other extreme events, can help us plan and 
prepare for additional, more complex hazards and disasters.
    With that, I'd like to welcome the witnesses who have joined us 
today, and I would turn to the senior Democratic Member, Ms. Hooley, 
for any opening statement she may wish to make.

    Chairman Inglis. With that, I would like to welcome the 
witnesses who have joined us today, and I would turn to our 
Ranking Member, Ms. Hooley, for any opening statement she may 
wish to offer.
    Ms. Hooley. Thank you, Mr. Chairman.
    I am pleased to join you in welcoming our witnesses today 
to this hearing on the role of social and behavioral sciences, 
and understanding how better to prepare for, respond to, and 
recover from natural and manmade disasters. The events of the 
past year bring the importance of this subject sharply into 
focus.
    Greater attention to coping with disasters is prudent when 
one considers the increased vulnerability of the Nation to 
larger disasters associated with growing population 
concentrated in hazardous coastal zones and earthquake-prone 
regions, such as Oregon. And in addition to natural hazards, 
including the threat of avian flu pandemic, we now have the 
ever-present specter of terrorist attacks. We need to develop 
the knowledgebase about the nature of risks, what can be done 
to mitigate them, and how relevant stakeholders can apply that 
knowledge effectively.
    Social science research has a long history of contributing 
to our understanding of the factors and influencing the way 
individuals, communities, and organizations respond to 
disasters. The focus of research has broadened over time to 
tackle various aspects spanning the entire hazard cycle, from 
pre-disaster mitigation through preparedness, response, and 
recovery.
    But in addition to research aimed at increasing 
understanding, attention must be directed and appropriate 
processes put in place to ensure that this increased 
understanding is acted upon by individuals and organizations. 
The main goal of reducing human suffering and physical damage 
is linked to the degree of success that is achieved in applying 
research results.
    Today, I hope to hear from our panel of experts about the 
important research that has been done in the social and 
behavioral sciences, and the research opportunities that are 
being pursued. I am also interested in the state of health of 
the research community that studies disasters, and whether or 
not important research issues are not being adequately 
addressed because of funding shortfalls or faulty priorities.
    But equally important, I am very interested in your 
experiences and thoughts on how research is translated into 
practice. My question would be what is working and what isn't 
working? Are there impediments to applying the findings from 
social and behavioral sciences to disaster planning, recovery 
and response activities of the responsible public and private 
sector organizations?
    Mr. Chairman, I want to thank you for calling this hearing, 
and I want to thank our witnesses for appearing before the 
Subcommittee today, and I look forward to our discussion.
    [The prepared statement of Ms. Hooley follows:]
          Prepared Statement of Representative Darlene Hooley
    Mr. Chairman, I am pleased to join you in welcoming our witnesses 
today to this hearing on the role of the social and behavioral sciences 
in understanding how better to prepare for, respond to, and recover 
from natural and man-made disasters. The events of the past year bring 
the importance of this subject sharply into focus.
    Greater attention to coping with disasters is prudent when one 
considers the increased vulnerability of the Nation to larger disasters 
associated with a growing population concentrated in hazardous coastal 
zones and earthquake prone regions--such as Oregon. And, in addition to 
natural hazards, including the threat of an Avian flu pandemic, we now 
have the ever-present specter of terrorist attack.
    We certainly need to develop the knowledge base about the nature of 
risks; what can be done to mitigate them; and how relevant stakeholders 
can apply that knowledge effectively.
    Social science research has a long history of contributing to our 
understanding of the factors that influence the way individuals, 
communities, and organizations respond to disasters. The focus of 
research has broadened over time to tackle various aspects spanning the 
entire hazards cycle, from pre-disaster mitigation through 
preparedness, response and recovery.
    But in addition to research aimed at increasing understanding, 
attention must be directed and appropriate processes put in place to 
ensure that this increased understanding is acted upon by individuals 
and organizations. The main goal of reducing human suffering and 
physical damage is linked to the degree success is achieved in applying 
research results.
    Therefore, today I hope to hear from our panel of experts about the 
important research that has been done in the social and behavioral 
sciences and the research opportunities that are being pursued. I am 
also interested in the state of health of the research community that 
studies disasters and in whether there are important research issues 
that are not being adequately addressed because of funding shortfalls 
or faulty priorities.
    But equally important, I am very interested in your experiences and 
thoughts on how research is translated into practice. My questions 
would be: What is working, and what isn't working? Are there 
impediments to applying the findings from the social and behavioral 
sciences to the disaster planning, recovery, and response activities of 
the responsible public and private sector organizations?
    Mr. Chairman, I want to thank you for calling this hearing and 
thank our witnesses for appearing before the Subcommittee today. I look 
forward to our discussion.

    Chairman Inglis. And we thank you, Ms. Hooley. Thank you.
    [The prepared statement of Ms. Johnson follows:]
       Prepared Statement of Representative Eddie Bernice Johnson
    Thank you, Mr. Chairman and Ranking Member.
    As the third-ranking Democrat on the Full Committee and former 
Ranking Member of the Research Subcommittee, I am pleased to see the 
Committee's interest in a variety of research sub-specialties, 
including the social sciences.
    We as a nation are limited in disaster preparedness planning unless 
we can better understand human behavior, particularly in emergency 
situations.
    The National Science Foundation accounts for nearly half of the 
federal investment in basic social sciences research at colleges and 
universities. Although NSF will receive an increase in research funding 
for next year, the NSF budget it not nearly where it needs to be.
    It is my hope that today's hearing will uncover how great the needs 
are for social sciences research funding. I am also interested to know 
how Congress can facilitate better connections between researchers and 
emergency planners and responders.
    I would like to extend a warm welcome to today's witnesses and 
voice my support for increased federal funding for NSF and for social 
sciences research.
    Thank you, Mr. Chairman. I yield back.

    [The prepared statement of Mr. Carnahan follows:]
           Prepared Statement of Representative Russ Carnahan
    Chairman Inglis and Ranking Member Hooley, thank you once again for 
hosting this hearing. Dr. Cutter, Dr. Silver, Dr. O'Hair and Dr. Laska, 
thank you for taking the time and effort to appear before us today and 
share your views on the important issue of disaster preparedness and 
response.
    Over the past years, we have become all too familiar with the 
ramifications of disaster, both man-made and natural. Most recently, 
this committee has considered the issue as it relates to the World 
Trade Center collapse and hurricanes Katrina and Rita.
    I represent a congressional district in St. Louis City that runs 
south along the Mississippi river. Our region is near the New Madrid 
earthquake center, which struck the area from 1811 to 1812. These 
sequences are the most powerful earthquakes ever to have been felt on 
the North American continent. The New Madrid Fault System remains a 
threat to our region, and thus, I am eager to learn more about the 
social science implications of a possible earthquake and how our 
community can best plan, respond and recover from an earthquake should 
it occur.
    Thank you for your time today. I look forward to hearing your 
testimony.

    Chairman Inglis. At this point, I will happily introduce 
our witnesses. From my left over here, Dr. Susan Cutter, is a 
Professor of Geography at the University of South Carolina, and 
the Director of the Hazards Research Laboratory. Dr. Shirley 
Laska is a Professor of Environmental Sociology and Director of 
the Center for Hazards Assessment, Response and Technology at 
the University of New Orleans. I am going to skip over Dr. 
O'Hair just a second. And then next to him, Dr. Roxane Silver 
is a Professor in the Department of Psychology and Social 
Behavior and the Department of Medicine at the University of 
California, Irvine.
    And I would recognize our colleague from Oklahoma, Mr. 
Lucas, to recognize, or to introduce to us Dr. O'Hair.
    Mr. Lucas. Thank you, Mr. Chairman, and I appreciate you 
extending me this courtesy.
    And I am proud to introduce one of my fellow Oklahomans. 
Although my district includes Oklahoma State University, which 
is my alma mater, I think all of my fellow third District 
citizens are always pleased, and my fellow OSU-ites, to work 
with our friends from Norman, and I am particularly pleased to 
have him testify before our subcommittee today.
    Dr. H. Dan O'Hair is a Professor of Communications at the 
University of Oklahoma. His teaching and research interests 
include organizational communications, health systems, risk 
communication, terrorism. He has published over 70 research 
articles and scholarly book chapters in communication, health 
management, and psychology journals and volumes, and has 
authored and edited 12 books in the areas of communications, 
business, and health. And in 2006, Dr. O'Hair will serve as the 
President of the National Communications Association, the 
world's largest professional association devoted to the 
scholarly study of communication.
    And I am very pleased to have one of my fellow Oklahomans 
here today. And once again, Mr. Chairman, thank you for the 
courtesy.
    Chairman Inglis. Thank you, Mr. Lucas. We are now going to 
call on our witnesses. I would point out to you that when the 
light is green, keep going. It is just like driving, you know. 
When it is yellow, you have to squeeze the orange and get 
through the light before it turns red. That way, we will get 
all the way through, if you are finished by the red comes, by 
the time the red comes.
    So, thank you for being here. Dr. Cutter.

   STATEMENT OF DR. SUSAN L. CUTTER, CAROLINA DISTINGUISHED 
  PROFESSOR AND DIRECTOR, HAZARDS RESEARCH LAB, UNIVERSITY OF 
                         SOUTH CAROLINA

    Dr. Cutter. Thank you very much, Mr. Chairman.
    The American hazardscape stretches from border to border 
and from coast to coast, and there are very few places in the 
country that are truly devoid of any type of hazard, either 
from natural, technological, or human-induced sources.
    Vulnerability science is an emergent multi-disciplinary 
field that helps us to address these questions of this hearing 
today. What I would like to do this morning is to provide you 
with three examples of social science contributions to our 
understanding of vulnerability science, and then make a few 
remarks on how we can move the Nation forward. Next slide.
    The first example is the improvement in the metrics, 
models, and methods for social vulnerability assessments. Our 
disaster field research tells us that there are pre-existing 
conditions that make certain social groups--the poor, the 
elderly, non-English speaking residents--more vulnerable to and 
slower to recover from disasters. And these findings are 
consistent, irrespective of the disaster agent involved.
    Social scientists at the University of South Carolina have 
developed a quantitative method for assessing social 
vulnerability that permits geographic comparisons over time at 
the county level, as you see here. This social vulnerability 
index tells us where the most socially vulnerable populations 
reside, and more importantly, where additional response and 
recovery resources may be needed before, during, and after an 
event occurs. Next slide.
    [Slide]
    The second example is in the area of integrated hazard 
assessment methodology. Under the Disaster Mitigation Act of 
2000, all State and local entities must have approved 
mitigation plans, and these plans must be based on empirically 
derived hazard vulnerability assessments. In 1997, we developed 
a GIS-based hazard assessment methodology that is now the 
standard for South Carolina, and widely used elsewhere. As you 
see from this slide, the method enables us to look at the 
geographic variations in the hazards themselves, the map with 
mostly pink, and the social vulnerability of residents, which 
is the map mostly in red. When you put them together, it is 
easy to see those areas that have the highest levels of 
vulnerability, but more importantly, the GIS-based approach 
enables us to see what is contributing to it, social or 
physical factors. If all counties in the Nation had this level 
of detail in their hazard vulnerability assessments, preparing 
for and mitigating disasters would be reflective of the true 
risk and vulnerability in a community. Next slide.
    [Slide]
    The third example is in the area of warnings and evacuation 
behavior. Social science research tells us that people evacuate 
as family units; evacuees seek shelter with other family 
members, friends, or in hotels; public shelters are used only 
if there is no alternative; people often won't evacuate because 
of pets; and many residents over-respond to evacuation orders, 
using distance as a way of mitigating the threat. For example, 
during the January 2005 train derailment and chlorine release 
in Graniteville, South Carolina, residents within a one mile 
zone were told to evacuate, and nearly everyone complied. 
However, and if you look at this slide, the second buffer, 59 
percent of the residents who lived in this one to two mile zone 
also evacuated, placing additional burdens on response 
resources, a phenomenon that we call the evacuation shadow. 
Hurricane Rita, an estimated 400,000 people in the mandatory 
evacuation zone, yet more than 2.4 million took to the roadways 
in advance of the storm, producing a very large evacuation 
shadow. Next slide.
    [Slide]
    The good news is that the social sciences have produced the 
basic theory and models for understanding social and behavioral 
responses to disasters, and have demonstrated their application 
to disaster preparedness and response. The second assessment of 
disaster research, funded by the National Science Foundation 
and published by the National Academy, is evidence of this 
success, yet the state of the art social science is often not 
translated into practice, and the Nation must relearn lessons 
time and time again.
    There are some exceptions. With support from the NSF, the 
Association of American Geographers developed a research 
strategy and action agenda for the community in understanding 
the complex issues of terrorism in the aftermath of 9/11, and 
the establishment of the DHS Center on Social and Behavioral 
Responses to Terrorism is one tangible outcome of this action 
agenda. Next slide.
    [Slide]
    The bad news is we still don't know how much disasters cost 
this Nation on an annual basis, nor where these losses are 
occurring. How can we monitor the progress of disaster 
reduction and mitigation programs when we don't have any 
systematic baseline data? With support from NSF, we now have 
the beginnings of such a dataset, called the Spatial Hazard 
Event and Losses Dataset for the U.S., which includes 18 
different natural hazard events, and their losses by county for 
the whole U.S. from the period 1960 to the present. As you can 
see here, these losses are quite variable from year to year, 
but they do show an overall increasing trend, and these losses 
are mainly causes by weather-related events. Next slide.
    [Slide]
    The geographic pattern is even more telling.
    With additional investments in the social sciences, 
significant improvements in disaster preparedness and response 
are achievable. Next slide.
    [Slide]
    While these recommendations have been made before, little 
has been done to implement them, and they are worth repeating. 
Create a national inventory on hazard events and losses; 
establish a national center for vulnerability science; reduce 
the preparedness divide; bring social science findings to 
practitioners; and increase our support of rapid response 
research to secure critical social science and geospatial data 
and information in disasters.
    The hurricane Katrina crisis was precipitated by a physical 
event, but it was the failure of social and political systems 
that turned the natural disaster into a human catastrophe. As a 
nation, we need to understand the human decisions and 
organizational failures that contributed to this disaster, so 
it won't happen again. This is what makes social science so 
important and so relevant.
    Thank you.
    [The prepared statement of Dr. Cutter follows:]
                 Prepared Statement of Susan L. Cutter

The Role of Vulnerability Science in Disaster Preparedness and Response

    The American hazardscape stretches from border to border and from 
coast to coast. There are few, if any, places in the county that are 
truly devoid of any type of hazard--either from natural, technological, 
or human-induced sources. Some places are more hazard-prone than 
others, and some may experience more events or disasters than others, 
but they all contribute to the Nation's landscape of hazards. My 
discipline, geography, has more than a half-century of research 
expertise and practice in examining responses to environmental hazards. 
Starting with Gilbert White's floodplain studies in the 1940s and 
continuing today, geographers have provided the scientific basis for 
disaster and hazard reduction policies and contributed to the Nation's 
understanding of the regional variability in hazardousness.\1\
---------------------------------------------------------------------------
    \1\ G.F. White, 1945. Human Adjustment to Floods. A Geographical 
Approach to the Flood Problem in the United States. Chicago: University 
of Chicago, Department of Geography Research Paper No. 29; Interagency 
Floodplain Management Review Committee, 1994. Sharing the Challenge: 
Floodplain Management into the 21st Century. Washington D.C.: 
Government Printing Office (also known as the Galloway Report).
---------------------------------------------------------------------------
    The question posed for today's hearing, what makes people and 
places vulnerable to natural hazards and disasters, requires first, an 
understanding of the circumstances that place people and localities at 
risk, and second and perhaps more importantly from the social science 
perspective, an understanding of the circumstances that enhance or 
reduce the ability of people and places to adequately respond to such 
threats. These circumstances range from the individual characteristics 
of people or buildings to global-scale processes such as climate change 
or economic globalization.
    Vulnerability science is an emergent multi-disciplinary field that 
helps us to address those questions. It requires a place-based 
understanding of the interactions between natural systems, the built 
environment, and human systems. What I would like to do this morning is 
to provide you with three examples of social science contributions to 
our understanding of vulnerability science, largely drawn from the 
geographical sciences and then make a few remarks on how we can move 
the Nation forward.
    The first example is the improvement in the metrics, models, and 
methods for social vulnerability assessments. Our disaster field 
research tells us that there are certain pre-existing conditions that 
make certain social groups--the poor, the elderly, women, non-English 
speaking residents--more vulnerable to and slower to recover from 
disasters. And, these findings are consistent irrespective of the 
disaster agent involved (e.g., earthquakes, floods, hurricanes).\2\
---------------------------------------------------------------------------
    \2\ See W.G. Peacock , B.H. Morrow and H. Gladwin (eds.), 2000. 
Hurricane Andrew and the Reshaping of Miami: Ethnicity, Gender, and the 
Socio-Political Ecology of Disasters. Miami: Florida International 
University, International Hurricane Center; E. Enarson and B.H. Morrow 
(eds.), 1998. The Gendered Terrain of Disasters: Through Women's Eyes. 
Westport, CT: Praeger; R. Bolin and L. Stanford, 1991. The Northridge 
Earthquake: Vulnerability and Disaster. London: Routledge; The Heinz 
Center, 2002. Human Links to Coastal Disasters. Washington D.C.: The H. 
John Heinz III Center for Science, Economics and the Environment. Susan 
L. Cutter, 2005. ``The Geography of Social Vulnerability: Race, Class, 
and Catastrophe,'' Understanding Katrina: Perspectives from the Social 
Sciences, Social Science Research Council, http://
understandingkatrina.ssrc.org/Cutter/
---------------------------------------------------------------------------
    Social scientists at the University of South Carolina have 
developed a quantitative method for assessing social vulnerability that 
permits geographic comparisons over time at the county level (Figure 
1). As a comparative measure, the social vulnerability index (SOVI) 
tells us where the most socially vulnerable populations reside.\3\ As a 
predictive measure, the social vulnerability index can help State and 
local officials determine where additional response and recovery 
resources may be needed before, during, and after the natural event 
occurs. This empirically based model of social vulnerability 
illustrates the disparities in social vulnerability and graphically 
delineates those areas where extra preparedness will be needed given 
the greater social vulnerability of the residents.
---------------------------------------------------------------------------
    \3\ S.L. Cutter, B.J. Boruff, and W.L. Shirley, 2003. ``Social 
Vulnerability to Environmental Hazards,'' Social Science Quarterly 84 
(1):242-261.
---------------------------------------------------------------------------
    The second example where social science has made significant 
contributions to disaster preparedness is in the area of integrated 
hazards assessment methodology. Under the Disaster Mitigation Act, 2000 
all State and local entities must have approved mitigation plans in 
order to retain eligibility for disaster relief funding under the 
Stafford Act. These mitigation plans must be based on empirically 
derived hazard vulnerability assessments. In 1997, working in 
conjunction with the South Carolina Emergency Management Division, the 
Hazards Research Lab first developed a GIS-based hazard assessment 
methodology that is now the standard for the state (Figure 2), and 
widely used elsewhere.\4\ The method enables us to look at the 
geographic variations in the hazards themselves, but also the social 
vulnerability of residents. When put together, it is easy to discern 
those areas that have the highest levels of vulnerability, but more 
importantly, the GIS-based approach enables us to see what is 
contributing to it--social or physical factors. If all counties in the 
Nation had this level of detail in their hazard vulnerability 
assessments, preparing for and mitigation disasters would be reflective 
of risk and vulnerability in a community.
---------------------------------------------------------------------------
    \4\ S.L. Cutter, J.T. Mitchell, and M.S. Scott, 2000. ``Revealing 
the Vulnerability of People and Places: A Case Study of Georgetown 
County, South Carolina,'' Annals of the AAG 90 (4): 713-737; Also see 
http://www.cas.sc.edu/geog/hrl/products.html.
---------------------------------------------------------------------------
    In another example, the Hazard Research Lab has just returned from 
coastal Mississippi where we were mapping the geographic extent of 
hurricane Katrina storm surge inundation in order to compare it to the 
SLOSH model and to the social vulnerability of residents. We were 
primarily interested in where the physical impacts were the greatest, 
where the most socially vulnerable populations resided, and where these 
areas overlap, for it is in these areas that residents will face 
significant challenges in the longer-term recovery from the disaster.
    The third example of social science contributions is in the area of 
warnings and evacuation behavior. Social science research tells us a 
number of things about evacuation behavior: people evacuate as family 
units; most evacuees seek shelter with other family members, friends, 
or in hotels; public shelters are the least preferred option and are 
only used if there is no other alternative; many people won't evacuate 
because they cannot bring their pets with them, and finally, many 
residents use distance to mediate the threat. This latter point is 
important as it influences and compounds the management of evacuations 
at the local level. For example, during the January 2005 train 
derailment and chlorine release in Graniteville, South Carolina, 
residents within a one-mile zone were told to evacuate. Nearly all 
residents complied with the order. However, our research demonstrated 
that 59 percent of the residents in a 1-2 mile zone (outside the 
mandated evacuation area) also evacuated, placing additional logistical 
and support burdens on response resources, a phenomenon known as an 
evacuation shadow (Figure 3).\5\ These evacuation shadows are common, 
and if not considered in preparedness planning, they have the potential 
to overwhelm the local emergency response system. During hurricane 
Rita, an estimated 400,000 people lived in the mandatory evacuation 
zone yet more than 2.4 million took to the roadways in advance of the 
storm, producing a very large evacuation shadow.
---------------------------------------------------------------------------
    \5\ For a copy of the Graniteville report see http://
www.cas.sc.edu/geog/hrl/projects.html.
---------------------------------------------------------------------------
    The increasing technological sophistication of the spatial social 
sciences, especially those that incorporate GIS and remote sensing also 
have enhanced preparedness and response activities, especially in 
evacuation. Decision support systems produced by social scientists are 
used in Texas to assist public officials in making evacuation 
decisions.\6\ Social scientists at the University of South Carolina 
have developed a spatial decision support system for State emergency 
managers to enable them to rapidly identify remote sensing assets and 
geo-spatial data that can be used during emergencies,\7\ while social 
scientists at the University of Utah have developed spatial decision 
support systems to aid in wildfire evacuation decision-making by local 
officials, to name but a few examples.\8\
---------------------------------------------------------------------------
    \6\ The Evacuation Management Decision Support System (EMDSS) was 
created by social scientists at Texas A&M's Hazard Reduction and 
Recovery Center with support from NSF.
    \7\ The Remote Sensing Hazards Guidance System was developed by 
Michael E. Hodgson at the University of South Carolina with support 
from NASA. See http://www.rshgs.sc.edu/ for more details.
    \8\ Tom Cova (University of Utah) with support from NSF, developed 
a GIS-based animation of the 2003 Southern California wildfires 
evacuations that highlights the spread of the wildfires and the 
implementation of evacuation orders (http://www.geog.utah.edu/?cova/
evac50sd.swf).
---------------------------------------------------------------------------

The Good News

    The social sciences have produced the basic theory and models for 
understanding the social and behavioral responses to disasters and have 
demonstrated their application to disaster preparedness and response. 
Social science research has assisted in the Nation's understanding of 
the root causes of disasters. We are better able to understand the 
disparities in vulnerability and how they lead to differential 
preparedness and response as a consequence of social science work on 
social vulnerability. The increasing use of geo-referenced data 
management systems, especially as the scale of impacts increase, has 
helped to enhance response and recovery efforts. Yet, state-of-the-art 
social science is often not translated into practice and the Nation 
must relearn lessons derived from social science time and time again.
    In response to terrorist attack of 9-11, the Association of 
American Geographers with support from NSF developed a research 
strategy and action agenda in order to harness the considerable 
expertise of the geographical community in understanding the complex 
issues of terrorism.\9\ This social science research and action agenda 
was designed to address important public policy concerns and to 
identify critical research needs in three areas: regional and 
international research related to the root causes of terrorism; 
vulnerability science and hazards research; and geo-spatial data and 
technologies infrastructure research. The Department of Homeland 
Security's National Center on Social and Behavioral Aspects of 
Terrorism, the START Consortium is one outcome from this call for 
action from the social science community.
---------------------------------------------------------------------------
    \9\ S.L. Cutter, D.B. Richardson, and T.J. Wilbanks (eds.), 2003. 
The Geographical Dimensions of Terrorism. New York and London: 
Routledge.
---------------------------------------------------------------------------

The Bad News

    Despite our lengthy national experience with natural disasters, we 
still do not know how much disasters cost this nation on an annual 
basis, nor where those losses are occurring. How can we monitor the 
progress of disaster reduction and mitigation programs when we don't 
have any systematic baseline data on hazard events or the losses they 
produce? How can the effectiveness of public policies designed to 
reduce losses be evaluated when such fundamental data are unavailable? 
With support from the National Science Foundation, we now have the 
beginnings of such a national dataset, the Spatial Hazards Events and 
Losses Dataset for the U.S. (SHELDUS), which includes natural hazard 
events and losses for 18 different natural hazards for the entire 
country from 1960 to the present. As can be seen in Figure 4, losses 
are quite variable from year to year but show an overall increasing 
trend. These losses are mainly caused by weather-related events. The 
geographic pattern, shown here in Figure 5, is illuminating as well, 
with most of the losses in the Pacific Coast and Gulf Coast states 
including Florida, the Southeast, Iowa and the Northern Great Plains, 
and in the Northeast.\10\
---------------------------------------------------------------------------
    \10\ See S.L. Cutter and C. Emrich, 2005. ``Are Natural Hazards and 
Disaster Losses in the U.S. Increasing?,'' EOS, Transactions of the 
American Geophysical Union, 86(41), October 11, 2005, pp. 381, 388-89.
---------------------------------------------------------------------------

The Wish List

    With additional investments in the social sciences, significant 
improvements in disaster preparedness and response are achievable. 
While the following recommendations have been made before, little has 
been done to implement them, thus they bear worth repeating. First, we 
need to create a national inventory or baseline on hazard events and 
losses housed in a social-science based National Clearinghouse with a 
mandate for an annual ``State of Disaster'' report on the Nation's 
progress in achieving disaster resilient communities.\11\ Second, we 
need to establish a multi-disciplinary national center (similar in 
scope to NSF's Science and Technology Centers or Earthquake Engineering 
Research Centers) to focus on vulnerability science, an effort that 
will help us develop and improve the data, methods, and models for 
understanding vulnerability and more importantly, developing tools and 
strategies for improving our resiliency to future disasters.\12\ Third, 
we need to bring our social science to practitioners by providing a 
tool-box of data and procedures for local communities. Not only will 
this reduce the preparedness divide, but it will also create a more 
uniform baseline across the Nation especially with place-based 
vulnerability assessments.\13\ Lastly, we need to increase our support 
of rapid response research to secure critical social science and geo-
spatial data and information in disasters. While the mechanisms are in 
place to activate such Quick Response research grants such as those at 
the Natural Hazards Center or through NSF's Small Grants for 
Exploratory Research, the funding levels are insufficient.\14\ In an 
extraordinary example of recognizing the critical need to support such 
rapid response data collection, the University of South Carolina 
contributed $400,000 of its own money to support 18 research teams to 
gather perishable data in Katrina's aftermath.\15\
---------------------------------------------------------------------------
    \11\ D.S. Mileti, 1999. Disasters by Design: A Reassessment of 
Natural Hazards in the United States. Washington D.C.: The National 
Academy of Sciences/Joseph Henry Press; S.L. Cutter (ed.), 2001. 
American Hazardscapes: The Regionalization of Hazards and Disasters. 
Washington D.C.: The National Academy of Sciences/Joseph Henry Press.
    \12\ See footnote 9, Cutter in footnote 11.
    \13\ See footnote 9.
    \14\ For example, the Natural Hazards Center activated 25 Quick 
Response Grants in response to hurricane Katrina (http://
www.colorado.edu/hazards/qr/katrina.html), but these grants are 
normally less than $2,000 each. The NSF made 49 SGER awards, 14 of them 
to social scientists (http://www.nsf.gov/awardsearch/).
    \15\ Half of the awards are for social science related topics. See 
http://uscnews.sc.edu/rsrc223b.html for the press release.
---------------------------------------------------------------------------
    The hurricane Katrina crisis was precipitated by a physical event, 
but it was the failure of social and political systems that turned the 
natural disaster into a human catastrophe. As a nation, we need to 
understand the human decisions and organizational failures that 
contributed to this disaster so it won't happen again. We need an 
independent review of the local, State, and federal responses to 
hurricane Katrina so we can learn the lessons of what went right and 
what went wrong in the response and use these to improve our 
preparedness and responses to future disasters. The social science 
disaster research community is ready and willing to step up to this 
challenge and participate in such an independent review. Are you 
willing to authorize one?
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                     Biography for Susan L. Cutter
    Dr. Susan Cutter is a Carolina Distinguished Professor of Geography 
at the University of South Carolina. She is also the Director of the 
Hazards Research Lab, a research and training center that integrates 
geographical information science with hazards analysis and management. 
She received her B.A. from California State University, Hayward and her 
M.A. and Ph.D. (1976) from the University of Chicago. Dr. Cutter has 
been working in the risk and hazards fields for more than twenty-five 
years and is a nationally and internationally recognized scholar in 
this field. Her primary research interests are in the area of 
vulnerability science--what makes people and the places where they live 
vulnerable to extreme events and how this is measured, monitored, and 
assessed. She has authored or edited twelve books and more than 85 
peer-reviewed articles and book chapters.
    She was the co-principal investigator on a National Science 
Foundation award to the Association of American Geographers to bring 
the Nation's geographic resources to bear on this important national 
and international priority. This agenda and supporting documents were 
published as The Geographical Dimensions of Terrorism, edited by S.L. 
Cutter, D. Richardson, and T. Wilbanks (editors) in 2003. She is a co-
principal investigator and member of the Executive Committee of the 
National Consortium for the Study of Terrorism and Responses to 
Terrorism (START)(a Department of Homeland Security Center of 
Excellence focused on the social and behavioral sciences).
    In response to the 9/11 terrorist attack, Dr. Cutter led a team of 
researchers who examined the use of geographical information science 
techniques (e.g., geographical information systems, remote sensing) in 
the World Trade Center rescue and relief efforts. Dr. Cutter has also 
led post-event field studies of evacuation behavior from the 2005 
Graniteville, SC train derailment and chlorine spill, and the 
geographic extent of the storm surge inundation along the Mississippi 
and Alabama coastline after the 2005 hurricane Katrina.
    In 1999, Dr. Cutter was elected as a Fellow of the American 
Association for the Advancement of Science (AAAS), a testimonial to her 
research accomplishments in the field. Her stature within the 
discipline of geography was recognized by her election as President of 
the Association of American Geographers in 1999-2000. She serves on 
many national advisory boards and committees including those of 
National Research Council, the AAAS, the National Science Foundation, 
the Natural Hazards Center, and the H. John Heinz III Center for 
Science, Economics, and the Environment.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman Inglis. Thank you, Dr. Cutter. Dr. Laska.

   STATEMENT OF DR. SHIRLEY LASKA, PROFESSOR, ENVIRONMENTAL 
 SOCIOLOGY, DIRECTOR, CENTER FOR HAZARDS ASSESSMENT, RESPONSE 
           AND TECHNOLOGY, UNIVERSITY OF NEW ORLEANS

    Dr. Laska. Thank you very much for permitting me to present 
my testimony today.
    My responsibilities at the University of New Orleans 
include directing an applied social science research center 
focused on assisting coastal Louisiana communities in 
developing resiliency to natural disasters. I have spent the 
last 20 years involved in conducting research on natural 
disasters and the relationship between society and the 
environment.
    CHART, the UNO project I represent, was developed 
specifically to apply social science research to natural 
threats. As a means of answering the questions posed to me by 
your staff, I will describe three CHART projects, one in each 
of the three Congressional districts that comprise southeast 
Louisiana. These three examples show how social sciences can 
partner with communities to understand risk, increase safety, 
and facilitate recovery from environmental hazards, including 
catastrophic events, such as Katrina and Rita. I will limit my 
oral comments to these three examples, because I think this is 
the unique contribution that I can make as a panel member, and 
will end with brief final thoughts about the need for funding 
and recognition of social science research. I apologize for not 
having a PowerPoint. We live with PowerPoint, but my office is 
sealed from entry because of the damage and the mold, and 
therefore, I was not able to do one.
    The first project is in Congressman Jindal's district. FEMA 
has a program called repetitive flood loss. We have been asked 
by FEMA to maintain the files of the repeatedly flooded 
residential structures within the most flooded parishes within 
Louisiana, and to work with local officials and residents to 
assist them in using the data to reduce flood risks to their 
homes and their areas. The logic for the project is that social 
science research argues for having agency assistance that is 
locally situated, able to be involved over a significant period 
of time, and able to develop ongoing working relationships with 
community officials.
    In addition, the project has expanded to demonstrate that 
the repeatedly flooded structures are found in clusters, due to 
sub-basin watershed problems. If the solutions to the repeated 
flooding of individual structures can be addressed in local 
areas, rather than for each individual home, then the integrity 
of the communities is maintained, and there is cost efficiency 
in the process. Urban sociology recognizes that neighborhoods 
are vulnerable to decline if vacant lots are created and not 
maintained, and the communities themselves become vulnerable 
without the tax base previously supported by those structures.
    Considering approaching repetitive loss in a watershed 
manner, rather than by mitigating each individual structure, is 
new to FEMA. It is a neighborhood community response rather 
than an individual one. This project takes a community 
sociology approach supported by GIS, floodplain planners, civil 
engineers, and public administration specialists. Needless to 
say, the data in this project, and the public portal developed 
for it, are being used as we meet to support the long-term 
recovery of the New Orleans area from hurricane Katrina.
    While the repetitive flood loss project provided FEMA with 
a different lens to view the problem of repeatedly occurring 
flooded, the second project illustrates how scientific 
knowledge can be linked to the knowledge of the community. The 
second project is in Congressman Melancon's district. The 
National Science Foundation provided support for CHART to test 
a method of enhancing the capacity of marginalized communities 
to handle natural hazards, and this process is called the 
Participatory Action Research. This is a process of 
collaboration among academics, practitioners, and community 
residents to support improving capacity and resiliency of 
communities that are at risk.
    The community with which the project researches are 
collaborating is a Native American community, Grand Bayou, that 
lives within the marsh outside of the levied area, and has done 
so for at least a century. During hurricanes, they lash their 
boats together in the lee of low lying ridges to protect 
themselves and their valuables. Because coastal subsidence has 
so reduced the elevation of the land, a group of the residents 
selected a canal next to a landfill hill to shelter for 
Katrina, because it was the highest protection they could find. 
Today, they are still living on the boats while seeking FEMA 
assistance.
    The sociological findings beneficial to this project are 
the recognition that pre-disaster discrimination, be it 
economic, educational, or social, will exacerbate the impact of 
a disaster on a community. Sociological research also indicates 
that enhancing the capacity of a community to take 
responsibility, in partnership with government officials, for 
its own hazard and disaster planning, reduces vulnerability and 
contributes to a resiliency when future disasters occur.
    Just last Saturday, I joined the community when they met 
with FEMA representatives to talk about how they might be able 
to place their FEMA trailers at their community center rather 
than to have to relocate a distance from their homes and boats. 
The way in which the community was negotiating their fate and 
expressing their needs in a forceful, informed manner, is a 
demonstration of their capacity that hopefully has been 
assisted in a small way by the Participatory Action Research 
process. The challenge to the community is the time that is 
required by it to overcome marginality. The challenge to the 
applied social scientist is to know what research indicates, 
and to find ways to implement it to the betterment of the 
community. Even though the Grand Bayou community is small, the 
partnership with a group of social and physical scientists 
strengthened their own capacity, and also provide new insights 
for application to other rural coastal communities.
    The project in Grand Bayou shows the universal in the 
particular. The third project shows how traditional social 
science survey data can be transformed into building 
partnership with parish and state government, and empowering 
public officials. The third project encompasses all three of 
the Congressmen's districts, those of Melancon, Jindal, and 
Jefferson. It was a citizen hurricane evacuation behavior 
survey with a large enough sample to be confident of the 
applicability to each of the 12 southeast Louisiana parishes. 
The survey was accomplished by partnering with the parish and 
county emergency managers to create the survey instrument so 
that the information needs of their jurisdictions would be 
supported. They were included in every step of the data 
collection, and were the sponsors and conveners of the workshop 
where the data collectively presented and discussed.
    Six weeks before Katrina struck, the data were also shared 
with the Louisiana Department of Homeland Security and the 
Louisiana Department of Transportation and Development, the 
latter group taking the lead on developing the hurricane 
traffic contra flow program. They used the findings to develop 
their evacuation campaign, and it was deemed a big success; 80 
percent of the population who had automobiles and were able to 
do so evacuated.
    The use of existing social science disaster research for 
this project is very evident. Dr. Susan Howell, Director of the 
University of New Orleans Survey Research Center, first drew 
upon the evacuation literature to develop the preliminary 
questions about evacuation, and prepared a draft instrument for 
review and modification by the emergency managers. With each 
parish's participation, there were improvements to the 
instrument, and unique questions that yielded evacuation 
information needed by specific parishes. Partnering with basic 
researchers, through their findings and phrasing of questions, 
along with the practitioners on the ground, resulted in a 
product and process with the most benefit. The emergency 
managers took ownership of the findings and trusted that they 
represented their residents' evacuation attitudes.
    The rest of my written testimony reviews the importance of 
respecting and funding both applied social science research, 
such as I have described, and also, the basic research on which 
it stands. The benefits of the work CHART does are woefully 
incremental, because of the lack of respect by society for the 
work and findings of the basic social science research.
    My written testimony reviews some of the important examples 
of such basic research about risks and organizational response. 
It ends with a description of how the research of both the 
social scientists and physical scientists went unheeded, as we 
predicted again and again the pending occurrence of a 
catastrophic hurricane that became Katrina. We must find a way 
to hear when scientists do good quality research that pertains 
to the success of our society, and we must hear the findings of 
the social scientists as much as that of the physical.
    Thank you.
    [The prepared statement of Dr. Laska follows:]
                  Prepared Statement of Shirley Laska
    Thank you very much for permitting me to present testimony today. 
My responsibilities at the University of New Orleans encompass 
directing an applied social science research center focused on 
assisting coastal Louisiana communities in developing resiliency to 
natural disasters.
    I have spent the last 20 years involved in conducting research on 
natural disasters and the relationship between society and the 
environment. The Center for Hazards Assessment, Response and Technology 
(CHART), the center I currently direct, was damaged by hurricane 
Katrina. Due to the degree of virulent mold covering the offices and 
contents it has been sealed from access since the storm. The faculty 
associates and graduate students are scattered around the U.S. and of 
those students who have been able to return to the area, almost all 
have been hired by FEMA because of the applied disaster research 
experiences that they have acquired at CHART. I have been asked to 
respond to two very relevant questions. I am going to address the 
second one and in so doing also answer the first.
    Here are the questions:

         What makes people and places vulnerable to natural hazards and 
        disasters? How does the natural and built environment impact 
        the perception of risk and subsequent behavior?

         How is social science research on disaster preparedness and 
        response being translated into practice? What are the barriers 
        to implementation of research findings and how can these 
        barriers be overcome?

Applied Social Science Research on Disasters

    CHART, the UNO center that I represent, was developed specifically 
to apply social science research to natural hazard threats. It was 
created to do so when such a model was not present. CHART is the 
application of sociological research in partnership with communities, 
organizations and government agencies (see Appendix A for a full list 
of the current CHART projects). As a means of answering the questions I 
will describe three CHART projects, one in each of the three 
Congressional districts that comprise southeast Louisiana. Each of 
these projects, as with all of the CHART projects, have both a basic 
and applied component. These three examples show how social scientists 
can partner with communities to understand risk, increase safety and 
facilitate recovery from the catastrophic events of this fall.
Example #1: Repetitive Flood Loss
    The first is in Congressman Jindal's district. FEMA has a program 
called Repetitive Flood Loss. We have been asked to maintain the files 
of the repetitively flooded residential structures within the most 
flooded parishes within Louisiana and to transfer the updated data to 
FEMA headquarters. We have been asked to do this so that CHART can work 
with local parishes and residents to assist them in using the data to 
reduce flood risk to their homes and to their areas. The logic for the 
project is that social science research argues for having agency 
assistance that is locally situated, able to be involved over a 
significant period of time and able to develop ongoing working 
relationships with community officials.
    In addition, the project has expanded to demonstrate that the 
repeatedly flooded structures are found in clusters due to sub basin 
(watershed) drainage problems. If the solutions to the repeated 
flooding of individual structures can be addressed in local areas 
rather than for each individual home, then the integrity of the 
communities is maintained and there is cost efficiency in the process. 
Urban sociology recognizes that neighborhoods are vulnerable to decline 
if vacant lots are created and not maintained and the communities 
themselves become vulnerable without the tax base previously supported 
by those structures.
    Considering approaching repetitive loss in a watershed manner 
rather than by mitigating each individual structure is new to FEMA. It 
is a neighborhood, community response rather than an individual one. By 
the reaction we received to the project when we were invited to demo it 
at FEMA headquarters, it is possible that the project may have national 
applications. This project takes a community sociology approach 
supported by GIS, floodplain planners, civil engineering and public 
administration specialists. Needless to say, the data in this project 
and the public portal developed for it are being used as we meet to 
support the long-term recovery of the New Orleans area from hurricane 
Katrina.
Example #2: Participatory Action Research
    While the repetitive flood loss project provided FEMA with a 
different lens to view the problem of repeatedly-occurring flooding, 
the second project illustrates how scientific knowledge can be linked 
to the knowledge of the community. The second project is in Congressman 
Melancon's district. The National Science Foundation provided support 
for CHART to test a method of enhancing the capacity of marginalized 
communities to handle natural hazards entitled Participatory Action 
Research (PAR). This is the process of collaboration among academics, 
practitioners and community residents to support improving capacity and 
resiliency of communities that are at risk.
    The community with which the project researchers are collaborating 
is a Native American community, Grand Bayou, that lives within the 
marsh outside of the levied area and has done so for at least a 
century. During hurricanes they lash their boats together in the lee of 
low lying ridges to protect them, themselves and their valuables. 
Because coastal subsidence has so reduced the elevation of the land, a 
group of the residents selected a canal next to a land fill to shelter 
for Katrina as the hill created by the solid waste was the highest 
protection they could find. As the storm turned they pressed the boats 
into the bank by keeping the engines pushing forward. Today they are 
still living on the boats while seeking FEMA assistance.
    The sociological findings beneficial to this project are the 
recognition that pre-disaster discrimination--be it economic, 
educational or social--will exacerbate the impact of a disaster on a 
community. Sociological research also indicates that enhancing the 
capacity of a community to take responsibility in partnership with 
government officials for its own hazard and disaster planning reduces 
vulnerability and contributes to a resiliency when future disasters 
occur.
    Just last Saturday I joined the community when they met with FEMA 
representatives to talk about how they might be able to place their 
FEMA trailers at their community center rather than to have to relocate 
a distance from their homes and boats. The way in which the community 
was negotiating their fate and expressing their needs in a forceful, 
informed manner is a demonstration of their capacity that hopefully has 
been assisted in a small way by the Participant Action Research 
process. The challenge is the time that is required by a community to 
overcome the marginality while they must, of course, continue to occupy 
themselves with work--most combining several means of earning a living, 
child care, family and community obligations. The challenge to the 
applied social scientists is to know what the research indicates and to 
find ways to implement it to the betterment of a community. Even though 
the Grand Bayou community is small, the partnership with a group of 
social and physical scientists strengthened their own capacity and also 
provided new insights for application to other rural, coastal 
communities.
Example #3: Hurricane Evacuation Behavior
    The project in Grand Bayou showed the universal in the particular; 
the third project shows how traditional social science survey data can 
be transformed into building partnership with parish and state 
government and empowering public officials. The third project 
encompasses all three of the Congressmen's districts, those of 
Melancon, Jindal and Jefferson. It was a citizen hurricane evacuation 
behavior survey with a large enough sample to be confident of its 
applicability to each of the 12 Southeast Louisiana parishes. The 
survey was accomplished by partnering with the parish (county) 
emergency managers to create the survey instrument so that the 
information needs of their jurisdictions would be supported. They were 
included them in every step of the data collection and were the 
sponsors and conveners of the workshop where the data was collectively 
presented and discussed.
    Six weeks before Katrina struck the data was also shared with the 
La. Dept. of Homeland Security and the La. Department of Transportation 
and Development, the latter group taking the lead on developing the 
hurricane traffic contra flow plan. As each of these governmental units 
warned of the impending peak of the hurricane season and engaged in 
their part of the planning for an evacuation using contra flow, they 
were able to appreciate better how their residents saw the risk, what 
plans the residents were or were not making and what aspects of the 
residents' thinking ran contrary to what the scientists knew about 
safety and evacuation experiences. DOTD used the results in their 
``marketing'' of the contra flow plan and map. However, our findings 
were so worrisome--two-thirds of the population felt safe in their 
homes in a Category 3 storm--that they were uncertain how strong to 
make the media advisory. Fortunately, Katrina approached as a Category 
5 and thus overcame the resistance to evacuation. It is estimated that 
80 percent of the population evacuated (See Appendix B for a report of 
this survey).
    The use of existing social science disaster research for this 
project is very evident. Dr. Susan Howell, Director of the UNO Survey 
Research Center, first drew upon the evacuation literature to ask 
questions about evacuation after hurricane Georges. Her findings from 
that earlier study had some of the longest ``shelf life'' of any of the 
many surveys that she has completed. To complete the recent evacuation 
surveys she drew upon that same literature, prepared a draft instrument 
and then asked for modifications from the Emergency Managers. With each 
parish's participation there were improvements to the instrument and 
questions about unique evacuation information needs of each parish. 
Partnering with the basic researchers (through their findings and 
phrasing of questions) along with the practitioners ``on the ground'' 
resulted in a product and process with the most benefit. The emergency 
managers ``took ownership'' of the findings and trusted that they 
represented their residents' evacuation attitudes.

Research Needs

    Applied research starts with basic scientific research and employs 
it in specific settings and/or to address practical problems. In the 
course of doing applied research, however, we expand on and make 
contributions not only to problem solving, but also to basic science. 
Thus, while the funding of basic scientific research is critical, it is 
not enough if we are to address the needs to understand and mitigate 
risks and disasters. We must take science into the field, test it, and 
modify it. This requires funding sources for applied research, 
especially as it relates to hazards and disasters. When I tried to 
expand the NSF Participatory Action Research Project (described above) 
reviewers questioned the appropriateness of NSF funding such applied 
research. Federal ``mission'' agencies such as EPA, NOAA, and FEMA are 
beginning to recognize the importance of such research but to date this 
has been minor and intermittent. FEMA pleaded ``poverty'' when asked by 
Senator Landrieu after hurricane Ivan to supplement the initial 
evacuation study with a follow up to examine evacuation fatigue after 
the near hit. Much more of a commitment from these agencies is 
necessary.
    The reason for this lack of commitment is the past inability of the 
society to successfully prevent the catastrophic impacts of natural and 
technological disasters. We cannot stop a hurricane, but we can plan 
for evacuations, greater protection, greater resiliency and in general 
safer ways to live and work. So, I believe that it is extremely 
important to fund the broader, more basic research questions of how to 
enable our society to embrace a more successful approach to natural 
disaster response. A significant body of work has emerged but much more 
needs to be done. Examples of such extremely ``useful'' research 
include Charles Perrow 1980s work (Normal Accidents: Living with High-
Risk Technologies) that considered the complexity of the cause of 
technological failure, Lee Clarke's work (Mission Improbable: Using 
Fantasy Documents to Tame Disaster) about the weaknesses in disaster 
response plans and his just released research, Worst Cases in which he 
challenges the use of probability instead of possibility in considering 
risk. Roger Pielke's work explores the importance of integrating social 
science research with the physical in his analysis of climate policy 
and the weather community not embracing the decision needs of users, 
i.e., the human dimensions of the challenge (Prediction: Science 
Decision-Making and the Future of Nature with William Hooke).
    The usefulness of this research is exemplified by Diane Vaughn's 
research The Challenger Launch Decision: Risky Technology, Culture, and 
Deviance at NASA. When the Shuttle Columbia crashed in 2003, the 
investigating commission adopted many of her recommendations in their 
proposal for the reorganization of NASA activities. Ongoing research 
like that of Bob Gramling and Bill Freudenburg on the ``five 
disasters'' of Katrina, all but one being social disasters rather than 
physical, is the type of work that is emerging from this current 
catastrophe which has potential to assist in adjusting the societal 
response to these events.
    Much more of such quality research and implementation of the 
findings must be achieved. We no longer can delude ourselves that we 
have the resources as a society to accept another Katrina, a nuclear 
accident, or any other event of such magnitude when the means to 
mitigate these are emerging from social science research on risks and 
disasters. We must fund such research and keep it front and center as 
we address these critical issues.
    Resistance to ``hearing'' the findings of such basic research as 
well as that of the applied work which we do is remarkable. I want to 
end my testimony with an example demonstrating the extreme resistance 
that must be overcome.
The Tale of the Hurricane Katrina ``Whistle Blowers''
    I was requested to give testimony to this committee for a few 
reasons--having disaster social science expertise, trying to apply the 
findings of social science research, being the Director of a research 
center that was the victim of hurricane Katrina, to name a few. More 
specifically, I was one of the scientists who predicted with unwavering 
accuracy that such an event as Katrina would happen and what the 
results would be when it did. http://www.colorado.edu/hazards/o/nov04/
nov04c.html
    My predictions were a compilation of the research findings of many 
scientists, physical as well as social. And they too were speaking 
about what their findings told them. I was not a lone voice, but rather 
was among a chorus of scientists from both physical and social science 
disciplines who predicted that it would happen and what the 
consequences would be. The specialties of the other scientists included 
coastal geologists, coastal hydrologists who do hurricane impact 
modeling, geographers, demographers, stratification and community 
sociologists, coastal ecologists, civil engineers, political science 
policy specialists and meteorologists. And the cases they made were not 
only in scientific journals but also in the popular media and applied 
professional publications such as Scientific American, National 
Geographic, Natural History, the Natural Hazards Observer, the New York 
Times, Washington Post and Los Angeles Times and the prize-winning 
series in the New Orleans Times Picayune.
    We also presented our conclusions at numerous professional 
gatherings. And when we did one could feel the audience inhale. A few 
would come up after the talk to tell us of their shock. Others would 
say we were exaggerating and dismiss us as ``doomsayers.'' On occasion 
someone would follow up with an e-mail, phone call and take steps to 
broadcast in their own professional or even personal world what we 
predicted was going to happen.
    The last example of this before Katrina was a lengthy phone 
conference call a CHART colleague and I had with a NOAA official four 
days before Katrina hit. He had been horrified by the content of the 
abstract of my June Hart Senate Bldg. presentation available on the 
American Meteorological Society web site predicting Katrina in which I 
described the incredible challenges that the poor would experience 
evacuating the city (http://www.ametsoc.org/atmospolicy/documents/
SeminarFlyer.pdf).
    Before the storm hit he prepared a nationwide letter to the 
Catholic bishops. That was an important personal act but given the 
enormous data available, why didn't the existing research matter enough 
to prevent, or at least, reduce the devastation that has occurred? To 
put it differently, how could it be that the society at all levels was 
not organized or prepared ``to hear.''
    The Federal Government has been the sponsor of most of the research 
that has been conducted by social scientists on environmental 
disasters. Because of its role it is the prime level of government to 
be leading an effort to expand the research and to facilitate its use; 
I encourage it to take stronger responsibility for using the findings 
to the betterment of society.
    It is imperative that social science research be seen as an equal 
contributor to the physical sciences in asking the most pertinent 
research questions about environmental disasters, in formulating 
powerful research questions and in receiving support to implement top 
quality research. But as that is accomplished we must find better ways 
for the organizations, the government agencies, the policy-makers to 
value the findings and to address the obligations of their positions 
more responsibly (a finding of Bill Freudenburg's research on risk and 
``recreancy,'' Social Forces, 1993) and that includes with recognition 
of the importance of using social science research findings.
    Final thought. I was not participating in some abstract 
intellectual exercise during the last few years as I was drawing from 
my own and others' existing research to warn professional group after 
professional group of an impending Katrina. The result of those 
warnings not being heeded was the end of my community. And as our 
warnings were accurate, this doom assessment of the impact is not 
hyperbole. Recovery of coastal Louisiana from hurricanes Katrina and 
Rita is in my opinion uncertain. We do not yet know if we have the 
family, organizational and governmental resources, ability and energy 
to accomplish it. And the cost to the society is astronomical. This is 
the outcome of scientists not being heard. And it doesn't get any more 
personal for a scientist than Katrina has been for me.

Attachment A

      Center for Hazards Assessment, Response & Technology (CHART)

                       University of New Orleans

Mission Statement

    UNO CHART is an applied social science research center devoted to 
enhancing the resiliency of Louisiana communities in light of the 
natural/environmental hazards and technological and homeland security 
risks to which they are vulnerable.

Current Projects

    Regional U.S. Response to Global warming: The Uses of Climate 
Change Science by Gulf Coast Stakeholders (EPA)

    Social Impact Assessment (SIA) of Coastal Restoration Projects: 
Caenarvon, Third Delta, Bayou Lafourche, Port Fourchon, and Lake 
Catherine (La. DNR and Gov. Office of Coastal Affairs)

    Region 6 Repetitive Flood Loss Data Base, GIS and Portal: Reducing 
Repetitive Flood Losses Through Individual and Local Area Measures 
(FEMA)

    Hurricane Evacuation Behavior of Residents of Southeast Louisiana: 
Individual Parish Surveys Guided by Parish Officials' Response Needs 
(FEMA)

    Neighborhood Local Emergency Response Capacity: Assessing 
Improvements from District of Columbia Neighborhood Cluster Plans & 
Drills (DC)

    Enhancing Marginalized Community Resiliency towards Natural 
Hazards: The Use of Participatory Action Research (PAR) in Louisiana 
Coastal Communities (NSF)

    Potential Effects of Climate Change and Variability on 
Transportation Infrastructure and Systems in the Central U.S. Gulf 
Coast (DOT)

    Social/Community Aspects of Coastal Restoration (NOAA)

    Disaster Resistant University Project (FEMA)

    Hurricane Evacuation of Residents without Transportation: Faith-
based/Community/Red Cross/University Collaboration to Develop a Cost-
Sharing Program (BCM and Ghenes Foundations)

    Coastal Community Resiliency in Context of Dramatic Coastal Land 
Loss from Global Climate Change and River Delta Deterioration (NOAA)

Attachment B
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Introduction

    Given the propensity for hurricanes to threaten southeast Louisiana 
and the importance of citizen response to these threats, Southeast 
Louisiana Hurricane Task Force and the University of New Orleans Survey 
Research Center (SRC), in collaboration with the Center for Hazards 
Assessment, Response and Technology (CHART) and the UNO Department of 
Geography, have conducted a study of citizen evacuation behavior in 
twelve parishes. The research was funded by FEMA through its Hazard 
Mitigation Grant Program.
    Working with Office of Emergency Preparedness officials in the 
parishes of the Southeast Louisiana Hurricane Task Force, the UNO SRC 
designed and implemented a survey for each parish to determine citizen 
evacuation decision-making, obstacles to evacuation, and sources of 
information utilized when threatened by a hurricane.
    The surveys were customized to each parish according to the 
recommendations of the OEP officer in that parish. Questions were 
included or excluded depending on the particular situation in each 
parish, and in some parishes certain geographic areas were targeted. A 
description of the geographic composition of each survey is in the 
Appendix.
    At least 400 residents were interviewed in every parish, totaling 
to over 4,800 respondents. This summary report does not combine the 
twelve surveys because there are some clear differences in willingness 
to evacuate and hurricane risk perception from parish to parish, 
differences which would be masked if the surveys were pooled.
    What follows is a summary of the key findings of the Citizen 
Hurricane Evacuation Behavior Surveys and the implications of these 
findings for public education and future evacuations.

Pre-Ivan and Post-Ivan Surveys

    The study began in the spring of 2004, of course not knowing that a 
major evacuation would occur in September 2004 with Hurricane Ivan. As 
a result, eight parishes were surveyed prior to Ivan, one parish was 
split between pre- and post-Ivan surveys, and the remaining three 
parishes were surveyed following the Ivan evacuation. The pre- and 
post-Ivan results are noted when appropriate throughout this report.
    Parishes Surveyed Before Ivan: Orleans, Jefferson, Plaquemines, St. 
Bernard, LaFourche, Assumption, Terrebonne, St. Tammany (south of I-
12), St. James (half).
    Parishes Surveyed After Ivan: St. John, St. Charles, Tangipahoa 
(south of I-12), St. James (half).

Risk Perception

    The most remarkable finding in this study is the low perception of 
risk felt by most residents in southeast Louisiana. In nine of the 
twelve parishes, 60 percent or more of the respondents said they felt 
safe in their homes if a Category 3 hurricane came near.\1\ Far fewer 
residents believe they would be safe in a Category 4 storm, indicating 
that the difference between Category 3 and Category 4 is the border at 
which most people believe they are at risk (Table 1). However, based on 
predictions about flooding from federal agencies, disaster officials in 
all of these parishes consider nearly everyone in the areas surveyed to 
be at risk in their home in a Category 3 hurricane.
---------------------------------------------------------------------------
    \1\ Exceptions are Plaquemines--36 percent, Assumption--46 percent, 
and St. Charles--58 percent.
---------------------------------------------------------------------------
    Two factors summarize why people feel safe in their homes in a 
Category 3 hurricane: beliefs about the strength or location of their 
house and their past experiences. The following specific perceptions 
and experiences are at the root of this feeling of safety:

        <bullet>  Having lived in south Louisiana more than thirty 
        years

        <bullet>  Never having lived in a home damaged by a hurricane

        <bullet>  A belief that one's home is strong, sturdy, brick, 
        elevated, or some other factor that protects it

        <bullet>  A belief that one's home is on high ground/not in a 
        flood zone.

    People naturally rely on their past experiences to assess how safe 
they are. Many residents of southeast Louisiana have lived here all of 
their lives and never experienced hurricane damage to their home. In 
fact, an average of 40 percent of residents in these parishes have both 
lived in southern Louisiana more than thirty years and have never had 
hurricane damage to their home (Table 1). It is difficult for some of 
these longtime residents to realize that the environment is much 
different today, and that past experiences are probably not relevant.
    In eight of the twelve parishes,\2\ high and middle income 
residents feel safer than lower income residents, which sounds 
reasonable on the surface because low income people are more likely to 
live in trailers, less sturdy houses, or in low lying areas. However, 
having a well-built house or living in an elevated subdivision does not 
mean you are safe in a Category 3 hurricane. Public education about the 
lack of protection in a Category 3 afforded by a ``strong'' house or a 
housing development that is higher than the surrounding area is needed.
---------------------------------------------------------------------------
    \2\ In three parishes income had no relationship to risk 
perception, and in Assumption, the non-poor (those with more than 
$25,000 annual income) feel less safe.
---------------------------------------------------------------------------
    There is no evidence that the Ivan experience affected citizens' 
perception of risk in a Category 3 hurricane. This makes sense when we 
remember that Ivan was a Category 4, the type of storm where many more 
people feel in danger, so there is no reason the Ivan experience would 
affect risk perception in a Category 3.

Willingness to Evacuate When Recommended

        <bullet>  Sixty percent or more of residents in all twelve 
        parishes say they would leave their home for a safer place if 
        evacuation were recommended by public officials (Table 2). 
        Because these answers are exaggerated by social desirability 
        bias, a more reliable estimate is those who responded that they 
        would ``definitely'' evacuate, not those who merely said they 
        would ``probably'' evacuate. Those who say ``definitely'' 
        ranged from a low of 27 percent in Jefferson to a high of 52 
        percent in St. Charles, averaging 34 percent across the twelve 
        parishes.

        <bullet>  In all of the parishes the perception of risk in a 
        Category 3 storm is the best predictor of intention to 
        evacuate. This may seem somewhat obvious, but it illustrates 
        why educating citizens as to their risk is important. As long 
        as so many residents do not perceive much risk, they will not 
        be inclined to leave their homes in a Category 3 storm, even 
        with an official recommendation.

Actual Evacuation in Last Recommended Evacuation

    As we might expect, in nearly all of the parishes the number of 
people who actually leave their home after an official recommendation 
is much lower than the number who say they would leave.\3\ In fact, the 
percentage that left their home in the last recommended evacuation 
varied considerably across these twelve parishes (Table 2) depending 
partly on actual risk (the location of the parish relative to the 
coast, parish elevation, the severity and direction of the storm), and 
the perception of risk.
---------------------------------------------------------------------------
    \3\ The exception is St. Charles where 71 percent actually left 
their homes in Ivan.

        <bullet>  Among the four parishes where Lili was the last 
        recommended evacuation, evacuation levels ranged from a low of 
        13 percent in southern St. Tammany to a high of 53 percent in 
        Plaquemines. A similar pattern emerged in parishes where 
        Georges was the last recommended evacuation; St. James had the 
        lowest percent evacuating (21 percent), and Jefferson was the 
        highest (46 percent). Again in the post-Ivan parishes the 
        effect of geography was apparent with southern Tangipahoa 
        having the lowest percent evacuating (17 percent) and St. 
---------------------------------------------------------------------------
        Charles the highest (71 percent).

        <bullet>  Evacuation north of Lake Ponchartrain, in the areas 
        south of I-12 in St. Tammany and Tangipahoa, is a relatively 
        new phenomenon. As a result, these residents have felt 
        protected by geography from hurricanes; 65 percent in St. 
        Tammany south of I-12 and 74 percent in Tangipahoa south of I-
        12 say they are safe in their homes in a Category 3 storm. This 
        perception is the primary barrier to evacuation.

        <bullet>  In ten of the twelve parishes, the perception of risk 
        in a Category 3 storm is the single best predictor of actually 
        leaving home in the last recommended evacuation.\4\
---------------------------------------------------------------------------
    \4\ Exceptions are Jefferson, where the best predictor of 
evacuation in Georges is being female, and St. James where the best 
predictor of evacuation in Ivan is perceived risk in a Category 4.

---------------------------------------------------------------------------
Citizen Focus on Storm Category

        <bullet>  In every parish citizens focus on the severity or 
        category of the storm and how much threat they think it means 
        in deciding whether or not to leave. In open-ended questions 
        about why people left in the last recommended evacuation, storm 
        severity was always the first or second response (Table 3).

        <bullet>  Storm severity is also cited often as a reason not to 
        leave, i.e., ``it was not severe enough.'' This focus on storm 
        category is why citizen cooperation with a recommended 
        evacuation depends on their awareness of what category is 
        dangerous for them.

Types of People Are Most/Least Likely to Evacuate (Table 4)

        <bullet>  In eight of the twelve parishes females are more 
        likely than males to cooperate with an official recommendation 
        to evacuate during a hurricane.\5\ This pattern has been 
        repeatedly found in studies of evacuation in other areas of the 
        country. Females are more likely to take responsibility for 
        children and the elderly, and generally more likely to be 
        cautious. In no parish are males significantly more likely to 
        evacuate.
---------------------------------------------------------------------------
    \5\ Parishes in which males and females left their homes in nearly 
equal proportions are Orleans, Plaquemines, southern St. Tammany, and 
Tangipahoa.

        <bullet>  In six of the twelve parishes, people who have lived 
        in a home damaged by a hurricane are more likely to heed the 
        official recommendation to evacuate.\6\ As mentioned above, 
        they are more likely to feel they are at risk. In these six 
        parishes, an average of less than half (42 percent) of the 
        residents have ever experienced hurricane damage. In some ways 
        southern Louisiana is now a victim of its past good luck; most 
        residents have not experienced damage, and lack of prior 
        hurricane experience promotes a feeling of safety and thus 
        resistance to evacuation.
---------------------------------------------------------------------------
    \6\ Parishes are Assumption, Lafourche, St. Bernard, St. James, 
Terrebonne, and St. John.

        <bullet>  In six of the twelve parishes, people who have lived 
        in southern Louisiana more than thirty years are less likely to 
        evacuate.\7\ Long-term residents have lived through many 
        hurricane threats, and since most of those hurricanes have not 
        directly hit southern Louisiana, these residents are less 
        likely to feel that they should leave their homes. An average 
        of 74 percent of the residents in these six parishes have lived 
        in southern Louisiana more than thirty years. In no parish were 
        long-term residents significantly more likely to evacuate.
---------------------------------------------------------------------------
    \7\ Parishes are Assumption, Jefferson, Plaquemines, St. Charles, 
Terrebonne, and Tangipahoa.

---------------------------------------------------------------------------
The Role of Income

        <bullet>  The role of income is not simple. If we are referring 
        to leaving one's home, income has no consistent relationship to 
        evacuation. In Lafourche, Plaquemines and southern Tangipahoa 
        lower income residents were more likely to evacuate than higher 
        income residents. But in Orleans, the higher income residents 
        were more likely to evacuate, and in Assumption and St. James, 
        the non-poor (over $25K income) were more likely to evacuate. 
        Furthermore, in six parishes income bore no relationship to 
        evacuation.

        <bullet>  However, in six of the nine parishes surveyed prior 
        to Ivan, residents with lower incomes were more likely than 
        those with higher incomes to either evacuate within their 
        parish or go to another nearby evacuating parish (Table 5).\8\ 
        Many of these evacuees probably went to friends' or relatives 
        homes, or to a place of employment, where they felt safer than 
        in their own homes.
---------------------------------------------------------------------------
    \8\ The exceptions to this pattern are Plaquemines where people 
went to a safe regardless of income, Terrebonne, where evacuees did not 
go to a safe place regardless of income, and St. Tammany where an 
evacuee could remain within their parish and still be safe.

        <bullet>  In the stronger storm, Ivan, low income evacuees 
        tended to go to safe areas.\9\
---------------------------------------------------------------------------
    \9\ The exception is St. James in Ivan, where the low income 
residents were much less likely to go to a safe place.

        <bullet>  Thus, although income is not related in any 
        consistent way to leaving one's home during a recommended 
        evacuation, income is related to the distance traveled, 
---------------------------------------------------------------------------
        especially if the storm is below a Category 4.

        <bullet>  The number of low income residents who remain in 
        harm's way illustrates the need for both education about the 
        need to travel far enough and providing evacuation assistance 
        to those without means.

The ``Ivan Effect''?

        <bullet>  Ivan was the largest evacuation experienced by 
        southeastern Louisiana, but from our research, there does not 
        appear to be either a positive or negative effect on 
        willingness to evacuate in the future.

          <bullet>  Willingness to evacuate in the hypothetical 
                evacuation scenario is nearly identical in the pre- and 
                post-Ivan parishes.

          <bullet>  Residents in the parishes surveyed after Ivan 
                perceive no more or less risk in a Category 3 hurricane 
                than residents in the parishes surveyed prior to Ivan.

          <bullet>  An average of 86 percent of Ivan evacuees in the 
                four post-Ivan parishes say they would do the same 
                thing under similar circumstances. This is quite 
                similar to the responses after Georges and Lili.

          <bullet>  The percentage of people saying they have an 
                evacuation plan is the same in the post-Ivan parishes 
                and the pre-Ivan parishes.

          <bullet>  Those who spent the most time on the road were no 
                less willing to evacuate in the future.

The Role of Family and Friends

        <bullet>  The process of deciding to evacuate during a 
        hurricane is not just a matter of waiting for the official 
        recommendation. Friends and relatives play an important role in 
        an individual's decision about what to do in two ways:

         <bullet>  People receive advice from friends and relatives.

         <bullet>  People evacuate due to concern for a friend or 
                relative.

        <bullet>  In three of the four parishes surveyed after Ivan, 
        one or both of the factors above were mentioned spontaneously 
        second only to the severity of the storm as a response to the 
        question, ``What convinced you to go someplace else'' (Table 
        3).\10\
---------------------------------------------------------------------------
    \10\ We cite the post-Ivan parishes here because answers to 
questions about reasons for evacuation in Ivan are more reliable than 
answers about behavior in previous storms.

---------------------------------------------------------------------------
Evacuation Planning

        <bullet>  In nine of the twelve parishes 41-49 percent say they 
        have a definite evacuation plan (Table 1). These numbers are 
        probably inflated by social desirability, but having a plan is 
        related to actual evacuation in Ivan. Of course, planning is 
        also a consequence of a person's intention to evacuate, so 
        these two behaviors mutually reinforce each other.

        <bullet>  Having an evacuation plan, like evacuation itself, is 
        related to risk perception. People who believe they are at risk 
        in a Category 3 hurricane are more likely to have a definite 
        plan. So we return full circle to the importance of knowing 
        one's actual risk.

Sources of Information and Advice

        <bullet>  In every parish, the TV meteorologists are the most 
        important source of information, which is not surprising given 
        the saturating nature of weather coverage during a hurricane. 
        However, the meteorologists are utilized more as sources of 
        information about the category and projected path of the storm, 
        rather than advice about what to do. Residents rely on their 
        own perceptions of risk, past experiences, public officials, 
        family, and friends in making an evacuation decision.
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        

                      Biography for Shirley Laska
    Dr. Shirley Laska is Director of the Center for Hazards Assessment, 
Response and Technology (CHART) and Professor of Sociology at the 
University of New Orleans. Prior to serving as the University's Vice 
Chancellor for Research from 1993-2001 she founded the Environmental 
Social Science Research Institute, precursor to CHART. Dr. Laska is an 
environmental and natural hazards sociologist with a focus on 
encouraging the application of social science to societal challenges 
engendered by these phenomena. For this effort in 2000 she received the 
Outstanding Contribution to Environment and Technology Award given by 
the American Sociological Association. For over 20 years she has been 
engaged in policy and applied research funded by federal agencies such 
as EPA, MMS, FEMA, NOAA, Sea Grant and HUD as well as State and local 
agencies. Her work has drawn attention to the need for more sub-
regional analysis of hurricane evacuation behavior; more consideration 
of government support of self-protective homeowner flood mitigation 
responses; more attention to considering local area drainage solutions 
to repetitive flood loss rather than demolition of individual 
repeatedly flooded residences; inclusion of the human/social impacts of 
coastal restoration rather than only the ecological; and also improving 
hazard mitigation outcomes by including community members and 
stakeholders as full participants in efforts to reduce the human risk 
to hazards.
    Dr. Laska received a BS degree in Communications at Boston 
University, 1966; a Ph.D. in Sociology at Tulane University, 1973; and 
was post-doctoral fellow at the International Center for Medical 
Research, Tulane University, School of Medicine, 1972-74. She is the 
author, co-author or editor of several books and book chapters, and has 
published numerous articles in the peer-reviewed literature.

    Chairman Inglis. Thank you, Dr. Laska. Dr. O'Hair.

    STATEMENT OF DR. H. DAN O'HAIR, CHAIRMAN, DEPARTMENT OF 
             COMMUNICATIONS, UNIVERSITY OF OKLAHOMA

    Dr. O'Hair. Chairman Inglis, Ranking Member Hooley, my home 
State Congressman Lucas, and Members of the Subcommittee, good 
morning. I want to thank you for inviting me to share my 
thoughts on the role of the social science research in disaster 
preparedness and response. It is a privilege to testify before 
you this morning.
    You asked that I respond to four questions in my brief 
five-minute presentation, and I will address each one in turn.
    First, how do individuals respond to warnings and other 
risk communication? Risk communication and crisis communication 
have been studied for a couple of decades on a formal basis, 
but after 9/11 and the anthrax crises in 2001, and now, more 
recently, with hurricane Katrina, the tsunami, and Rita, a 
renewed emphasis has been placed on understanding how public 
officials communicate risks and warnings to the public. The 
most recent iteration is President Bush communicating risk 
messages about the potential for an avian bird flu pandemic. In 
many ways, risk communication can cultivate a culture of 
awareness that Jay Wilson alluded to earlier this year at a 
hearing of the House Science Committee on the subject of 
tsunami preparedness. Slide.
    Substantial research has been devoted to risk perception 
factors, that include an individual's perception of dread, 
their sense of control, whether the threat is manmade or 
natural, and whether it affects children. Sociopolitical 
factors, such as power, status, ethnicity, culture, education, 
and perhaps most importantly, trust, are known to influence 
people's perception and acceptance of risk. Slide.
    [Slide]
    What role does the media play in risk communication and the 
formation of public behaviors and views? People depend upon 
multiple sources of information for risk information, including 
TV, radio, newspapers, friends, and the Internet. Recent 
research indicates that some people first learn of disasters 
from others. For example, instant messaging was a prevalent 
means of warning during the tsunami disaster. Slide.
    [Slide]
    Often, the media operate from a sensationalism principle, 
where their interest is in casting the context of risk through 
political and human interest lenses, frequently omitting risk 
factors. This was particularly evident during the coverage of 
Katrina, where opinionated journalism became accepted among 
some of the more harsh media critics. It was difficult for 
journalists to separate their human emotions from their 
reporting. Slide.
    [Slide]
    However, in the aftermath of Katrina, the media provided 
much needed information, emotional support, and companionship 
to victims who felt isolated and alone. So, from these 
contrasting views, we have come to learn that journalistic and 
broadcast activities create what we have termed the paradox of 
media coverage. On the one hand, media serve a number of 
valuable, if not essential, functions for victims, consumers, 
government officials, and other organizations. Alternatively, 
the media often frame their messages in ways that omit critical 
information, sensationalize the situation, and politicize the 
context of the disaster event. Slide.
    [Slide]
    What lessons have we learned from effective and ineffective 
risk communication about natural disasters and hazards? A GAO 
report citing extant risk communication research suggests that 
the most important principles for communicating risk and threat 
information involves the following: messages should be 
consistent, accurate, clear, provided repeatedly through 
multiple methods; two, information should be timely; and three, 
information should be specific about the threat, including the 
nature of the threat, when and where it is likely to occur, and 
directions on preventive measures or protective responses.
    Another important issue is what we call the risk-source 
match. Do we have the right person communicating for the right 
crisis with the right message? We found through research that 
when the event is national, federal spokespersons are 
preferred. When the event is more localized, people want 
someone they know, someone from their community.
    Trust is an all important goal of risk communication 
strategies. Earlier this year, the World Health Organization 
issued its long awaited guidelines for outbreak communication. 
Trust building is the first communication principle highlighted 
in their document. Research had also demonstrated that 
different government organizations elicit different 
expectations about trustworthy activities, and accordingly 
require different trust enhancing securities. Slide.
    [Slide]
    What are the top remaining research questions in this area? 
First, building a community based communication infrastructure. 
Risk and crisis communication programs must be designed, 
tailored, and executed at the community level. Through these 
processes, community specific communication infrastructures can 
be built to facilitate risk and crisis communication plans. 
Second, media use is often thought of as a moving target, with 
new services and tools rolled out on a continuous basis: 
alerting services, blogs, instant messaging, reverse 911, et 
cetera.
    Given the expectation of emergent media and their use by 
individuals, which of these media are most recognized as 
trustworthy sources of information and advice during disaster 
conditions, and what conditions of media are utilized in 
various conditions? Additional research questions should focus 
on literacy and intercultural issues, as well as leveraging 
technology. Slide.
    [Slide]
    Let me summarize by stating how gratified I am that one of 
the organizations that this subcommittee oversees, the National 
Science Foundation, on multiple occasions has identified risk 
communication as an essential ingredient in a complex array of 
processes necessary for disaster preparedness, response, and 
management. Just about every GAO report on public response to 
emergencies places communication on the top of the list. I echo 
this sense of priority.
    My colleagues and I from the social sciences welcome the 
challenge and opportunity to play an important role in building 
a communication infrastructure that addresses the essential 
components of communicating effectively with our citizenry 
before, during, and after disasters.
    This concludes my prepared statement. I would be happy to 
answer any questions that you may have.
    [The prepared statement of Dr. O'Hair follows:]
                  Prepared Statement of H. Dan O'Hair
    Chairman Inglis, Ranking Member Hooley, my home state Oklahoma 
Congressman Lucas, and Members of the Subcommittee, good morning. I 
want to thank you for inviting me to share my thoughts on the role of 
social science research in disaster preparedness and response. It is a 
privilege to testify before you this morning, not only as a research 
faculty member of the University of Oklahoma and incoming President of 
the National Communication Association, but also as a social scientist 
interested in the intersection of communication research and disaster 
preparedness and response.
    You asked that I respond to four questions in my brief five minute 
presentation. I will address each one in turn. However, before doing so 
I want to comment on the status of research on risk and crisis 
communication. Our research group at the University of Oklahoma has 
discovered well over 120 different systemic bodies of work on risk and 
crisis communication. These are not single research projects but 
theories, concepts, and lines of thought pertaining specifically to 
risk and crisis communication. Like other scientific communities, 
varying opinions are common with occasional disagreement over 
fundamental issues; however, I find that level of contentiousness 
healthy, especially in light of how far communication science has 
progressed in the last ten years. In a briefing delivered to Congress 
last year, I termed this state of affairs as an ``embarrassment of 
riches.'' Let me give you illustration of what I am referring to. The 
Figure One reflects the state of the field about a decade ago. The 
risk/crisis communication process was conceived of as relatively direct 
and linear. The Figure Two demonstrates the complexity of the field of 
risk and crisis communication today. As you can see, we have 
substantive theoretical research from which to work. In the time I have 
remaining allow me to unpack a few of these issues.

First, how do individuals respond to warnings and other risk 
communications? How important is the perception of risk--rather than a 
quantitative estimate of it--in determining individual or societal 
response to a natural hazard or disaster? And how do responses vary, 
based on individual cultural, economic and experiential differences?

    Risk communication and crisis communication have been studied for a 
couple of decades but after the 9/11 and anthrax crises in 2001, and 
now more recently with the tsunami, Katrina, Wilma, and Rita, a renewed 
emphasis has been placed on understanding how public officials 
communicate risk and warnings to the public. The most recent iteration 
is President Bush communicating risk messages about the potential for 
an Avian Bird Flu Pandemic. In many ways, risk communication can 
cultivate a ``culture of awareness'' that Jay Wilson alluded to earlier 
this year at a hearing of your House Science Committee on the subject 
of tsunami preparedness.

Risk Perception

    Substantial research has been devoted to risk perception factors 
(Ropeik & Slovic, 2003) that include an individual's perception of 
dread (the significance of the threat), their sense of control (the 
extent to which they feel they have some level of management over the 
threat), whether the threat is man-made or natural. Other issues 
pertinent to risk perceptions include: does it affect children, is the 
risk novel or new, and what is the risk probability (can it happen to 
me)? Additional factors weighing into the risk perception equation 
includes the magnitude of the perceived risk--people have a tendency to 
overestimate small risks and underestimate large risks (LaFoutain, 
2004); gender--white males seem to perceive risks differently than 
other groups--on average, they perceive risks as much smaller and much 
more acceptable than do other people; and sociopolitical factors such 
as power, status, ethnicity, culture, education, and trust are known to 
influence people's perception and acceptance of risk (Flynn, Slovic, & 
Mertz, 1994).
    A different line of research has demonstrated a ``negativity bias'' 
where people weigh negative information more strongly than positive 
information (Flynn et al., 2002), while other studies reveal an 
opposite pattern where people feel a sense of self-efficacy toward 
risks leading to an ``optimistic bias.'' Given the varying perception 
levels among certain groups, it is concerning that the National 
Research Council reports that much of the forecast delivery messages 
are designed for ``the educated, the affluent, the cultural majority, 
and the people in power,'' with the least effective messages oriented 
for minorities, the elderly, and the poor (NRC, 1999, p. 86).
    One of the more interesting and potentially frustrating perceptions 
that some individuals formulate is ``intuitive epidemiology'' 
(Kalichman & Cain, 2005). These lay-experts have been exposed to enough 
of risk message regarding the threat and have formulated their 
estimation of how serious and likely the threat is for them. If an 
individual from a non-metropolitan area is introduced to risk messages 
about the potential for an avian flu pandemic, s/he may deduce that 
since their exposure rate is minimal they are not really obligated to 
take the precautions offered by the risk communication. Risk 
communicators should take into account these intuitive epidemiologists 
as they design their messages for a potentially recalcitrant audience.

Perceptual Distance

    What we call perceptual distance is the extent to which risk 
message recipients find a risk salient or important whenever they hear 
about it. Do their perceptions lead them to believe that the risk is 
going to have any impact on their lives? We conducted a study a few 
years ago of local television newscasts where we asked individuals to 
rank the importance or the saliency of various news items during a 6:00 
p.m. newscast (Behnke, O'Hair, & Hardman, 1990). We found that high on 
the viewers list of most important items, those most salient to them, 
was an 18-wheeler turning over on I-10. Conversely, much lower on their 
list was an item focusing on the tragic deaths of U.S. servicemen that 
same day. They did not experience enough perceptual nearness to that 
particular news item, but they certainly perceived that an overturned 
18-wheeler in their community could have implications for them. In 
other words, risk and crisis communicators oftentimes overestimate what 
the public is going to perceive as important simply because the 
communicators themselves think that an issue is salient.
    Studies have been conducted at the University of Oklahoma on 
temporal displacement. Our interest was in determining the effect of 
time on specific events--the two events that we were focusing upon were 
the Oklahoma City bombing and the 9/11 crises. Study participants 
reported that the longer away they were from these particular events 
the less significant they found them to be in their lives. Temporal 
displacement reduced the saliency of these events in their lives. We 
are only beginning to understand the conceptual and practical 
implications of such findings.

How is risk communicated in an uncertain environment? What role does 
the media play in risk communication and the formation of public views 
and behavior?

Media Use

    People depend on multiple sources of information for risk 
information including TV, radio, newspapers, friends, and the Internet 
(Rodriquez, 2004; Stempel & Hargrove, 2002). Previous research 
indicates that some people first learn of disasters from others 
(Greenberg, Hofschire, & Lachlan, 2002). For example, instant messaging 
was a prevalent means of warning during the tsunami disaster. Other 
research has revealed a ``hierarchy of resort.'' Some people first turn 
to broadcast media, then to print, Internet, and interpersonal sources. 
These latter sources serve to confirm, reassure and get more in depth 
information. Alternatively, there are other groups of the isolated, 
impoverished, minority and rural segments who rely on interpersonal and 
community sources of information first (Glik, 2005). In other research, 
women were more likely than men to seek information from the media 
pertaining to family management needs; they appear to assume more 
responsibility for dealing with the adaptation to a crisis (Seeger, 
Vennette, Ulmer, & Sellnow, 2002). As media convergence continues to 
evolve, more individuals are likely to access media that offers 
multiple options for information acquisition (Greenberg, Hofschire, & 
Lachlan, 2002).

Uncertainty and Media Access

    In the wake of multiple disasters in the last five years, most 
people assume they live in an uncertain if not risky environment. 
Multiple studies have demonstrated that people cope by blocking 
information from their awareness and strive for a ``new normalcy.'' 
This phenomenon has motivated our research team to envision a 
Complacency-Curiosity-Immediacy-Criticality (C-C-I-C) Framework that 
integrates individual risk forecasting, information management 
processes, and media access (O'Hair, 2005). When risk probability is 
low, risk messages are unlikely to resonate with individuals who will 
have little motivation to seek or process information from media 
sources. When risk probability is heightened, individuals become 
curious, process risk messages more directly, and may seek additional 
information from the media. As the threat of risk becomes more salient, 
individuals become more immediate in their desire for information and 
will intensify their media exposure. In the last stage, when threat 
seems imminent, the process of information seeking becomes acute and 
media access becomes vigorous if not frantic.

Sensationalizing Risk

    It is obvious that the media construe risk information according to 
their own perspective. Often, their viewpoint operates from the 
``sensationalism principle,'' where their interest is not in perceiving 
risk information at face value, but rather casting the context through 
political and human interest lenses frequently omitting risk factors 
(LaFountain, 2004). This was particularly evident during coverage of 
Katrina where ``opinionated journalism'' become accepted even among 
many of the more harsh media critics. It was difficult for journalists 
to separate their human emotions from their reporting.

Message Framing

    Message framing is a preeminent characteristic of risk 
communication. For example, the public does not want to be patronized. 
``Don't worry. We're from the government, we're here to help'' (Rowan, 
2004). Most of us here certainly know how to frame messages. We don't 
frame the same message to our spouses as we do with our children or 
with constituencies or colleagues. The media have become 
extraordinarily facile at message framing as have political campaign 
managers. Previous research indicates there are three ways that the 
media typically frame messages. The first type is a thematic frame, 
where general issues are relayed. Another framing strategy is episodic 
where the message emphasizes specific episodes, emphasizing specific 
people, specific perpetrators, and victims--a human element frame so to 
speak. The third type of frame is termed strategic, and this is where 
the story is slanted in a particular way, often negatively. Our 
research has demonstrated that taking the same basic message by framing 
it differently will evoke different cognitive and emotional responses 
in the receiver. The most recent instantiation of framing came during 
coverage of Hurricane Katrina where the media portrayed an America 
divided along racial lines. Following the coverage, an early September 
Pew survey, for example, demonstrated that two-thirds of African 
Americans, but fewer than one-in-five whites, said that the government 
warning and response would have been faster had most victims been 
white. Regardless of where your own opinions reside on this particular 
issue, it is important to understand the challenge of message framing 
as we manage risks.

Constructive Media

    In the aftermath of Katrina reporters became interviewees rather 
than their normal role of interviewer. Media also provide emotional 
support and companionship to victims who feel isolated and alone. 
Another positive characteristic of the media in relations to their 
reporting on disasters involves their ability to impart helpful 
information to victims:

         ``Effective warnings broadcast through the media are widely 
        credited with reducing casualties from hurricanes, tornadoes, 
        and floods. By reporting extensively on disasters and the 
        damage they create, the media can help speed assistance to 
        disaster-stricken areas, and post disaster reporting can 
        provide reassurance to people who are concerned about the well-
        being of their loved ones'' (Mileti, 1999, p. 225).

    We have come to learn that journalistic and broadcast activities 
create what we have termed the ``Paradox of Media Coverage'' (O'Hair, 
2005). On one hand, media serve a number of valuable if not essential 
functions for consumers, government officials and other organizations, 
as we have observed above. Alternatively, media often frame their 
messages in ways that omit critical information, overemphasize certain 
circumstantial features, sensationalize the situation, galvanize 
distrust among those whose job it is to mitigate the threat, and 
politicize the context of the disaster event (Covello & Sandman, 2001).

Media Preparedness

    One last observation is in order that concerns the media. Media 
organizations and their members do not seem to be any better prepared 
for disasters and emergencies than other members of the risk community. 
The Disaster Research Center at the University of Delaware conducted a 
study of media organizations located in disaster-prone cities to 
determine their level of preparedness. The study discovered that only 
33 percent of the radio stations, 54 percent of the television stations 
and only three of five newspapers reported disasters plans of any kind. 
Those media organizations with disasters plans had not given sufficient 
thought to critical issues and in many cases, the plans consisted of 
brief procedures and a list of phone numbers, although many of these 
lists did not include the most relevant local emergency agencies 
(Quarantelli, 2002). In a separate study focusing on journalists and 
their preparation for disaster conditions, researchers found that these 
media representatives were among the least prepared among those 
involved in local response and exhibited the greatest amount of fear 
and stress under simulated emergency conditions (DiGiovanni, Reynolds, 
Harwell, Stonecipher, & Burkle, 2003).

What lessons have we learned from effective--and ineffective--risk 
communications about natural hazards or disasters? How are these 
lessons being used to improve future risk communications?

Effective Messages

    A synthesis of the public health research literature on risk 
messages revealed a hierarchy of successful message properties: (Glik, 
2005)

        <bullet>  Survival first--tell people what to do, where to go, 
        what to expect

        <bullet>  Provide meaning--tell people why they need these 
        things

        <bullet>  Assurance--tell people that something is being done 
        by someone or some organization.

    A GAO report citing extant risk communication research suggests 
that the most important principles for communicating risk and threat 
information involves the following: (1) messages should be consistent, 
accurate, clear, and provided repeatedly through multiple methods, (2) 
information should be timely, and (3) information should be specific 
about the threat, including the nature of the threat, when and where it 
is likely to occur, and directions on preventive measures or protective 
responses (2004, p. 15).
    Jargon, euphemisms, and acronyms do not always resonate with 
people. Do most people understand the difference between tornado 
warning and watch? What about terrorist's warnings green and yellow? 
Shelter-in-place means ``go to a shelter'' for some people. Research 
has shown that disaster warnings need to be clear, consistent, 
communicated over multiple media, by a variety of relevant and trusted 
sources; the messages should tell people specifically what to do and 
assist them with seeking additional information (Glik, 2005).

Risk/Crisis-Source Match

    Another important issue is what we call the risk/crisis-source 
match (O'Hair, 2004). Do we have the right person communicating for the 
right crisis and the right risk? We found through research that the 
public has very definitive ideas about who ought to be delivering these 
risk and crisis messages. For example, when the event is national, 
federal spokespersons are preferred. When the event is more localized 
they want someone that they know, someone from their community. We also 
know whenever the risk or crisis is medical they want to hear from 
medical personnel, and if the medical crisis is perceived as national 
they want to hear from a spokesperson representing the CDC. At this 
point, we do know that the public does not accept messages at face 
value. They continuously make judgments about all facets of the 
message, its source, and the context in which it is delivered. This 
leads to the preeminent issue in risk communication--trust.

Trust

    Trust is an all important goal of risk communication strategies. 
Earlier this year the World Health Organization (2005) issued its long 
awaited ``guidelines for outbreak communication.'' Trust building is 
the first communication principle highlighted in their document. 
Research (Petts, 1998) has demonstrated that different governmental 
organizations elicit different expectations about `trustworthy' 
activities, and accordingly require different `trust enhancing' 
strategies. Different investigations have identified specific variables 
that influence trust: perceived openness; competence; objectivity; 
fairness; consistency; independence and care/altruism (e.g., Johnson, 
1999; Petts, 1998; Renn & Levine, 1991). Trust is diminished when 
experts disagree, lack of coordination among risk management 
organizations, lack of sensitivity to the communication needs of the 
audience, lack of information access or disclosure, and lack of public 
participation in risk management plans (Covello, Peters, Wojtecki, & 
Hyde, 2001). There is a need to build a preparation mindset among the 
public through calculated, evolving, and cooperative activities using 
such venues as school programs, public education, public participation 
in planning processes, educating and training citizen's groups, and 
small personalized learning environments (Covello, et al., 2001; O'Hair 
& Averso, in press; O'Hair, Heath, & Becker, 2005).

What are the top remaining research questions in this area?

Building a Community-Based Communication Infrastructure

    Risk and crisis communication programs must be designed, tailored, 
and executed at the community level (O'Hair, 2004; Rodriquez, Diaz, & 
Aguirre, 2004). The aim is to build upon innovative activities and 
programs of risk management by determining and verifying community-
specific requirements and expectations. Through these processes 
community-specific communication infrastructures can be built to 
facilitate risk and crisis communication plans. Communities can vary 
considerably in terms of their desires and needs for risk 
communication. Take for example the research finding that urban 
communities possess less social capital than rural areas which are more 
socially connected. Rural households have more children, more 
traditional family systems, and stronger kinship relationships. 
According to Putnam, urban citizens belong to 10-15 percent fewer clubs 
and attend 10-15 percent fewer club meetings than other groups 
(Beaudoin & Thorson, 2004). Therefore a goal of community research 
should be determining if communication strategies vary among these 
community types. Geospatial analysis should be employed to provide 
visual representations of how communication infrastructure features can 
be represented within diverse communities. The most prudent approach 
would be to benchmark existing risk communication strategies and 
programs involving natural disasters or homeland security and test 
their utility under varying conditions and audience (community) 
characteristics. Recent advances in communication sciences should be 
incorporated into these models for testing. In addition, this project 
should include a program of research and development of communication 
strategies for educating schools, business and community leaders, first 
responders, policy-makers, and the media on risk perception and 
assessment. Studies should be designed that take existing and proposed 
systems and protocols and test their viability under experimental 
conditions.

Media

    Research questions focused squarely on the media and their 
processes before, during, and after disasters must continue especially 
with regards to narrowcasting, specialized news content, and increasing 
reliance on interactive information sources (alerting services, blogs, 
IM, reverse 911, etc.). Media use is often thought of as a moving 
target with new services and tools rolled out on a continuous basis. 
Which media are most recognized as trustworthy sources of information 
and advice during disaster conditions? What combinations of media are 
utilized in various conditions? How prepared are various media 
organizations and their members for dealing with a variety of 
disasters?

Literacy and Intercultural Issues

    An increasingly diverse citizenry will not respond to the same 
risk/crisis message in consistent ways. The United States is becoming 
an increasingly diverse culture or network of cultures. Most telephonic 
instructions from self-help desks now offer service for both Spanish 
and English speakers. Language diversity is an obvious issue for 
communication scientists, but literacy and cultural issues must also be 
recognized beyond the simple linguistic properties of messages. How can 
risk messages be designed for low literacy receivers? What 
intercultural variables are most prominent in communicating risk?

Inter-Organizational Communication

    Much research has determined that serious shortcomings are evident 
at the community level in terms of constituent organizations failing to 
communicate effectively with one another. Future research should focus 
on the coordination of community response units. How do we manage 
adhocracies, jurisdictional conflict, and territoriality? The key is 
determining how to make sense of this complex system given the multiple 
players involved, all with their own politics, mindsets, perspectives, 
goals, fears, entrenched behavior, stakeholders, and obligations. There 
is a need for better metrics for understanding the patterns of 
communication among agencies, communities, and individuals. Research 
should study the structure of organizations responsible for managing 
risks/crises, optimal patterns of information management, and focus on 
the most effective methods for coordinating actions (both planned and 
self-correcting). Both structural and operational strategies should be 
developed and tested that lead to strategic communication models with 
the goal of improving inter-organizational and inter-agency cooperation 
and collaboration. Inherent in these processes is assessing community 
and organizational risk and crisis communication programs and 
strategies and developing standardized assessment tools (e.g., report 
cards, scorecards, communication audits) that determine areas of 
organizational communication vulnerability. These programs could start 
with (a) the National Data Base of Incident Reports (National Incident 
Management System, 2004), and (b) the reported experiences of those who 
have first hand knowledge of preventing and responding to terrorists 
attacks (OKC; NYC). Possible outcomes include interactive, web-based 
tools developed for use at different levels--individuals/families, 
communities, organizations, and governmental agencies.

Developing Appropriate Metrics

    A set of integrated metrics must be developed and used as a 
standard to assess risk and develop plans for disaster management and 
response. Key objectives in this project include:

        <bullet>  A set of integrated metrics for community disaster 
        preparation, deterrence and response.

        <bullet>  Tying metrics to strategic and tactical goals. 
        Metrics serve as benchmarks.

        <bullet>  Create community goals and objectives (that allow 
        community based action planning based upon standardized metrics 
        while incorporating the needs of communities.

    One means of pursuing this strategy would be to leverage The 
Community Terrorism Preparation, Deterrence and Response Model (Ledlow, 
2004) that structures a systematic approach to anti-terrorist planning 
and decision support. Its essential components include: Risk 
Assessment; Screening and Identification; Prevention; Training and 
Application; Activation and Response; and Leadership, Authority, and 
Communication. The information, systems, tools, and improvement plans 
of this project allows municipalities to assess their own preparedness 
plans, scenarios, and drills while maintaining a standard set of 
metrics, and thus expectations based on preparedness priorities. 
Inherent to the system is a scorecard that allows a community to 
evaluate each domain and dimension of the model based on various threat 
scenarios and engage training opportunities to improve performance.

Leveraging Technology

    One issue looming large on the horizon is advances in science and 
technology and the promise they offer for disentangling the complexity 
of warning systems through smart agents (Bostrom, 2003). Smart agents 
are presumed to have the capacity for interacting with warning systems 
and other information sources including the media, while incorporating 
global positioning information, then making decisions for an individual 
in a certain location. Based on stored personal preferences data and 
the threat severity of the impending disaster, the smart agent would 
provide ``intelligent'' options for the individual including precise 
paths to safety. These smart agents will be small enough to wear or 
eventually they may be implanted making them seamless. A whole host of 
issues will require sorting before smart agents become common place, 
not the least of which is the ethics of consent and a further widening 
of the digital divide. A larger implication is that public agencies and 
officials may be removed from the warning system as we know it today. 
Social science research is a necessary partner in this research 
enterprise.

Conclusion

    I am gratified that one of the organizations that this subcommittee 
oversees, the National Science Foundation, has identified risk 
communication as an essential ingredient in a complex array of 
processes necessary for disaster preparation, response, and management. 
Early this year, the Director of NSF, Dr. Bement, testified before the 
Senate Committee on Commerce, Science, and Transportation for the need 
to include risk communication in the research programs that it funds. A 
recent NSF report argues for greater interdisciplinary cooperation 
among basic natural sciences, human decision processes, economists, 
engineers, and communication scholars (NSF, 2002). The Government 
Accounting Office reported to Congress last year that risk 
communication theory and protocol must assume a greater role in threat 
mitigation plans (GAO-04-682, 2004). In a PCAST report referred to in 
testimony earlier this year before this subcommittee on combating 
terrorism, the authors highlight the important role of communication in 
mitigating, preventing, and responding to terrorist acts. Just about 
every GAO report on public response organizations and agencies places 
communication at the top of the list. I echo this sense of priority.
    Chess et al. (1995) asked a number of meaningful questions: Is 
successful risk communication persuasion, transfer of information, 
public participation, or empowerment of citizens to make decisions? 
Should it produce an informed citizenry, a compliant citizenry, an 
alert citizenry, or an empowered citizenry? Should the goal be better 
decisions, fairer decisions, more consistent decisions, or, in the 
throes of environmental gridlock, any decisions at all? Or are there 
``different motivating forces'' and therefore different risk 
communication goals, for every ``group, person, agency administrator, 
and middle manager''? These questions, in turn, have raised additional 
ones about the ethics and evaluation of risk communication. (p. 115)'' 
(Heath & O'Hair, in press). These questions also suggest that we are 
far from drawing conclusions about risk communication during 
emergencies and disasters. However, and mostly importantly, in the last 
ten years we have made substantial inroads into how people perceive and 
respond to risk messages. Supporting the risk communication scientific 
community would help to narrow the gap between technological advances 
in warning systems and policy initiatives and our citizenry's ability 
to take advantage of those good faith efforts.
    My colleagues and I from the social sciences welcome the challenge 
and opportunity to play an important role in building a communication 
infrastructure that addresses the essential components of communicating 
effectively with our citizenry before, during, and after disasters.
    This completes my prepared statement. I would be happy to answer 
any questions you may have.

References

Anderson, P.S., & Gow, G.A. (2003). An assessment of the B.C. tsunami 
        warning system and related risk reduction practices. Accessed 
        at www.ocipep.gc.ca/research/resactivities/CI/2003-
        D001<INF>-</INF>e.asp.
Beaudoin, C., & Thorson, E. (2004). Social Capital in Rural and Urban 
        Communities: Testing Differences in Media Effects and Models. 
        Journalism and Mass Communication Quarterly, 81, 378-399.
Behnke, R., O'Hair, D., & Hardman, A. (1990). Audience analysis systems 
        in public relations and marketing campaigns. In D. O'Hair, & G. 
        Kreps (Eds.), Applied Communication Theory and Research (pp. 
        203-221). Hillsdale, NJ: Lawrence Erlbaum and Associates 
        Publishers.
Bement, A.L. (2005). Testimony before the U.S. Senate Committee on 
        Commerce, Science, and Transportation. Accessed at http://
        www.nsf.gov/about/congress/109/
        alb<INF>-</INF>tsunami020205.jsp. November 3, 2005.
Bostrom, A. (2003). Future of Risk Communication. Futures, 35, 553-573.
Chess, C., Salomone, K.L., Hance, B.J., & Saville, A. (1995). Results 
        of a National Symposium On Risk Communication: Next Steps for 
        Government Agencies. Risk Analysis, 15, 115-125.
Covello, V., Peters, R., Wojtecki, J., & Hyde, R. (2001). Risk 
        Communication, the West Nile Virus Epidemic, and bioterrorism: 
        Responding to the Communication Challenges Posed by the 
        Intentional or Unintentional Release of a Pathogen in an Urban 
        Setting. Journal of Urban Health: Bulletin of the New York 
        Academy of Medicine, 78, 382-391.
Covello, V., & Sandman, P. (2001). Risk Communication: Evolution and 
        Revolution. In A. Wolbarst (Ed.), Solutions to an Environment 
        in Peril (pp. 164-178). Baltimore: Johns Hopkins University 
        Press.
DiGiovanni Jr., C., Reynolds, B., Harwell, R., Stonecipher, E.B., & 
        Burkle Jr., F.M. (2003). Community Reaction to Bioterrorism: 
        Prospective Study of Simulated Outbreak. Emerging Infectious 
        Diseases, 9(6), 708-712.
Flynn, J., Slovic, P., & MacGregor, D. (2002). Low dose risk, 
        decisions, & risk communication workshop. Eugene, OR: Decision 
        Science Research Institute.
Flynn, J., Slovic, P., & Mertz, C.K. (1994). Gender, Race, and 
        Perception of Environmental Health Risks. Risk Analysis, 14(6), 
        1101-1108.
Government Accounting Office. (2004). Homeland security: Communication 
        protocols and risk communication principles can assist in 
        refining the advisory system. Accessed at http://www.gao.gov/
        new.items/d04682.pdf, November 4, 2005.
Glik, D.C. (2005). Bioterrorism preparedness: Workforce, 
        organizational, resource, and risk communication issues. 
        Accessed at http://medscape.com/viewarticle/498940 on October 
        30, 2005.
Greenberg, B.S., Hofschire, L., & Lachlan, K. (2002). Diffusion, media 
        use and interpersonal communication behaviors. In B.S. 
        Greenberg (Ed.), Communication and Terrorism: Public and Media 
        Responses to 9/11. Cresskill, New Jersey: Hampton Press, Inc.
Greenberg, B.S., & Hofschire, L. (2002). Summary and discussion. In 
        B.S. Greenberg (Ed.), Communication and Terrorism: Public and 
        Media Responses to 9/11. Cresskill, New Jersey: Hampton Press, 
        Inc.
Heath, R., & O'Hair, D. (in press). The significance of risk and crisis 
        communication. In D. O'Hair & R. Heath (Eds.), Handbook of Risk 
        and Crisis Communication. Mahwah, NJ: Erlbaum.
Johnson, B.B. (1999) Exploring Dimensionality in the Origins of Hazard 
        Related Trust, Journal of Risk Research, 2, 325-354.
Kalichman, S.C., & Cain, D. (2005). Perceptions of Local HIV/AIDS 
        Prevalence and Risks for HIV/AIDS and Other Sexually 
        Transmitted Infections: Preliminary Study of Intuitive 
        Epidemiology. Annals of Behavioral Medicine, 29, 100-106.
LaFountain, C. (2004). Health Risk Reporting. Society, (November), 49-
        56.
Ledlow, G. (2004). The community terrorism preparation, deterrence and 
        response model. Unpublished manuscript. Mt. Pleasant, MI: 
        Central Michigan University.
Mileti, D.S. (1999). Disasters by Design: A Reassessment of Natural 
        Hazards in the United States. Washington, DC: Joseph Henry 
        Press.
National Research Council. (1999). Making Climate Forecasts Matter. 
        Washington, DC: National Academy Press.
National Science Foundation. (2002). Integrated research in risk 
        analysis and decision-making in a democratic society. Accessed 
        at http://www.nsf.gov/pubs/2003/nsf03209/
        nsf03209<INF>-</INF>3.pdf, November 4, 2005.
O'Hair, D. (2005). The Complacency-Curiosity-Immediacy-Criticality 
        Framework. Unpublished technical report. Norman, OK: University 
        of Oklahoma.
O'Hair, D. (2004). Measuring Risk/Crisis Communication: Taking 
        Strategic Assessment and Program Evaluation to the Next Level. 
        Risk and Crisis Communication: Building Trust and Explaining 
        Complexities When Emergencies Arise (pp. 5-10). Washington, DC: 
        Consortium of Social Science Associations.
O'Hair, D., Heath, R., & Becker, J. (2005). Toward a paradigm of 
        managing communication and terrorism. In D. O'Hair, R. Heath, & 
        J. Ledlow (Eds.), Community Preparedness, Deterrence, and 
        Response to Terrorism: Communication and Terrorism (pp. 307-
        327). Westport, CT: Praeger.
O'Hair, M.J., & Avwerso, R. (in press). Leading school in culture of 
        terrorism. In D. O'Hair & R. Heath (Eds.), The Communication 
        and Rhetoric of Terrorism. Cresskill, NJ: Hampton Press.
Petts, J. (1998) Trust and Waste Management Information: Expectation 
        Versus Observation. Journal of Risk Research, 1, 307-320.
Quarantelli, E.L. (2002). The role of the mass communication system in 
        natural and technological disasters and possible extrapolation 
        to terrorism situations. Accessed at http://dels.nas.edu/dr/
        docs/Quarantelli.pdf on June 14, 2004.
Renn, O., & Levine, D. (1991) Credibility and trust in risk 
        communication. In R. Kasperson and P. Stallen (Eds.), 
        Communicating Risks to the Public (pp. 157-218). Dordrecht: 
        Kluwer Academic Press.
Rodriquez, H. (2004). The role of science, technology, and media in the 
        communication of risk and warnings. Risk and Crisis 
        Communication: Building Trust and Explaining Complexities When 
        Emergencies Arise (pp. 11-16). Washington, DC: Consortium of 
        Social Science Associations.
Rodriquez, H., Diaz, W., & Aguirre, B. (2004). Communicating Risk and 
        Warnings: An Integrated and Interdisciplinary Approach. Newark, 
        DE: Disaster Research Center.
Ropeik, D., & Slovic, P. (2003). Risk Communication: A Neglected Tool 
        in Protecting Public Health. Risk in Perspective, 11, 1-4.
Rowan, K. (2004). Risk and Crisis communication: Earning trust and 
        productive partnering with the media and public during 
        emergencies. Risk and Crisis Communication: Building Trust and 
        Explaining Complexities When Emergencies Arise (pp. 17-23). 
        Washington, DC: Consortium of Social Science Associations.
Seeger, M.W., Vennette, S., Ulmer, R.R., & Sellnow, T.L. (2002). Media 
        use, information seeking, and reported needs in post crisis 
        contexts. In B.S. Greenberg (Ed.), Communication and Terrorism: 
        Public and Media Responses to 9/11. Cresskill, New Jersey: 
        Hampton Press, Inc.
Slovic, P. (1993). Perceived Risk, Trust, and Democracy. Risk Analysis, 
        13, 675-685.
Stempel, III, G.H., & Hargrove, T. (2002). Media sources of information 
        and attitudes about terrorism. In B.S. Greenberg (Ed.), 
        Communication and Terrorism: Public and Media Responses to 9/
        11. Cresskill, New Jersey: Hampton Press, Inc.
World Health Organization. (2005). Outbreak communication guidelines. 
        Accessed at http://www.childrensvaccine.org/files/
        WHO<INF>-</INF>Outbreak<INF>-</INF>Communication<INF>-</INF>Guid
        elines<INF>-</INF>whocds200528en.pdf, November 5, 2005.
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        

                      Biography for H. Dan O'Hair
    H. Dan O'Hair is Professor in the Department of Communication at 
the University of Oklahoma. His teaching and research interests include 
organizational communication, health systems, risk communication, and 
terrorism. He has published over seventy research articles and 
scholarly book chapters in communication, health, management, and 
psychology journals and volumes, and has authored and edited twelve 
books in the areas of communication, business, and health. His two most 
recent books, published by Praeger Publishing (2005) and Hampton Press 
(in press) focus on communication and terrorism. He also serves as the 
senior editor for the Handbook of Risk and Crisis Communication to be 
published by Erlbaum in 2007. He has supported his work with funding 
from government agencies, non-profit organizations, and corporations 
totaling more than $3 million. He has served on the editorial boards of 
eighteen research journals and is the immediate past Editor of the 
Journal of Applied Communication Research, published by the National 
Communication Association. In 2006, Dr. O'Hair will serve as President 
of the National Communication Association, the world's largest 
professional association devoted to the scholarly study of 
communication.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Chairman Inglis. Thank you, Dr. O'Hair. Dr. Silver.

STATEMENT OF DR. ROXANE COHEN SILVER, PROFESSOR, DEPARTMENT OF 
PSYCHOLOGY AND SOCIAL BEHAVIOR AND THE DEPARTMENT OF MEDICINE, 
                UNIVERSITY OF CALIFORNIA, IRVINE

    Dr. Silver. Good morning, Mr. Chairman and Members of the 
Subcommittee. My name is Roxane Cohen Silver, and it is my 
pleasure to have the opportunity to appear before you today to 
testify on the critical role of social science research in 
disaster preparedness and response.
    I am a Professor of Psychology and Social Behavior and 
Medicine at the University of California, Irvine, and for the 
past 25 years, I have studied how individuals adjust to 
stressful life experiences, such as loss of a spouse or child, 
divorce, childhood sexual abuse, and physical disability. But I 
have also studied the impact of natural and manmade community 
disasters over time. Almost all of my research over these years 
has been funded by the National Science Foundation, including 
my research on acute responses to spinal cord injury, on the 
impact of the Southern California firestorms, on the impact of 
the Columbine High School shootings, and most recently, on the 
impact of the September 11th terrorist attacks across the 
United States.
    A few weeks prior to September 11, 2002, several people 
told me that they heard that the psychological problems as a 
result of the terrorist attacks were expected to peak around 
the one year anniversary of the event. Similarly, shortly after 
the recent Gulf Coast hurricanes, radio, TV, and cable 
broadcasts were filling the airwaves with predictions about how 
individuals and communities would fare psychologically over 
time.
    People hold strong assumptions about how individuals will 
respond to traumatic events. Such assumptions are derived in 
part from clinical lore about coping with loss and about our 
cultural understanding of what we think the experience is going 
to be like. Yet many of our expectations about the coping 
process are wrong. How people are supposed to respond after a 
trauma often stands in sharp contrast to the research data. 
Much of my professional career has been spent collecting 
empirical data that has enabled me to identify and challenge 
what I have labeled the myths of coping with trauma. My goal 
has been to understand the variety of ways people cope, to go 
beyond the mere assumptions, and beyond the clinical lore, and 
after conducting studies on literally thousands of participants 
across a wide variety of victimizations, one conclusion that I 
can draw about how people respond to traumatic life events is 
that there is no one universal response. Some people will 
express less distress than outsiders might expect. Others will 
respond with prolonged distress, far longer that might be 
judged normal under the circumstances. Few individuals respond 
with an orderly sequence of stages of emotional response. 
Although stage models are quite popular, they aren't accurate.
    Psychological responses are mistakenly assumed to be 
limited to those who are directly exposed to the trauma. 
Although we saw substantial psychological effects across the 
country after 9/11 among individuals who were only indirectly 
exposed to the attacks via the television. The degree of 
emotional response is mistakenly assumed to be proportional to 
the degree of exposure. It is mistakenly assumed to be 
proportional to the amount of loss, or to the proximity to the 
trauma, although we have found no evidence in our data that, as 
objective loss decreases, so will distress.
    Finally, recovery from a trauma rarely occurs after a few 
weeks or months, yet many lose patience with individuals who 
are unable to get back on their feet quickly. At this point, 
the data provides little data for the notion that there are 
right or wrong ways to respond to a disaster, although there 
are clearly different ways. Although it is very challenging to 
conduct methodologically sophisticated, valid research on 
coping with traumatic life events, obtaining such data is 
critical. Obtaining normative data concerning adjustment 
process following disasters can aid mental health providers to 
recognize potential risks, and can inform the design of 
psychological interventions.
    Inaccurate information circulated among the public can be 
devastating for the victim of a trauma. It can lead to the 
self-perception that one isn't coping appropriately, that one 
is going crazy, and it can lead to ineffective support 
provision by one's social network. Methodologically rigorous 
social science research can help inform preparation for future 
disasters, including, as we just heard, how to communicate risk 
and evacuation orders effectively. Empirical data can also help 
identify factors that promote resilience and adjustment to 
prolonged stress, uncertainty, and loss. And finally, social 
science research can help policymakers understand how to shape 
planning and evacuation efforts, so that they optimize both 
short and long-term mental health outcomes.
    The tragedies of 9/11 and the recent Gulf Coast hurricanes 
have had an enormous impact on life in the U.S. As a nation, we 
have an opportunity to draw lessons from these losses, so that 
they make us stronger, more flexible, and more effective as 
providers of support. Hopefully, one benefit of conducting 
research on such disasters will be more evidence-based 
predictions, and more informed, sensitive, and cost-effective 
recommendations for the future.
    Thank you.
    [The prepared statement of Dr. Silver follows:]
               Prepared Statement of Roxane Cohen Silver

       Psychological Responses to Natural and Man-made Disasters

Mr. Chairman and Members of the Committee:

    Good morning. My name is Roxane Cohen Silver and it is my pleasure 
to have the opportunity to appear before you today to testify on the 
critical role of social science research in disaster preparedness and 
response. I am a Professor of psychology and social behavior and 
medicine at the University of California, Irvine. For the past 25 
years, I have studied how individuals adjust to stressful life 
experiences, such as loss of a spouse or child, divorce, childhood 
sexual abuse, and physical disability. I have also studied the impact 
of community disasters--both natural and man-made--on individuals' and 
communities' psychological responses over time. Almost all of my 
research over those years--on acute responses to spinal cord injury, on 
the impact of the Southern California firestorms, on the impact of the 
Columbine High School shootings, and most recently on the September 
11th terrorist attacks--has been funded by the U.S. National Science 
Foundation.
    A few weeks prior to September 11, 2002, several people told me 
that they ``heard'' that psychological problems as a result of the 
terrorist attacks of September 11th were expected to peak around the 
one-year anniversary after the event. These kinds of pronouncements 
appeared on the front page of a prominent newspaper, on national media 
telecasts, and from mental health ``experts.'' Similarly, shortly after 
the recent Gulf Coast hurricanes, radio, television, and cable 
broadcasts were filling the airwaves with predictions about how 
individuals and communities would fare over time.
    It is perhaps surprising that despite testimonials to the contrary, 
there is relatively little empirical data on which to base predictions 
about patterns of response over time following community or personal 
traumas. However, after having spent over two decades conducting 
research to explore how individuals cope with stressful life events, it 
is not difficult for me to understand why these data are lacking. 
Conducting methodologically rigorous studies of responses to traumatic 
experiences is extraordinarily challenging in several important ways. 
Research in the natural laboratory is very expensive, labor intensive, 
and time-consuming. Obtaining external funding--particularly quick 
response funding following a national or community disaster--is often 
difficult, if not impossible. Obtaining samples of traumatized 
populations can be challenging, and research on entire groups of 
traumatized individuals is sometimes restricted. For example, 
governmental and community-based agencies may serve as gatekeepers to 
block access to potential respondents, even when those individuals are 
eager and willing to discuss their experiences with researchers. 
Institutional Review Boards are often appropriately (but sometimes 
inappropriately) uncomfortable with trauma-related research. As a 
result, studies tend to be conducted with small, non-representative 
samples of individuals who are willing to answer sensitive questions 
posed by a stranger. Many studies are conducted within clinical 
settings with individuals who seek professional help for their mental 
health symptoms. The conclusions drawn from these studies do not 
readily generalize to the broader population. Sometimes, causal 
inferences are inadvertently drawn from correlational results. Despite 
the array of methodological problems that plague much of this research, 
``Coping Do's and Don'ts'' are frequently espoused in the media, 
without acknowledgement of the limitations of the research base from 
which they are drawn.
    What we do know is that people hold strong assumptions about how 
individuals will respond to traumatic events. Such assumptions are 
derived in part from clinical ``lore'' about coping with loss and our 
cultural understanding of the experience. Yet many of our expectations 
about the coping process are wrong; how people are ``supposed'' to 
respond often stands in sharp contrast to the research data. Much of my 
professional career has been spent collecting empirical data that has 
enabled me to identify and challenge what I have labeled the ``myths'' 
of coping with trauma. My goal has been to understand the variety of 
ways people cope--to go beyond the assumptions and beyond the clinical 
``lore.'' After conducting studies on literally thousands of 
participants across a wide variety of victimizations, one conclusion I 
can draw about how people respond to traumatic life events is that 
there is no one, universal response. Some people will express less 
distress than outsiders might expect; others will respond with 
pronounced distress for far longer than might have been judged 
``normal'' under the circumstances.
    Few individuals respond with an orderly sequence of ``stages'' of 
emotional response. Many clinicians have suspected that if an 
individual does not have a negative response in the early aftermath of 
trauma, he or she would be at high risk for ``delayed onset'' of 
psychological problems, yet empirical support for such a position has 
rarely been obtained. Positive emotions are often ignored as a part of 
the response to highly stressful events, yet our own research suggests 
that positive emotions are quite prominent in the context of coping. 
Psychological responses are mistakenly assumed to be limited to those 
directly exposed to the trauma, and the degree of emotional response is 
mistakenly assumed to be proportional to the degree of exposure, amount 
of loss, or proximity to the trauma (e.g., as ``objective'' loss 
decreases, so will distress). ``Recovery'' from trauma rarely occurs 
after a few weeks or months, yet many lose patience with individuals 
who are unable to get back on their feet quickly. At this point, the 
data provide little support for the notion that there are ``right'' or 
``wrong'' ways to respond to a stressful life event--although there are 
clearly ``different'' ways. Through my research and writing, I have 
maintained that we need to recognize and respect people's need to 
respond to trauma in their own ways and with their own timetables.
    For the past four years, I have served as the Principal 
Investigator of an NSF-funded study on the September 11th terrorist 
attacks on the U.S. In fact, our research team conducted the only 
large-scale national longitudinal investigation of emotional, 
cognitive, and social responses to the attacks. We interviewed several 
thousand people repeatedly--from about two weeks after the attacks 
until three years later. Our results demonstrate quite clearly that the 
September 11th attacks had widespread impact across the country; 
results we have obtained in our longitudinal investigation strongly 
suggest that the effects of these terror attacks were not limited to 
communities directly affected. In fact, we have seen fascinating cross-
community differences in response, although we are still exploring the 
reasons why residents of Littleton, Colorado might have responded so 
differently to the attacks when compared to residents of Miami. 
Although post-traumatic stress symptoms clearly declined over the years 
after the attacks, the degree of individual response was not explained 
simply by the degree of exposure to or loss from the trauma. Indeed, we 
have found great variability in acute and post-traumatic response among 
individuals who observed the attacks directly or lived within the 
directly affected communities. Moreover, a substantial number of 
individuals with indirect exposure (e.g., watched the attacks on live 
television or learned about them afterwards) reported symptoms both 
acutely and over the year afterwards at levels that were comparable to 
individuals who experienced the attacks proximally and directly.
    It is also clear that one must examine other factors beyond 
exposure and loss that may help explain post-traumatic distress in 
response to national disasters such as the September 11th attacks. In 
particular, we have found that those who had been diagnosed with mental 
health difficulties (anxiety disorders, depression) prior to 9/11 were 
more likely to respond to the attacks with post-traumatic stress 
symptoms and higher levels of distress over time, controlling for their 
levels of exposure to and loss from the attacks. The strategies people 
employed to cope with the attacks and their aftermath, their prior 
traumatic life experiences, and the traumas they experienced in the 
intervening year post 9/11 are other important factors to help account 
for the variability in response. Finally, we found that the acute 
stress response to 9/11, as well as the post-traumatic stress symptom 
trajectory over the year post 9/11, was a strong predictor of acute 
stress response to a subsequent national stressor: the Iraq War. Thus, 
our findings indicate that responses to one stressful event may be 
strongly related to responses to a prior traumatic event, and suggest 
that those who responded with acute distress following the 9/11 attacks 
may be particularly vulnerable psychologically to subsequent terror 
attacks.
    We have also found effects beyond the post-traumatic stress 
symptoms that are the typical focus of investigations. Many people have 
reported finding unexpected positive consequences in the wake of the 
attacks, such as closer relationships with family members and a greater 
appreciation of the freedoms our country offers its residents. Positive 
emotions and life satisfaction have also been impacted. We believe that 
a narrow focus on clinical outcomes, ignoring sub-clinical levels of 
reactions and decrements in positive emotions, can paint a distorted 
picture of people's responses to negative events. A comprehensive 
understanding of the impact of traumatic events requires considering 
both negative and positive outcomes.
    As I have described, conducting methodologically sophisticated, 
externally valid research on coping following traumatic events is 
challenging at best. However, obtaining such data is critical. 
Obtaining normative information concerning the adjustment process 
following trauma can aid mental health providers by pointing to 
potential risk factors, and can inform the design of effective 
interventions. Inaccurate information circulated in the public domain 
can be devastating for the victim of a trauma--it cannot only lead to a 
self-perception that one is not coping appropriately, but it can also 
lead to ineffective support provision by members of one's social 
network. Methodologically rigorous social science research can help 
inform preparation for future disasters, including how to communicate 
risk and evacuation orders effectively. Empirical data can also help 
identify factors that promote resilience and adjustment to prolonged 
stress, uncertainty, and loss. Finally, social science research can 
help policy-makers understand how to shape planning and evacuation 
efforts so that they optimize both short- and long-term mental health 
outcomes of affected communities. The tragedies of 9/11 and the recent 
Gulf Coast disasters have had an enormous impact on life in the United 
States. Hopefully, one benefit of conducting research on such disasters 
will be more evidence-based predictions and more informed, sensitive, 
and cost-effective recommendations for the future.
    This concludes my testimony. Thank you.

For Additional Information:

Silver, R.L., & Wortman, C.B. (1980). Coping with undesirable life 
        events. In J. Garber & M.E.P. Seligman (Eds.), Human 
        Helplessness: Theory and Applications (pp. 279-340). New York: 
        Academic Press.
Silver, R.C. (2002, August). Thinking Critically About Coping With 
        Life's Traumas. G. Stanley Hall Lecture delivered at the 
        American Psychological Association Annual Convention, Chicago, 
        IL.
Silver, R.C., Holman, E.A., McIntosh, D.N., Poulin, M., & Gil-Rivas, V. 
        (2002). Nationwide longitudinal study of psychological 
        responses to September 11. JAMA: Journal of the American 
        Medical Association, 288, 1235-1244.
Silver, R.C., Holman, E.A., McIntosh, D.N., Poulin, M., Gil-Rivas, V., 
        & Pizarro, J. (in press). Coping with a national trauma: A 
        nationwide longitudinal study of responses to the terrorist 
        attacks of September 11th. In Y. Neria, R. Gross, R. Marshall, 
        & E. Susser (Eds.), September 11, 2001: Treatment, Research and 
        Public Mental Health in the Wake of a Terrorist Attack. New 
        York: Cambridge University Press.
Silver, R.C., Poulin, M., Holman, E.A., McIntosh, D.N., Gil-Rivas, V., 
        & Pizarro, J. (2005). Exploring the myths of coping with a 
        national trauma: A longitudinal study of responses to the 
        September 11th terrorist attacks. Journal of Aggression, 
        Maltreatment & Trauma, 9, 129-141. Also appeared in Y. Danieli, 
        D. Brom, & J. Sills (Eds.), The Trauma of Terrorism: An 
        International Handbook of Sharing Knowledge and Shared Care 
        (pp. 129-141). Binghamton, NY: Haworth Press.
Wortman, C.B., & Silver, R.C. (1989). The myths of coping with loss. 
        Journal of Consulting and Clinical Psychology, 57, 349-357.
Wortman, C.B., & Silver, R.C. (2001). The myths of coping with loss 
        revisited. In M.S. Stroebe, R.O. Hansson, W. Stroebe, & H. 
        Schut (Eds.), Handbook of Bereavement Research: Consequences, 
        Coping, and Care (pp. 405-429). Washington, DC: American 
        Psychological Association.

                   Biography for Roxane Cohen Silver
    Roxane Cohen Silver, Ph.D. is a Professor in the Department of 
Psychology and Social Behavior and the Department of Medicine at the 
University of California, Irvine. She completed her undergraduate and 
graduate training in Social Psychology at Northwestern University, 
Evanston, Illinois, and was on the faculty at the University of 
Waterloo, Ontario, Canada, before relocating to UC Irvine in 1989. A 
national expert in the field of stress and coping, Dr. Silver is a 
Fellow of both the American Psychological Association and the American 
Psychological Society. In December 2003, Professor Silver was appointed 
by U.S. Department of Homeland Security Secretary Tom Ridge to the 
nine-member Academe and Policy Research Senior Advisory Committee of 
the Homeland Security Advisory Council. Professor Silver also serves as 
Director of Graduate Affairs for the Department of Psychology and 
Social Behavior, the coordinator of its doctoral program in Health 
Psychology, and the co-Director of her department's NIMH Institutional 
Training Grant in Social and Environmental Contexts of Adaptation. 
Previously, Dr. Silver served as the Associate Dean for Research and 
the Faculty Chair in the School of Social Ecology, as well as the 
Associate Director of UC Irvine's Newkirk Center for Science and 
Society.
    For the past 25 years, Dr. Silver has studied acute and long-term 
psychological and physical reactions to stressful life events such as 
physical disability, death of a spouse or child, childhood sexual 
victimization, divorce, family violence, war, natural disaster, and 
human-caused disasters, including the Columbine High School shootings 
and the September 11, 2001 terrorist attacks. Dr. Silver was recently 
principal investigator of the only national longitudinal study of 
responses to the September 11th attacks. The 7th wave of data 
collection, marking the 3rd anniversary, was completed in fall, 2004; 
the first report of this study appeared as the lead article in JAMA: 
The Journal of the American Medical Association in September 2002. In 
her research, which has been funded by the National Science Foundation, 
the National Institute of Mental Health, and the U.S. Public Health 
Service (Bureau of Maternal and Child Health), Dr. Silver seeks to 
identify factors that facilitate successful adjustment to stressful 
life events. Her work also explores the long-term effects of traumatic 
experiences, and considers how beliefs and expectations of one's social 
network impact on the coping process.
    Professor Silver is also a dedicated teacher and active mentor of 
predoctoral and postdoctoral students. In recognition of her efforts 
toward graduate and undergraduate education at UC Irvine, she has 
received a number of teaching awards, including UC Irvine's 2001 
Distinguished Faculty Lectureship Award for Teaching, the 1999 
Chancellor's Award for Excellence in Fostering Undergraduate Research 
(the 16th recipient in UCI's history), UC Irvine's Award for Special 
Distinction in Promotion of Undergraduate Research and Scholarship, UC 
Irvine's ``In Celebration of Teaching'' Awards for Excellence in 
Teaching and for Undergraduate Mentoring, the Outstanding Professor 
Award from the graduating Senior class on two occasions, Professor of 
the Year from the Social Ecology Student Association, and several 
Excellence in Teaching Awards from UC Irvine's Order of Omega 
Panhellenic and Interfraternity Council.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               Discussion

    Chairman Inglis. Thank you, Dr. Silver. Thank you all for 
your testimony here this morning. Dr. O'Hair, I was very 
interested in your comments about the paradox of media 
coverage. It is, in particular, your reference to how fairly 
quickly there was a focus on political ramifications of 
Katrina. I wonder whether part of it is driven by a 24-hour 
news cycle, where they have got to have something to say.
    Dr. O'Hair. The CNN syndrome.
    Chairman Inglis. Right. That is it. They are going all the 
time, so you have got to add something new, so let us talk 
about the political ramifications now. The consequences, I 
would think, and this would be interesting to hear what the 
rest of the panel would think about this, the consequences, it 
seemed to me, would be to drive cynicism, especially if your 
house has been blown away, or your life has been blown away, 
and people are talking about such small things as whether so-
and-so is going to get reelected or not. It must be quite 
devastating to somebody whose, literally, life has been blown 
away to start talking about things like that.
    But I also wonder if it is something deeper, maybe you all 
can comment on this, whether it challenges our illusion of 
control, that we really think we are in control, and we think 
our government is in control, and then comes something bigger 
than our government, and there is a real blow to our self 
esteem or something, when we figure out that, you know, we can 
do hurricane construction standards and things like that, we 
can do evacuations, but in the end, if we have a storm surge 
like Katrina, it is overwhelming, and we can have earthquake 
preparations in California, and construction standards, but in 
the end, when the Earth starts shaking, then there is no 
government big enough to help you with the Earth shaking. And 
so, there is an illusion of control, I suppose, that we realize 
we don't have control at that point.
    So, just see if anybody wants to comment on either the 
paradox of media coverage that Dr. O'Hair was talking about, or 
perhaps, this illusion of control that gets blown away with a 
huge event like Katrina.
    Dr. O'Hair. Often, part of the issue has to do with the 
trust factor that I was talking about earlier. I mean, there is 
going to be a certain level of background trust that 
individuals have about a particular government entity that is 
expected to have control after a disaster like that.
    The threshold level of that control is going to probably 
dictate to a great extent the perceptions of individuals about 
the control that the government entities have, and so, that is 
why we constantly reinforce the idea of building trust prior to 
disasters like this, so that we raise that threshold level, and 
perhaps engender more of a sense of control when it actually 
happens.
    Chairman Inglis. Someone else want to comment on that, 
those elements?
    Dr. Laska. I had written a different presentation, then 
decided to stop what I was doing, and write what I have just 
presented, but what it was going to be about was the degree to 
which we believe we have control of nature, that it is a 
flexing of human power that really is not true, so that natural 
disasters are not natural. They are social, because they expose 
the vulnerabilities of the society, and those vulnerabilities 
are human-caused. As Dr. Cutter said, you know, when you place 
large concentrations of population in places that are at risk, 
surprise, you are going to get an impact that is tremendous.
    So, we have to be, as a society, thinking about how we live 
with the environment, not how we challenge it or control it, 
and I think that is where we get into our binds, that you have 
just described, Congressman.
    Chairman Inglis. Dr. Cutter, you mentioned support from the 
NSF, and I am very happy that yesterday, on the floor, we, in 
the conference report for Science, Commerce, Justice, State 
approved an increase in NSF funding. We got $5.6 billion for 
next year, and that is, of course, the jurisdiction of this 
committee and subcommittees. We are very thankful about that.
    Tell me how the NSF funding has been helpful to you?
    Dr. Cutter. NSF has been very supportive of the research 
that I have done, and in my lab. The majority of my research 
from NSF, however, does not come from SBE. It actually comes 
through the Engineering Directorate, and it has, in fact, been 
the Engineering Directorate within NSF that has supported a 
large volume of social science research in this nation, and 
they were the ones who provided the impetus for the second 
assessment of social science research.
    Now, that is not to say that SBE doesn't fund social 
science research and disasters, but the majority of those in 
the community are actually funded through Civil and Mechanical 
Systems, as well as other programs throughout NSF, and 
increasingly, the multidisciplinary programs at NSF, 
particularly those that involve coupled natural and human 
systems, for example, are trying to bring in the social science 
element.
    So, we are doing much better, I think, in the foundation, 
moving beyond just SBE, but also Foundation-wide.
    Chairman Inglis. My time is up. Ms. Hooley is recognized 
for five minutes.
    Ms. Hooley. Thank you, Mr. Chairman.
    For any of the panelists that want to answer this. How do 
we improve the translation of research results into action by 
organizations with responsibilities for disaster planning? I 
mean, you talked about the press. You talked about, you know, 
and every community or every state, there is a disaster 
planning organization. How much do they use of the research 
that is available out there? Any one of you.
    Dr. O'Hair. My colleague, Dr. Mike MacDonald, who has set 
up the Disaster Knowledge Management System, it is basically a 
collaboratory, and he is assimilating as much information as he 
can from experts that range from media relations experts to GIS 
experts and so forth. All of this information goes into a 
collaboratory that is available for public use.
    It is being targeted for specific communities that are 
probably most likely going to experience the first wave of what 
potentially could be a flu pandemic. And through a knowledge 
management system, what he is able to do is to take otherwise 
research that may be buried in journals and technical reports, 
and putting it into a place that is highly searchable and 
highly relevant for communities that would need to access that 
type of information.
    Ms. Hooley. Anyone else want to take a--Dr. Silver.
    Dr. Silver. Yeah, I would like to just speak on a little 
bit of a different issue, which is that in the psychological 
community, and in particular, in the intervention, the 
psychological intervention community, we have a competition 
between the researchers and the data that the researchers 
collect, and what I would like to call the for-profit trauma 
industry, and there was a great deal of controversy after 9/11. 
The for-profit trauma went in to companies and schools, and 
said we need to do some psychological intervention right now. A 
large number of researchers stood up and said there is really 
no evidence for that, and so what you see is the challenge 
because the researchers are often not for-profit entities, you 
have the challenge of competing with individuals who are trying 
to make money off of the trauma.
    So, from the psychological intervention question, I would 
say that there hasn't been an immediate use of the research, 
but the researchers then get active and push back the non-
research-based interventions. And I think over the last five or 
six years, the researchers have been very effective in 
conveying what the research is all about. But it requires 
individuals to write letters to the editor, call media sources, 
and try to correct misrepresentations of how things are, and 
part of the research that I do on myths about coping and myths 
about psychological responses is geared toward trying to 
correct these misperceptions that may be perpetuated by the 
media.
    Ms. Hooley. Okay.
    Dr. Laska. Yes, I wanted to comment with regard to what you 
would call the mission agencies, EPA, NOAA, HUD, the Department 
of Transportation. They are starting to appreciate the 
importance of the social science research on the work that they 
are doing, and I would say that it costs resources, it costs 
money to do this kind of research, just as it does the basic 
research that Dr. Cutter was talking about. And so, I encourage 
you to encourage them to have in their budgets programs funding 
this kind of work, so that we can develop better the know-how, 
and also, just actually do the work.
    An example would be your regional EPA climate change 
projects that have been funded, to examine how the stakeholders 
in the different parts of the country are considering the 
impacts that climate change may have on the issues that they 
are dealing with.
    Ms. Hooley. Dr. Cutter.
    Dr. Cutter. Yes, ma'am. Also, there has been some transfer 
of knowledge from the research to the practitioner community, 
particularly in the emergency management community, and this 
has been facilitated by an annual workshop that occurs every 
July at the University of Colorado in Boulder, that brings 
together the research community, State and local governments, 
and federal agency personnel to talk about hazards and 
disasters, and there has been quite a bit of give and take 
among that small community in transferring the results of the 
research into practice, but it takes a lot of effort on the 
part of individual researchers who are really committed to 
influencing public policy and influencing practice, and so, it 
is not universally done, but those people in the community that 
have an interest in doing that work very closely.
    And in my case, for example, we work very closely with the 
South Carolina Emergency Management Division, and assist them 
in any way that we can, both with our research and practice.
    Ms. Hooley. But that doesn't always happen?
    Dr. Cutter. That is correct.
    Ms. Hooley. Okay. Thank you.
    Chairman Inglis. Mr. Gutknecht is recognized for five 
minutes.
    Mr. Gutknecht. Well, thank you, Mr. Chairman. I want to 
thank you and the staff for bringing together this really 
excellent panel. This has been just fascinating for me to 
listen to this, because in some respects, it just sort of fills 
in some of the blanks that I have sort of been thinking about 
myself.
    I was down in New Orleans a few weeks ago, and one of the 
questions, and I can't remember, Dr. Cutter, it may have been 
you that mentioned this, one of the things that just seemed 
imponderable, why so many people decided to stay in their 
homes. And you mentioned their pets, which sounds a bit funny, 
but when you talk to some of the folks down there, that really 
is one of the reasons they didn't want to leave.
    Have you explored other reasons why people chose to wait it 
out? Was it a bit of machismo, or anybody want to comment on 
that?
    Dr. Cutter. In New Orleans specifically, or in evacuations 
more generally?
    Mr. Gutknecht. In evacuations more generally, or New 
Orleans specifically.
    Dr. Cutter. I can speak to evacuations more generally, and 
then I will defer to my colleague, Dr. Laska, who can tell you 
about New Orleans.
    After every major hurricane evacuation, there are post-
event evacuation studies that are conducted, largely through 
the Army Corps of Engineers, among others, and consistently, we 
find a number of reasons why people are reluctant to evacuate. 
One is clearly pets. Pets are not able to go to public 
shelters, and pets are part of the family. They are not this 
thing, and so, if you can't take your pet to a public shelter, 
and you can't find a hotel room, and you don't have family and 
friends in the area, you will stay.
    Another reason is the perception of the risk, and along the 
hurricane coasts, in particular, which is where most of my work 
is done, people in the community are pretty savvy about 
hurricanes, and they know the difference between a tropical 
storm, a Category One hurricane, and a Category Two hurricane, 
and if they don't feel that they are threatened, they are going 
to stay, irrespective of the guidance that is coming out from 
State and local officials.
    So, a couple of additional ideas are the pets and the 
perception of the threat. Dr. Laska, you want to----
    Mr. Gutknecht. Well, if I could just say, it sounds to me 
like people make much more rational decisions than sometimes, 
again, the media gives them credit for.
    Dr. Cutter. It seems so in hindsight. Now, at the time that 
the evacuation decisions are made, we have imperfect knowledge, 
because we don't know where the storm track is going, and we 
don't know where landfall is going to occur, and we don't know 
the strength of that storm. And so, the National Weather 
Service gives us very, very good guidance, and state and local 
emergency managers have a certain window when they can evacuate 
the area, and normally that anywhere from 12 to 36 or more 
hours in advance of those tropical force winds. And depending 
on the size of the storm, you would be in a position of having 
to order an evacuation 72 hours or three days before the storm, 
and it is perfectly sunny outside, and you are telling people 
to get out of harm's way. And so, it is a combination of the 
uncertainty in the forecasting of the storm, as well as how 
crowded an area is, and how long it takes it to actually get 
people out of harm's way, that add to it.
    In hindsight, it looks like they may have made good 
decisions, but from an emergency management perspective, they 
operate with a precautionary principle, and that is it is 
better to be safe than it is to be sorry.
    Mr. Gutknecht. Anyone else want to add to that?
    Dr. Laska. Yes, I would like to. The survey that I referred 
to in my presentation demonstrated that two-thirds of the 
respondents feel safe in their homes in a Category Three 
hurricane. Well, that is no longer the case in New Orleans, 
given the loss of the coast, and at first we, of course, said 
oh, shame on them, and then we realized that for 20 years, they 
have been told that, that they were safe in a Category Three in 
their homes, but that we now needed to have a new education 
program to point out to them that that was no longer the case, 
and they had to change their thinking. So, as you pointed out, 
they were wise in their conclusions.
    The group that I would like to mention that are of extreme 
concern are those who do not have automobiles, and many of the 
people who did not evacuate were that group. There are 57,000 
households in Orleans Parish who do not have cars. If you 
average, the two to two and a half persons per household, you 
have about 125,000 people. So, it goes back to the presentation 
that Dr. Cutter has made and myself on vulnerability, because 
they did not have a way to evacuate individually or family-
wise, and the efforts were working toward accomplishing that, 
but had not been fully accomplished to the point of the 
hurricane.
    Mr. Gutknecht. Could I just add to that, because I talked 
to one woman down there in New Orleans, one of her elderly 
neighbors had been killed in the storm, and she was almost 
angry with him, because she tried on at least two separate 
occasions to get him to come with them, but he said no, no, he 
said I am going to be fine, and so, you know, I don't know if 
it was pride or stubbornness or whatever, but as I say, I mean 
her reaction was she was almost angry with him, that things 
turned out the way they did.
    Again, Mr. Chairman, I want to thank you for this hearing, 
and I only hope that if anything, we can get some national 
media exposure for these four witnesses, because I think 
frankly, they are the kind of people that Americans need to 
hear from in these kinds of circumstances.
    So, thank you. I yield back the balance of my time.
    Chairman Inglis. Thank you, Mr. Gutknecht. We now call on 
our very own social scientist, Dr. Lipinski.
    Mr. Lipinski. Thank you, Mr. Chairman. I was going to first 
thank the witnesses for their testimony, and thank the Chairman 
for bringing social scientists up here. I used to teach 
political science, as a Professor of Political Science, so I, 
you know, I could go on all day asking questions, and I think 
we only have five minutes, so maybe I should probably get into 
them.
    All right. Well, I will start with Dr. O'Hair. Political 
communications was actually one of the areas that I studied. We 
may have met, actually, at the Carl Albert Center when I came 
to speak there.
    This is a question that I have wondered a lot about. Now, I 
have an expert here to sort of fill this in. The problem of 
crying wolf by the news media. Have you studied this? Have you 
looked at that? Because it seems that everything now, in order 
to, of course, gain ratings, get people to watch, there is a 
crisis every day. Have you looked at this? Is that a problem? 
Do people say, not look at real potential hazards as being that 
hazardous, because they say, well, we hear this every day? We 
have heard this before. There is a tenseness, and that, you 
know, surprise in the voice every day.
    Dr. O'Hair. There is that going on in the cognitions of 
receivers of news. Part of it is the repetitiveness of 
disasters, threats, and so forth. The second part of this has 
to do with the extent to which people take for granted the 
advances in technology, assuming that they are going to be 
warned in time, and that they will have ample response time.
    One of my colleagues at the National Disaster Research 
Center at the University of Delaware has done some research 
where they have gone to, they have gone into the field, and ask 
individuals what do you do when you hear that there is a 
tornado about a quarter of a mile from your home? They go 
outside and look for it.
    Mr. Lipinski. I hate to admit it, but that is certainly 
what I do.
    Dr. O'Hair. And why do you do that? Because you know that 
you can probably dodge it, you want to confirm what the 
technology has told you, and all of this is in the background 
of their cognition that they formulate over a period of time. 
So, one of the things that I think we have to do as 
communicators is, and when I talk about building a community 
communication infrastructure, we have to understand what a 
particular community is likely to respond to. That local media 
is going to be different from the community next to them, and 
so, we need to develop a very specific, what I call an audience 
profile. What is it that they are likely to respond to? How 
often have they been warned? What do they say about the crying 
wolf syndrome? And so forth, and then from there, you develop 
very specific message maps that you then apply, and prior to 
disasters, during disasters, and then post-disaster.
    Mr. Lipinski. Thank you. A more general question, Dr. 
Laska. I will start with you. That the CHART, the Center, how 
did that originally begin, because a lot of this is about 
funding, and I know as a social scientist how much pressure is 
on funding, and that research tends to go where the funding is. 
First of all, how did CHART begin, and are there other, similar 
centers at other places?
    Dr. Laska. I have been Vice Chancellor for Research for the 
University for eight years, and decided that I wanted to have a 
center that really tried to do what we are talking about here, 
tried to apply, and I had had successes in funding. So I looked 
to, as I pointed out, the mission agencies for that base of 
funding, not for NSF, although I do think NSF should be 
encouraged to have more programs of applied funding, in 
addition to the basic. So, it is a matter of learning how to do 
that draftsmanship, and we are--what we are short on, and I 
think Mr. Inglis mentioned this--is that the state of the 
discipline is lacking in ways to really grow the new 
generation, and also, to grow research administrators. Because 
as you know, you have to have people who have, who are trained 
to manage centers and to find funding, and so on. And so, we 
really have to work better at doing that part of the work, as 
well as doing the research, once funded.
    Mr. Lipinski. Well, I always want to praise the NSF, and 
all the great work they do. And also, because I applied for one 
NSF grant, and I received it, so I always have good things to 
say about NSF. But who else is out there? Are there many other 
sources that are funding this type of research, that can be 
applied research, which just can really be significant to our 
society?
    Dr. Laska. The mission agencies, EPA, FEMA, NOAA. NOAA is 
growing quite strongly in that. There is the Coastal Center in 
Charleston----
    Mr. Lipinski. Are they non-governmental?
    Dr. Laska. Some foundations will do so, yes, but that is 
our second choice, because we have been so accustomed to 
applying for government grants. Also State agencies. I have 
several spots of funding from the state. I assume you do, too.
    Dr. Cutter. NASA as well is another----
    Dr. Laska. That is right.
    Dr. Cutter.--another mission agency that is increasingly 
getting into hazards and disasters.
    Mr. Lipinski. Anyone else have, Dr. O'Hair or Dr. Silver? 
Okay, thank you.
    Chairman Inglis. Mr. Sodrel is recognized for questions for 
five minutes.
    Mr. Sodrel. Thank you, Mr. Chairman, and thanks to the 
witnesses here today. I have, I guess, a rather mundane 
question, but I would like to understand the graph that I am 
looking at. Dr. Cutter, are these numbers prepared in constant 
dollars? In other words, have we accounted for inflation in the 
line graph, or----
    Dr. Cutter. You are looking at Figure 4, on the increase in 
costs of natural disasters?
    Mr. Sodrel. Yes, ma'am.
    Dr. Cutter. These are adjusted to 2004 dollars, and it 
reflects the period from 1960 to 2003, so it doesn't include 
2004, which was a very costly year for the Florida hurricanes.
    Mr. Sodrel. So, it is stated in constant dollars, then.
    Dr. Cutter. Uh-huh.
    Mr. Sodrel. It appears that the crop damage is a lot more 
constant than property damage. Could that have something to do 
with just population growth in the areas that are most 
susceptible to hurricanes, I mean, for example, Florida has 
grown a lot since 1960. The physical possibilities may exist 
the same as they did in 1960, but the number of structures and 
infrastructure and people has grown considerably.
    Dr. Cutter. That is exactly what is going on, that you 
have, in many ways, the same level of risk or heightened level 
of risk, but you have an increasing vulnerability of the 
population, because you have more and more people moving into 
these high hazard zones, and living close to storm inundation 
areas, living in housing that is really not sufficient in high 
wind conditions, such as manufactured housing, and so, your 
losses are going up, as more and more people are moving into 
these coastal areas.
    Mr. Sodrel. Now, we had a tornado the other, well, early 
morning hours, came through Indiana the other day, and 
unfortunately, we don't get 72 hours notice when tornados are 
coming. It is not a flood or a hurricane, where you can 
accurately predict and track. When everybody went to bed, there 
was no real reason to believe that the conditions favorable to 
tornado creation were present. And two in the morning is about 
the worst time. You can't go out and see if it is a quarter 
mile away, and the first warning went off 10 minutes ahead. I 
don't know if it is an appropriate question to ask here, but I 
have often thought, because that is the biggest challenge in 
our part of the country, is tornados, and it is not as 
difficult for people if it is daytime, weekday. The real 
serious problem is when it is early hours of the morning, as 
this happened, about 2:00 a.m., in Vanderburgh County. I know 
we have alarm clocks today that you can plug the clock in, that 
will automatically figure out which time zone it is in, and 
receives a signal from an offsite location. If the technology 
were available where you could access a person's alarm clock, 
basically turn the alarm on, and give them an audible signal, 
if they could buy an alarm clock had that built into it, you 
know, where you could access it from an offsite location. And 
if anybody in the sciences is looking at that as an option. 
Because it, then, is always the problem in our area. It is the 
2:00 a.m., 1:30 a.m., 3:00 a.m., it is dark, nobody sees it 
coming. You know, people are basically not awake, and they 
don't have any real warning.
    Dr. Cutter. The technology actually does exist, with NOAA 
weather radios. If everyone in your community had a NOAA 
weather radio, that would go on. The alert would go out, and it 
would wake people up, and they would get out of their homes 
into safer shelters. The question is making sure that everyone 
has a NOAA weather radio.
    Mr. Sodrel. And making sure everybody knows that, because 
if I didn't know that, I am confident there are a lot of 
constituents in southern Indiana that don't know that, either. 
You know, so disseminating the information would be very 
helpful.
    Thank you. Thank you, Mr. Chairman. I yield back the 
balance of my time.
    Chairman Inglis. The gentleman yields back. Mr. Melancon is 
recognized for five minutes.
    Mr. Melancon. I didn't really have any questions. I was 
here more to listen, because I am closer to it. Dr. Laska is 
from New Orleans, and I wanted to welcome her here, and I guess 
if I do have a question, is where do you live in the New 
Orleans area?
    Dr. Laska. I live behind an earthen levy, not a flood wall, 
and therefore, my house was saved.
    Mr. Melancon. You in----
    Dr. Laska. No, on the lakefront.
    Mr. Melancon. On the lakefront.
    Dr. Laska. Uh-huh.
    Mr. Melancon. Oh.
    Dr. Laska. I expected my house would be the first to go, 
but the lakefront levees were not overtopped. The canals.
    Mr. Melancon. Came through the sides, correct.
    Dr. Laska. Uh-huh.
    Mr. Melancon. Now, I appreciate you taking the time to come 
up here, as I do all the rest of you, but from the State of 
Louisiana--and I know the trauma that everybody in Louisiana 
has gone through, so the insight that you bring is really 
welcomed here.
    Thank you. That is all I have, Mr. Chairman.
    Dr. Laska. Thank you.
    Chairman Inglis. The gentleman yields back. Ms. Johnson is 
recognized for five minutes.
    Ms. Johnson. Thank you very much, Mr. Chairman. And I 
apologize for being here late. I had to testify over on the 
Senate side this morning. And I ask unanimous consent to put my 
entire testimony into the record. I want----
    Chairman Inglis. Without objection.
    Ms. Johnson. Thank you. Dr. Laska, you worked at the 
University of New Orleans, and I think it was severely damaged. 
Is it?
    Dr. Laska. That is correct.
    Ms. Johnson. Did your background come into play, and assist 
many of the people that were also affected by the hurricane?
    Dr. Laska. Yes, we have a FEMA-funded project called the 
Disaster Resistant University, and that is one, if you were 
asking questions of where sources of funding are. And we were 
in the process of developing a mitigation plan for the 
university. So now, of course, we have shifted gears, and we 
are assisting them with making an assessment of their disaster 
impact, so that they can apply for mitigation funding, as part 
of the HMGP.
    We also offered the faculty and staff of the university and 
students to ask us questions with regard to their damaged 
homes, so that they would know more about FEMA and how they 
should respond. So, those are two activities that the Center 
did do for the university.
    Ms. Johnson. Will you now see--I guess a lot of people you 
have not seen. I see a lot of them in Dallas, Texas, and it is 
clear that psychological support is needed. Has that been made 
available to people who are now in New Orleans?
    Dr. Laska. Dr. Silver, would you like to comment on that?
    Dr. Silver. I don't know what is going on in New Orleans 
right now. I know that the Red Cross was involved immediately 
after, but I don't know what psychological services are going 
on right now in New Orleans.
    Dr. Laska. Not only the Red Cross, but also FEMA has mental 
health specialists who are provided to communities post-
disaster, to assist. I trust that that is the case. I do not 
have any personal experiences with that.
    Ms. Johnson. Yes, we received quite a few in Dallas, and 
medical schools paired up with the FEMA people. FEMA got there 
a few days late, but they incorporated that into the other 
approaches that they had to make. But some of the support is 
needed for a very long time to come, and has that been taken 
into consideration with your research, that it might be 
emphasized, the long-term nature of some of that support, even 
on an outpatient basis?
    Dr. Laska. We are very concerned with that, with regard to 
the rebuilding of this community, because each family must 
grapple--they are displaced, as you point out. They are far and 
wide. Their home is totally just destroyed. They are having to 
try to make decisions as to whether to rebuild it back. People 
are living--my associate director has nine family members in 
her home. They have been together, nine people through seven 
weeks, and how one can cope with that, and still be thinking 
about their employment, and be thinking about the larger 
picture of the city's recovery, to me is just going to be a 
remarkable feat. And it will require strong mental condition, 
and as you point out, it is going to be very challenging for 
people to be able to think clearly about all these challenges 
that they face.
    Dr. Silver. Can I just speak to that one issue? The 
challenge is that there has not been a lot of research on long-
term effects. What happens is that if there is research, it--
the funding ends relatively soon after the trauma. So, for 
example, I followed individuals for three years after 9/11, but 
we know that three years is not quite long enough for most 
individuals. These kinds of traumas will impact them for the 
rest of their lives. So, to some degree, we are operating 
without the research base.
    Nonetheless, we do know that these kinds of events impact 
individuals really for the rest of their lives in all sorts of 
ways. The challenge really is to figure out what is the most 
effective and appropriate intervention, and whether or not it 
should occur six weeks later, 18 weeks later, six months later.
    One other point I want to make. You say seven weeks, and I 
think, as a psychologist, I understand seven weeks is a very 
short period of time. But frankly, our country does not really 
acknowledge how long things take to adjust to. And so, you 
know, to some degree, Katrina is old news, in terms of the 
impact in the media. We have moved on to the flu pandemic. We 
move on, and individuals point out that they need services. 
They want to talk a lot longer than other people want to 
listen, and that these events have impact a lot longer than 
others acknowledge.
    Ms. Johnson. Thank you. You are right. We have not accepted 
the mental health as any other aspect of health, and we are 
still struggling with trying to get that recognized here. And I 
would hope that your research would undergird some of the need 
to see mental health and psychological effects of disasters and 
what have you, need as much attention, perhaps even more 
attention, than physical health.
    Thank you.
    Chairman Inglis. The gentlelady's time has expired. Mr. 
Lucas is recognized for five minutes.
    Mr. Lucas. Thank you, Mr. Chairman.
    Dr. O'Hair, let us step back for a moment to the paradox 
issue you have brought up in the media. In your observations 
down through the years, has this paradox situation, both the 
good and the bad side, has this become--has the paradox become 
more pronounced, less pronounced? How would you, as a social 
scientist, of course, you look at long-term periods of time. 
How would you describe the paradox?
    Dr. O'Hair. In 2005, you mean?
    Mr. Lucas. Compared to 9/11, compared to the Murrah 
Building in 1995, compared to Jack Kennedy's assassination in 
1963. I mean, how has the media in recent decades, how has this 
paradox become more pronounced, less pronounced, does it vary 
from tragedy to tragedy?
    Dr. O'Hair. I think there is a great deal of variability. 
What was--what struck some media critics so profoundly about 
the other side of this, the side where they are actually 
providing support and comfort and companionship, is that it was 
very pronounced. People were surprised that the media would get 
that involved in the personal lives of individuals. They became 
caught up in the emotionality of the situation.
    So, whether or not we can track whether or not this, that 
side of it has actually increased. It is probably difficult to 
know and to understand, and this may be the place that we 
benchmark it, and begin to understand whether or not they are 
serving both those roles. Also, one other thing about the 
media. It is in my written statement. I didn't have time to 
talk about it here, that surprisingly, the media are some of 
the most unprepared members of the disaster response array of 
members. There was a simulation done a few years ago just after 
9/11, of putting them into a simulated environment, along with 
other first responders and so forth, these individuals of the 
team were the most fearful, the most stressed, and the most 
unprepared going into the simulation. So, that is why we argue 
that the media needs lots of education, and they need lots of 
training, and they need to be folded into the team that is 
going to be responding and mitigating to these crises, and I 
think if we do that, you will find the paradox to actually 
increase.
    I don't think there is anything we are going to be able to 
do about the cynicism. What I would hope to see is that we will 
begin to see that they are humans after all, and that they are 
performing that very important function of comforting and 
companionship.
    Mr. Lucas. Thank you, Dr. O'Hair. Dr. Silver, you commented 
on the unique psychological nature of each and everyone, and 
how we all respond to these kind of events, and before 9/11, 
before the hurricanes, a decade ago now, when the Murrah 
Building in Oklahoma City was bombed, Dr. O'Hair, in territory, 
my district office was, at that time, a block and a half away. 
Redistricting has taken me out of Oklahoma County, so I am not 
in the community any more, that wondrous thing that is 
redistricting, but I still work with, and I have contacts with 
my fellow federal employees, people who were in the area, and 
even a decade after, clearly there is still a huge impact on 
the people who were affected by the loss of loved ones, co-
workers who were there that day. I suppose some would say in 
Oklahoma City, because of the nursery and the loss of infants, 
because of a variety of other issues, perhaps it just might 
have been more stressful, but a decade out, we still face 
challenges.
    Based on your comments and my observations, these 
challenges may last for the rest of the lives of some of my 
fellow Oklahomans?
    Dr. Silver. I believe that negative life events impact 
individuals, in many cases, for the rest of their lives. That 
does not mean that they don't continue on with their lives. It 
doesn't mean that they don't go forward effectively 
functioning, in many cases, can experience joy, positive 
emotions. It just means that our notions of what recovery from 
these events is has been very narrow. It is not that people 
just forget the loss of their loved ones. It is not that people 
close the event and forget about it, and so, I think to the 
extent to which we can reevaluate what it means to 
psychologically adjust to these kinds of traumas, it does 
require some education, some realignment of what it means to 
experience these events, and continue on with one's life.
    We will see after Katrina, there will be tens of thousands 
of individuals who will be affected for the rest of their 
lives. Will they shut down? Will they be ineffective 
contributors to their world? No, I don't think so. Individuals 
are far more resilient than we give them credit for, and in 
fact, what we saw after 9/11 was that there was not enormous 
psychopathology. It is just that the normal response to an 
abnormal stressor needs to be reevaluated, and we need to 
realize that going on with life means experiencing these kinds 
of traumas and dealing with them, adjusting to them.
    Mr. Lucas. Thank you, Doctor. Thank you, Mr. Chairman.
    Chairman Inglis. I would be happy to recognize Ms. Hooley 
for an additional question.
    Ms. Hooley. Thank you, Mr. Chairman. Dr. Silver, we just 
had a plan put out for the threat of pandemic flu. Do you think 
there was enough attention paid to the social and behavioral 
sciences in that plan, and do you think there should be, if 
there hasn't been enough attention paid to that? Because I 
think there will be, I mean, I think this will be a situation 
that we are going to need all the help we can get.
    Dr. Silver. I do know that there are a handful of 
individuals, social scientists, who have been involved, and 
their opinions have been solicited on these programs. In fact, 
I know that there is a meeting going on, I believe it is today, 
in San Francisco, where social scientists are working on the 
issues of the avian flu. But I certainly think that the 
challenge is identifying who the real experts are, and 
involving them in a way that makes, that facilitates their 
contributions. I think that social science has been 
underappreciated and under-recognized and underfunded on these 
kinds of experiences.
    Terrorism is a psychological event, and yet, most of the 
funding since 9/11 has not been on the psychological aspects of 
terrorism. It has been on figuring out better ways to screen 
people at an airport, or to screen containers as they come in, 
and yet, the psychological effects of terrorism have been 
acknowledged but underfunded, in terms of the research.
    Ms. Hooley. Anyone else want to comment on this?
    Dr. Silver. Let me state one other issue, aside from being 
underfunded. The mechanism for getting research funding out to 
researchers quickly has been a big problem. I think one of the 
reasons why the National Science Foundation has been such--why 
we have seen individuals here who have had their funding from 
the National Science Foundation, is because they have a 
mechanism for quick response funding, but very few other 
federal agencies have such a mechanism. For example, the 
National Institute of Mental Health does not have the ability 
to provide funding to researchers quickly after a trauma, or 
after a disaster. And that would be something that I think 
should be enhanced.
    Ms. Hooley. Do you know of any money specifically for 
research for this issue?
    Dr. Silver. For which issue, for----
    Ms. Hooley. For a pandemic.
    Dr. Silver. On the flu?
    Ms. Hooley. Yeah. Okay.
    Dr. Silver. Should there be?
    Ms. Hooley. Thank you very much for taking your time. I 
appreciate it.
    Chairman Inglis. One last question for you. Any advice on 
how to avoid an over-response? In the 2001 anthrax attacks here 
in Washington, as I understand it, they were, in one emergency, 
1,100 people, 1,100 false reports from people turned out to be 
checked out, 1,100 of them, they were all false reports. I am 
not sure you call those false reports, negative, in other 
words, they tested negative, they were not exposed to anthrax. 
Maybe that is an over-response. I suppose it is an over-
response. It is sort of like from Graniteville, you know, 
people leaving beyond where the chlorine was going. Any 
thoughts about how the people involved in emergency response 
can contain the response, so that it doesn't become an over-
response?
    Dr. Silver. I would like to speak to that. I see these 
events as communications failures, rather than seeing the 
individuals who have responded in this way as somehow crazy or 
not getting it, I would rather indicate that there was 
something about the way in which the risk was communicated that 
was inaccurate, and that those kinds of communications, if 
delivered properly, from individuals who are trusted, would 
have led to lack of what you would call overreaction.
    There is a notion that some people call it ``the worried 
well,'' and I don't like that term, because it implies that 
there is something psychologically inappropriate about the way 
they are responding. In many ways, they may be responding quite 
accurately, by virtue of the fact that the information that 
they have been given has been confusing or has been 
inaccurately delivered.
    Dr. O'Hair. That is one of the reasons why we continue to 
push for a more idiosyncratic approach to communities, because 
you have to understand this was right after 9/11, and there was 
a heightened sensitivity to this context. As a result of that, 
the message should have matched the sensitivity that was in 
that environment at the time, but instead, it was probably just 
a normal kind of risk message that was sent out. Had 9/11 not 
preceded this particular situation, you might have seen a very 
different kind of response.
    Dr. Silver. And that was actually in Washington. Let me say 
that in Irvine, California, which is quite far from any 
problem, the police department indicated that they were getting 
between five and ten calls a day from individuals who wanted 
their mail checked out, because they feared anthrax. So again, 
I see this as a communication failure, as opposed to something 
wrong with the individuals who were experiencing that anxiety.
    Dr. Laska. I would connect your question to Mr. Lucas: We 
have environmental journalists. They have their own 
organization. I am sure it is part of the subgroup that Dr. 
O'Hair is affiliated with, but we don't have disaster 
journalists, because disasters are scattered, so you don't have 
on staff someone who is your disaster specialist. Now, in 
Louisiana, we do, because we have so many, but in general, it 
means that a general reporter has to come up to speed, and it 
is a challenge. It is a challenge for a newspaper to have 
someone be able to do so. We have some journalists who come to 
Boulder when we are there talking about these things, but I 
really think that it is the challenge that when this happened, 
we got calls and calls and calls, to the point where we had to 
say, no, stop. But most of them were very lengthy 
conversations, because the reporter knew almost nothing about 
the topic, and therefore, had to use our time, you know, before 
they had a grasp of it. So, that is, to support Dr. Silver and 
Dr. O'Hair, the same kind of issue as the lack of knowledge on 
the part of the media, and therefore, they participate in a way 
that is not constructive.
    Dr. Cutter. There is also an issue with personal 
experience, and a person's individual experience with threat 
agents makes a difference in their response. Very few people 
have experience with a chlorine spill. Very few people have 
experience with potential, or a nuclear power plant accident, 
with a bombing at the Murrah Building, with anthrax. And so, in 
the absence of that experience, they rely on the risk 
information that they are getting, so it becomes a 
communication problem. People living in coastal areas, by and 
large, have some experience with natural events, floods and 
hurricanes, and so, they rely more on their ability to 
synthesize the array of information they are getting, and in 
many ways, they become their own little individual decision 
makers, and don't necessarily rely on a lot of the risk 
information that is coming out from public officials. So, 
personal experience is also a big factor.
    Chairman Inglis. Thank you to the panel. I appreciate your 
comments, Dr. Cutter, Dr. Laska, Dr. O'Hair, and Dr. Silver. I 
appreciate you being here, and I appreciate the Members of the 
Subcommittee participating. The hearing is adjourned.
    [Whereupon, at 11:30 a.m., the Subcommittee was adjourned.]
                               Appendix:

                              ----------                              


                   Answers to Post-Hearing Questions




                   Answers to Post-Hearing Questions
Responses by Susan L. Cutter, Carolina Distinguished Professor and 
        Director, Hazards Research Lab, University of South Carolina

Questions submitted by Representative Darlene Hooley

Q1.  From the Federal Civil Defense Act of 1950 through the creation 
and evolution of FEMA, the top-down, command and control approach has 
been the model used in crafting emergency plans. What has social 
science research revealed about the effectiveness of top-down, command 
and control paradigm in meeting the challenges posed by disasters? Is 
there a better approach, and how might it work?

A1. The command and control works well in military applications and 
less well in civil emergencies as pointed out by many social 
scientists.\1\ The top-down approach ignores two fundamental premises 
of civilian emergencies: 1) People are individual decision-makers and 
will take actions that they perceive are in the best interests of their 
family; and 2) All disasters are local and it is the local first 
responders who are most familiar with the community and closest to the 
response. First responders have the knowledge of local resources, 
community structures, transportation, and what needs to be done. Local 
plans need to be nested within larger state plans that are then nested 
within the Federal Response Plan. Command and control is useful as an 
organizing and reporting principle and certainly important in terms of 
communications. However, when the disaster occurs, organizational 
structures that are flexible and adaptive and accommodate the actions 
of residents, rather than completely rigid or hierarchical 
organizations like command and control work best during the response 
phase.
---------------------------------------------------------------------------
    \1\ Dynes, R.R., E.L. Quarantelli, and G.A. Kreps. 1981. A 
Perspective on Disaster Planning. Newark, DE: University of Delaware, 
Disaster Research Center (3rd ed., originally published in 1972); 
Dynes, R.R., 1994. ``Community emergency planning: False assumptions 
and inappropriate analogies,'' International Journal of Mass 
Emergencies and Disasters 12: 141-158.

Q2.  Some have argued that FEMA, as part of the Department of Homeland 
Security, is hamstrung by a command and control mentality that is ill-
suited to the realities of disasters. Do you agree with this 
assessment? Does social science research support the view that there is 
a fundamental problem in the way the federal government is organized 
---------------------------------------------------------------------------
for dealing with disasters?

A2. Yes. During the 1990s, FEMA made significant organization advances 
in integrating preparedness, response, recovery, and mitigation (the 
phases of the disaster cycle) in all its activities. After September 
11th and with its organizational move into DHS, the focus had 
dramatically shifted to command and control (the military and law-
enforcement model) and the development and distribution of surveillance 
and protective technologies to thwart the impacts of terrorist events. 
This was due to two factors: 1) most of the leadership at DHS comes out 
of the law enforcement community as well as the National Laboratories 
and lack formal training and experience in emergency management; and 2) 
a fundamental lack of understanding about how people, communities, and 
organizations prepare for and respond to disasters. Preparedness 
resources for local communities were equipment-driven and specific to 
one threat agent, not planning oriented for ``all hazards.'' 
Vulnerability reduction was oriented toward hardening the 
infrastructure, not helping communities to develop mitigation 
strategies to reduce their vulnerabilities and improve their resiliency 
before the event occurred. In fact, mitigation has almost disappeared 
within the agency.
    Response to disasters requires partnerships and cooperation across 
all levels of government with everyone pulling in the same direction. 
Flexibility and the ability to adapt to changing conditions during the 
response are essential. The current administrative structure is not 
conducive to that approach. FEMA needs to be an independent cabinet 
level-agency charged with coordinating the Federal Response to 
disasters. It needs to have oversight on all phases of the emergency 
management system (preparedness, response, recovery, mitigation). The 
social science research supports this conclusion.

Q3.  A significant share of federal support for disaster related 
behavioral and social science research comes from the National 
Earthquake Hazards Reduction Program. Does this distort the research 
priorities in these fields in an inappropriate way?

A3. Yes, I believe it has. While much of the research funded under 
NEHRP has not been earthquake-specific, but more broadly based in an 
``all hazards'' perspective, it has driven the research priorities in 
the community for more than forty years. There are many unanswered 
scientific questions in the disasters field that would benefit from a 
broader base of funding and support. The forthcoming National Research 
Council report, ``Disasters Research in the Social Sciences,'' provides 
recommendations, which if implemented, will go a long way towards 
enhancing social and behavioral science research in ``all hazards.''

Questions submitted by Representative Eddie Bernice Johnson

Q1.  The 2003 Office of Science and Technology report, ``Reducing 
Disaster Vulnerability Through Science and Technology,'' identified six 
important areas for attention, including ``expand[ing] risk 
communication capabilities, especially public warning systems and 
techniques.'' The report recommends investment in social and behavioral 
science dimensions of public response to information and education 
campaigns. Are you aware of any increases in federal funding to address 
this recommendation? Is adequate research underway in this area?

A1. I am not aware of any increases in federal funding to address this 
recommendation, or any other recommendation from that report. There is 
considerable social science expertise on risk communication and public 
response to warnings, but it is diffuse and chronically under funded. 
For example, there is a substantial body of research on how the public 
responds to various types of hazards warning advisories, but we know 
very little about how risk perceptions and response vary among minority 
and ethnic populations in the country, especially those living in urban 
areas. More research is also needed on how the media frame risk 
information and communicate threats and warning to the public and the 
public's perception of the credibility of the source and the 
information they receive.
    In June 2005, the Subcommittee on Disaster Reduction published 
their ``Grand Challenges for Disaster Research.'' \2\ This provides the 
blueprint for federal investments in disaster vulnerability through 
improvements in community resilience. The six grand challenges are: 
provide hazard and disaster information where and when it is needed; 
understand the natural processes that produce hazards, develop hazard 
mitigation strategies and technologies; recognize and reduce 
vulnerability of interdependent critical infrastructure; assess 
disaster resilience using standard methods; and promote risk-wise 
behavior. I'm not aware of increases in funding, and in fact, many of 
the mission agencies have received cuts in their budgets, precluding 
any new initiatives for the near future.
---------------------------------------------------------------------------
    \2\ Subcommittee on Disaster Reduction, 2005. Grand Challenges for 
Disaster Reduction. National Science and Technology Council, Committee 
on Environment and Natural Resources. June 2005, 21 pp.

Q2.  The Administration last week released a plan to respond to the 
threat of pandemic flu. Do you believe the Administration's plan 
reflects sufficient attention to the social/behavioral factors that 
would be associated with public reaction to a pandemic situation and 
that should be incorporated into preparedness and response plans? Are 
you aware of whether behavioral and social scientists had a substantial 
role in developing this pandemic strategy? What areas of behavioral and 
social science research associated with other types of disasters would 
have particular relevance to this strategy. An specifically, in what 
areas do you feel the plan is deficient with regard to social science 
---------------------------------------------------------------------------
research or any other research activities?

A2. I have not read the plan so I can't comment on it. I also don't 
know whether behavioral and social scientists had any substantial role 
in developing the pandemic strategy, or whether any social or 
behavioral science research was used.
                   Answers to Post-Hearing Questions
Responses by Shirley Laska, Professor, Environmental Sociology; 
        Director, Center for Hazards Assessment, Response and 
        Technology, University of New Orleans

Questions submitted by Representative Darlene Hooley

Q1.  From the Federal Civil Defense Act of 1950 through the creation 
and evolution of FEMA, the top-down, command and control approach has 
been the model used in crafting emergency plans. What has social 
science research revealed about the effectiveness of the top-down, 
command and control paradigm in meeting the challenges posed by 
disasters? Is there a better approach, and how might it work?

A1. Social science research has revealed that the Command and Control 
approach has several ``problems'' that prevent it from being as 
beneficial as all of the investment in it suggests. First, such an 
approach of tight control is not one with which most agencies are 
accustomed; it is not what is used on a daily basis. Thus, the 
procedures are unfamiliar and require training and drilling in 
hypothetical cases in order for the organizations to implement it well. 
What has been found in the FEMA implementation experience with regard 
to mitigation is that anything (processes, procedures) that are only 
done occasionally are not done well. Funding and time commitment to 
drill organizational procedures wane after any new management principle 
is introduced and thus the benefits that were identified when the idea 
was fresh and new diminish.
    The other finding that is relevant goes back to the military in 
WWII as well as has been found in disaster research up to and including 
9/11: Much of the initial response to a catastrophe is done 
``informally'' by those who are at the scene immediately when the event 
occurs, i.e., victims helping victims. The response is ad lib, informal 
and benefits from multiple person capacity to ``think on one's feet'' 
rather than to merely take orders bureaucratically. We have been told 
that such ability on the part of the American forces on D-Day brought 
the more rigid German ``command and control'' system down. The same 
positive outcome is being studied in depth right now with NSF funding 
that occurred in 9/11 with the ``boat brigade'' going back and forth 
across the Hudson River rescuing people and taking supplies. It was a 
remarkable response that did not benefit from command and control 
structure.
    I personally appreciate the utility of a clear decision-making 
process supported by quality expertise in the various roles required. 
It is just another ``stretch'' to a format that is so tightly in a 
military format when the uncertain, unanticipated factors cannot be 
specifically drilled for in that structure. The opposite model is a 
generalist who can multi-task, or considering the definition of 
``resiliency,'' have the ability to adapt in small increments in 
different ways as the situation warrants. This approach, even with well 
trained experts, may be the better way to respond.

Q2.  Some have argued that FEMA, as part of the Department of Homeland 
Security, is hamstrung by a command and control mentality that is ill-
suited to the realities of disasters. Do you agree with this 
assessment? Does social science research support the view that there is 
a fundamental problem in the way the Federal Government is organized 
for dealing with disasters?

A2. I have already answered the first part of the question in #1. My 
answer to the second follows. I have worked with FEMA for 20 years on 
numerous projects. I would not say that command and control is the most 
significant problem. The core of the problem is that Homeland Security 
issues have overtaken other risks. I believe that they have done so for 
ideological and economic benefit reasons, just as I have described in 
the following question about earthquakes. The risks are seen as very 
real and threatening because they are ``fresh'' in the minds of the 
society; and, there are opportunities to develop technologies, training 
skills and research to support the society's ability to respond, i.e., 
to profit from the event. While there is no doubt that there is a 
homeland security risk, other risks continue to exist and they cannot 
be ignored as if in doing so they will go away. FEMA has been 
emasculated because of the lack of appreciation of the Homeland 
Security specialists about natural hazards and thus their inability to 
appreciate the potential impact that a catastrophic natural disaster 
can have on the American society. There needs to be a balance in 
responding to the risks of the society. There also needs to be a 
recognition that the society must commit to reduce risks through 
mitigation (one of FEMA's key roles before it was eliminated from their 
charge) rather than merely to respond if the catastrophe occurs. Our 
society can no longer stridently allow our citizens and our 
organizations to challenge nature rather than adapt our behavior to 
nature. We do not have the economic surplus to continue to do so. For 
these reasons we need a robust FEMA. Since Katrina we have not seen 
movement by the administration to improve this situation. It is 
imperative that we do so.

Q3.  A significant share of federal support for disaster related 
behavioral and social science research comes from the National 
Earthquake Hazards Reduction Program. Does this distort the research 
priorities in these fields in an inappropriate way?

A3. Yes, and that happened in the same way that the Homeland Security 
``over'' emphasis happened. After the Northridge earthquake, the 
political process and the tendency for our society to hop from the risk 
of previous concern to the most recent one, pushed funds that way. It 
also happens because the event opens up business, research and 
bureaucratic opportunities and the political process facilitates this 
push. The NEHRP requires interdisciplinary research. I wholeheartedly 
endorse interdisciplinary research and believe that the only way to 
push researchers to learn how to do it is to require it, but only when 
it makes sense. There are differences among disaster drivers that 
require different research questions that should be asked in one 
research discipline at a time, not always in an interdisciplinary way.

Q4.  In your testimony, you point to articles you and others published 
prior to Hurricane Katrina that accurately predicted many of the 
outcomes from that disaster. Why do you believe this prior knowledge 
was not acted upon? What are the barriers to, as you put it in your 
statement, having such research findings ``valued'' by organizations 
and policy-makers?

A4. Whew, I wish I had the research completed to answer you fully. 
Thank you for asking. Environmental/risk sociologists Lee Clarke at 
Rutgers (new book on worst cases) and Steve Kroll-Smith at the 
University of North Carolina-Greensboro (several books on environmental 
risk response) are joining me on the research project which asks that 
question. My quick answers from the preliminary research findings 
include: competing interests in society (other activities more 
important to leaders to spend $$$ on); belief that the event won't 
happen on ``my watch''; ability of culture to dismiss risks that have 
lower probabilities; ability in general for human psyches to dismiss 
risk; Louisiana being low on the national ``totem pole'' of states and 
thus its risks not attended to; technical jargon of warnings ``going 
over the heads'' of those who needed to hear; belief that scientists 
were giving the warnings in order to receive more research funding. I 
hope in about a year to have completed research that will contribute to 
answering this question.
    Given the threat of climate change/global warming, it is imperative 
that we learn the answer to this question and find ways to overcome the 
resistance because the Gulf Stream may turn south (converting the 
northeast U.S. and Europe into another Ice Age) before we get a grip on 
this challenge. What amazes me as a social scientist is that our 
society is so good, advanced, at doing some things but others are a 
challenge way beyond what we would expect given our ``modern'' 
organizational capacity. Katrina certainly was (is). Remarkable failure 
and the decisions that led to it were simple, everyday ones, nothing 
monumental, like Chuck Perrow's work on ``Normal Accidents'' describes. 
Dismissal of Vicksburg Corps office's challenge about the soft soils 
into which the flood walls were driven and no communication between the 
local agency and the Corps when residents reported the flood walls 
leaking i.e., no attentiveness to risk impacts.

Questions submitted by Representative Eddie Bernice Johnson

Q1.  The 2003 Office of Science and Technology Policy report, 
``Reducing Disaster Vulnerability Through Science and Technology,'' 
identified six important areas for attention, including ``expanding 
risk communication capabilities, especially public warning systems and 
techniques.'' The report recommends investment in social and behavioral 
science dimensions of public response to information and education 
campaigns. Are you aware of any increases in federal funding to address 
this recommendation? Is adequate research underway in this area?

A1. I'm sorry I don't have an answer to this question. I believe it was 
answered in the testimony by the specialist on risk communication.

Q2.  The Administration last week released a plan to respond to the 
threat of pandemic flu. Do you believe the Administration's plan 
reflects sufficient attention to the social/behavioral factors that 
would be associated with public reaction to a pandemic situation and 
that should be incorporated into preparedness and response plans? Are 
you aware of whether behavioral and social scientists had a substantial 
role in developing this pandemic strategy? What areas of behavioral and 
social science research associated with other types of disasters would 
have particular relevance to this strategy? And specifically, in what 
areas do you feel the plan is deficient with regard to social science 
research or any other research activities?

A2. I can only address the one aspect of generalizability of findings 
from other research: to the prospect of the pandemic flu. While each 
risk/hazard has its unique qualities, none is so unique as to not be 
informed by research on others. The uncertainty of occurrence, the 
quickness with which we will have to respond if the event does occur, 
the reluctance of the society (world) to take necessary steps because 
it might not happen (like reluctance to evacuate because it could be a 
false alarm) are all similar to other hazards.
    Thank you for inviting me to comment further on this topic.
                   Answers to Post-Hearing Questions
Responses by H. Dan O'Hair, Chairman, Department of Communications, 
        University of Oklahoma

Questions submitted by Representative Darlene Hooley

Q1.  From the Federal Civil Defense Act of 1950 through the creation 
and evolution of FEMA, the top-down, command and control approach has 
been the model used in crafting emergency plans. What has social 
science research revealed about the effectiveness of the top-down, 
command and control paradigm in meeting the challenges posed by 
disasters? Is there a better approach, and how might it work?

A1. A substantial number of social science researchers challenge the 
notion of a top-down command and control approach to disasters. A 
notable exception to this assertion is the 9/11 Commission Report 
suggesting that this type of approach operated somewhat effectively at 
the Pentagon on that fateful day primarily due to the Incident Command 
System that overcame difficulties in coordinating the response efforts 
of local, State and federal agencies. Beyond that example, most reports 
by government and independent organizations have taken issue with a 
command and control paradigm that pervades many response agencies, FEMA 
being the most visible. The federal approach to disaster prevention, 
preparation, response and mitigation faces a number of challenges that 
are becoming more salient each year. First, disaster response scrutiny 
by the public reached a fever pitch following Katrina. The public has 
expressed its concern with the ineffectiveness of command and control 
approaches that lack competent inter-organizational communication. 
Second, media coverage and editorializing before, during, and after 
disasters will only become more prominent. Response organizations must 
engage in strategic relationship management with the media prior to 
disasters to develop the type of working relationships so necessary 
during these catastrophic events. The command and control approach 
offers less of chance for making that type of partnership work. Third, 
information and communication management will become more complex as 
advances in technology outstrip human capacity to assimilate 
information. Information overload is difficult to manage from a command 
and control perspective. Fourth, the convolution of preparedness and 
response organizations and especially networks of organizations that 
join the disaster response will only grow in numbers resulting in a 
complex array of meta-networks. A top-down approach has a tendency to 
isolate organizations and networks, especially NGOs who do not perceive 
and recognize all jurisdictional policies. So, yes, there is a 
fundamental problem in the way the Federal Government is organized for 
dealing with disasters. The GAO has issued numerous reports 
recommending approaches that are more localized and efficient. Based on 
social scientific research we have our own ideas about how disasters 
can be more effectively managed that will be outlined in the following 
sections.
    As to the alternatives, the social and behavioral sciences are 
documenting the utility of several social and behavioral phenomenon 
that provide us with significant emerging models to supplement, if not 
replace entirely command and control. We have a bias toward a 
Community-Communication Infrastructure Model that was briefly outlined 
in my testimony and prepared statement and mentioned again in the 
response to Congressman Johnson's first question. Other alternatives we 
prefer have now been demonstrated as improving outcomes in several 
natural disasters as ``emergent phenomenon.'' By emergent phenomenon, 
we mean that they emerged seemly spontaneously by people as best they 
could with new technologies to successful address the situation at 
hand. In many cases, ``smartswarms'' (or in other words, non-
controlled, non-hierarchical social networks) have outperformed command 
and control models and then were successfully replicated, where command 
and control systems continued to fail.
    The key attributes of these self-emergent alternatives that make 
them superior to a solely centrally-designed, top down, command and 
control model, are the following:

         1)  Flexibility through a massively parallel system of action, 
        data collection and democratization of the production of 
        knowledge (in some ways mimicking the non-controlled system 
        characteristics of a free market economy or the Internet),

         2)  Better open knowledge sharing, especially regarding 
        mission critical failures and the most vulnerable parts of the 
        community and emergency management system;

         3)  Rapid response enabled by robust advanced communication 
        resilient during disaster conditions;

         4)  Encourage situational awareness for all members of the 
        society;

         5)  Encourage informed collective response by all members of 
        the society, including but not limited to professional 
        responders;

         6)  Overcome innate or institutionalized helplessness;

         7)  Engage early to partner with the most vulnerable portions 
        of the society to ensure their health and safety by engaging 
        local advocates well-prepared to act on behalf of those who can 
        not help themselves under emergency conditions;

         8)  Create a common operating picture shared among all members 
        of the society;

         9)  Constantly strive for more effective communication and 
        operational effectiveness across sectoral and intergovernmental 
        boundaries, even when bureaucracies seemly dictate 
        institutional inaction and conflict;

        10)  Focus on rapidly addressing mission critical gaps between 
        need and service delivery;

    To illustrate these characteristics in the context of newly 
emerging systems, I will focus on one initiative's efforts to innovate 
beyond traditional command and control systems. The National Disaster 
Risk Communication Initiative (NDRCI), an ad hoc coalition of top risk 
communicators, technologists and social and behavioral scientists from 
key federal agencies, State agencies, private sector, universities, and 
large national non-profits, has debriefed on the mission critical 
failures in all large emergent events since 9/11. The NDRCI has built 
an alternative model to be incorporated in the characteristics above. 
It is built around a free, open source Disaster Knowledge Management 
System platform with an inter-operable systems architecture that is far 
more flexible, scalable, extensible, and rapidly replicable than any 
currently being used by Federal Governments, with the possible 
exception of experimental systems in the Department of Defense and the 
intelligence community. The NDRCI's Disaster Knowledge Management 
System is more a self-evolving social network that incorporates an 
upgraded, more flexible, better informed command and control model as a 
portion of a non-controlled Resilience Network system. Rather than 
replacing FEMA's command and control system in its entirety, it is 
wrapped into a more comprehensive model, better adapted to the kinds of 
emergent, large-scale social crises we anticipate potentially 
challenging our society in the early to mid-part of the 21th Century.
    The all hazards Disaster Knowledge Management System platform was 
originally designed as a rapidly replicable model to specifically 
address the shortcomings identified in Florida hurricanes of 2004. It 
then was packaged into a proposal for FEMA to be piloted as a rapidly 
replicable National model field tested as ``MAHRN''--Mid-Atlantic 
Hurricane Resilience Network. There was no uptake by FEMA during 2005, 
even though MARHN would have been perfectly adapted to prepare for and 
respond to conditions caused by Hurricane Katrina and Rita. Although 
FEMA did not fund it, some of its ideas were incorporated into NOAA and 
FEMA social and behavioral research plans for year 2006. It addition, 
its model was then funded by the Jonas Salk Foundation and an insurance 
company called CSA and developed as a feasibility pilot in the Indian 
Ocean tsunami disaster areas following the Boxing Day earthquake.
    The Disaster Knowledge Management System (DKMS) is now in a phase 
II experimental pilot phase, partially sponsored by Global Health 
Initiatives, the United Nations University, and small non-profit 
organizations. Its spin-off Resilience Networks (http://
ResilienceNetworks.info/) are now being architected for rapid 
replication in many metropolitan and rural areas (e.g., Gulf Coast 
communities, New Orleans, San Francisco Bay Area, National Capital 
Region, Southwestern Pennsylvania, Boston, San Diego, Hawaii, Miami, 
Chicago) in a series of experiments to test the model in different 
conditions around the country. Below is a simple schematic that 
describes the current hurricane centric model proposed for the post-
Katrina Gulf Coast disaster areas, with a special emphasis on the most 
impacted and vulnerable portions of the Gulf Coast communities and New 
Orleans.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Q2.  Some have argued that FEMA, as part of the Department of Homeland 
Security, is hamstrung by a command and control mentality that is ill-
suited to the realities of disasters. Do you agree with this 
assessment? Does social science research support the view that there is 
a fundamental problem in the way the federal government is organized 
for dealing with disasters?

A2. Unfortunately, we have had a series of natural experiments 
recently, with emergent conditions likely to reoccur, which 
demonstrated that FEMA failed to meet our current societal expectations 
of federal emergency response. Although perhaps living up to the 
parameters for which it was originally institutionalized in the 1950s, 
FEMA is no longer meeting the preparedness, response, and recovery 
expectations of the American people a half century later. This should 
not be a surprise in a nation that has in the meantime put a man on the 
Moon and birthed the computer revolution. The United States is a 
culture of innovation that strives toward excellence and engages 
evolutionary improvements to fix problems where societal institutions 
are sub-optimizing. It is now being demanded that our nation's concept 
of emergency management live up to the challenges that we are likely to 
face in the 21st century, which are already proving to be quite 
different in nature, scope and scale than what FEMA is currently 
designed to address.
    It is not so much that FEMA's command and control system has to be 
replaced in entirety by something else. FEMA's command and control 
system, in fact, accomplishes tremendous feats of rapidly moving 
federal financial resources, human resources and material in 
emergencies in ways that remain pertinent going forward. It is more the 
case, that we now know, that in itself FEMA's current command and 
control model is insufficient. From the schematic above we can see that 
in addition to its command and control system, FEMA (or some other 
entity that incorporates FEMA, such as DHS) needs to continue FEMA's 
command and control activities within a more complete system of 
societal resilience. This means that in addition to a constant 
iterative improvement of the command and control function, the larger 
resilience system enables all levels of society to prepare, respond, 
relieve, recover, and mitigate in a massively parallel and flexible 
manner that cannot be done by a federally directed top down command and 
control system. The Resilience Network model incorporating FEMA command 
and control enlivens the capacities of the American people and their 
communities. The DKMS/Resilience Networks model optimizes the ability 
of natural social networks with deep roots at the local level to engage 
with FEMA and State emergency management agencies in meeting the 
Nation's emergent needs in a far more responsive system with the 
capacities to operate with the characteristics noted under my answer to 
Question 1.

Q3.  A significant share of federal support for disaster related 
behavioral and social science research comes from the National 
Earthquake Hazards Reduction Program. Does this distort the research 
priorities in these fields in an inappropriate way?

A3. This is a more difficult question to answer. If the question were 
asked, ``is a significant share of what is appropriated for NEHRP 
research actually devoted to SBE projects, the response would be less 
equivocal and certainly pessimistic. Analyses of funding portfolios or 
reports from each of the agencies composing NEHRP (FEMA, USGS, NIST, 
NSF) make it difficult to determine if SBE is a relative priority. 
However, if I am reading your question correctly, it implicates another 
concern, namely does the allocation of funds intended for SBE research 
through NEHRP redirect research priorities for disaster preparedness 
and mitigation in general? The simple answer is yes. Researchers follow 
the money. A more complex response would focus on the generalizability 
of SBE research which has the potential for application in multiple 
threat and disaster contexts. In other words, is the research being 
supported by NEHRP funds applicable across multiple disaster contexts, 
including terrorism? This is perhaps an issue that only Congress, the 
GAO, or perhaps specialized knowledge management experts can address.
    The more generic issue of whether behavioral and social science is 
adequately funded to enable our society to address its current and 
emerging vulnerabilities, the answer is clearly, ``No, it is not.'' We 
need look no further than the preparedness, response and recovery to 
Katrina to know this is the case. However, it is also being clearly 
demonstrated again in the President's and Congressional pandemic flu 
budget. For three to five years, while our nation will have 
insufficient stockpiles of vaccine and anti-virals, risk communication, 
social distance management, and resilience initiatives will be 
essential for our nation to establish behavioral and social immunity to 
pandemic flu transmission. Yet, there is essentially no budget to apply 
emerging behavioral and social science to this and other pending 
threats to the health of Americans and to our national security.

Q4.  The 2003 Office of Science and Technology Policy report, 
``Reducing Disaster Vulnerability Through Science and Technology,'' 
identified six important areas for attention, including ``expand[ing] 
risk communication capabilities, especially public warning systems and 
techniques.'' The report recommends investment in social and behavioral 
science dimensions of public response to information and education 
campaigns. Are you aware of any increases in federal funding to address 
this recommendation? Is adequate research underway in this area?

A4. You are correct about the 2003 Office of Science and Technology 
Policy report, ``Reducing Disaster Vulnerability Through Science and 
Technology,'' making risk communication a priority for risk and threat 
preparedness. Numerous other organizations such as the National Science 
Foundation have identified risk communication as an essential 
ingredient in a complex array of processes necessary for disaster 
preparation, response, and management. As I mentioned in my testimony 
in November, the Director of NSF, Dr. Bement, testified before the 
Senate Committee on Commerce, Science, and Transportation for the need 
to include risk communication in the research programs that it funds. A 
recent NSF report argues for greater interdisciplinary cooperation 
among basic natural sciences, human decision processes, economists, 
engineers, and communication scholars (NSF, 2002). The Government 
Accounting Office reported to Congress last year that risk 
communication theory and protocol must assume a greater role in threat 
mitigation plans (GAO-04-682, 2004). In a PCAST report referred to in 
testimony earlier this year before your subcommittee on combating 
terrorism, the authors highlight the important role of communication in 
mitigating, preventing, and responding to terrorist acts. Just about 
every GAO report on public response organizations and agencies places 
communication at the top of the list. NSF has attempted to address this 
need with new programs focusing on decisions making, risk, and 
uncertainty. For instance, the Human and Social Dynamics priority area 
is currently soliciting small grant proposals ($750,000 over three 
years) in these specific areas. However, the proportion devoted to 
social and behavioral sciences for basic and applied research, 
particularly in risk communication, is woefully inadequate not only 
from a general funding perspective, but especially in a relative sense 
compared to other scientific funding priorities. A lack of priority for 
social and behavioral research from other agencies in the area of risk, 
crises, and emergencies will continue to expose fundamental weakness in 
preparedness and response strategies so vividly illustrated by 
disasters such as Hurricane Katrina.

Questions submitted by Representative Eddie Bernice Johnson

Q1.  In your testimony you point out the importance of trust and public 
participation in risk and crisis communication programs because the 
characteristics of communities vary widely. Do you have recommendations 
on how to achieve this type of community involvement in planning? Is it 
possible with the currently dominant top-down approach to planning?

A1. Our research group strongly favors a Community-Communication 
Infrastructure Model (C-CIM) approach for enhancing trust among 
community members. In my written statement for your committee, I 
proposed such a model for community preparedness and briefly outline 
the parameters for improving risk communication at the community level. 
Our research group is prepared to provide additional detail for the C-
CIM should you request it. Risk communication, trust, and community 
involvement are not new phenomena; recently a National Research Council 
committee (Stoto, Abel, & Dievler, 1997) recommended that deliberative 
and participative community processes should be engaged to inform 
public policy choices. The committee argued that these processes lead 
to a more informed public and more support for decisions. Project 
Impact, established in 1997 by FEMA, was meant to actively engage 
communities in the process of disaster resistance. Research from 
Project Impact discovered that communities were better able to secure 
resources from support organizations and were better positioned to 
understand their community's relative risk and plan for managing these 
risks. In essence, these communities became more resilient as a result 
(Rodriguez, 2004). Several subsequent studies have verified the 
positive effect of community involvement during risk policy decision 
making in a variety of contexts (McDaniels, Gregory, & Fields, 1999; 
Gregory, Arvai, & McDaniels, 2001; Arvai, Gregory, & McDaniels, 2001). 
Even community members who do not directly participate in the planning 
and deliberating process have more positive views of the policy 
decision based on their perception that the process was fair and 
inclusive of community members' viewpoints (Arvai, 2003). In sum, 
public meetings that genuinely involve citizens in dialogue and stress 
the importance of interactive exchange have greater chances of success. 
These types of meetings not only increase perceptions of participation, 
but build relationships important in the trust credibility areas 
(McComas, 2003).
    A strong body of research demonstrates that organizations can play 
a pivotal role in communication campaigns (Stephens, Rimal, & Flora, 
2004). Results from the Stanford Five City Project revealed that 
organizations outside of the media have the potential of reaching about 
half of a community's households (Flora, Jatilus, Jackson, & Fortmann, 
1993). Community organizations also serve an audience segmentation 
function primarily because of the communication infrastructure in place 
(bulletin boards, listservs, newsletters, etc.). One advantage of 
community organizations is that membership is voluntary and messages 
originating from them are usually viewed with greater levels of trust. 
A key strategy for communication campaign managers is to enlist the 
support of key organizational leaders who would then serve as opinion 
leaders and promote the messages of the campaign (Stephens, et al., 
2004). There is little doubt that enlisting the support of community 
organizations can increase the reach of communication campaigns.
    Increasing community involvement and participation in terrorism 
spawns positive civic and social effects often referred to as 
resilience. Resilience is a community building idea promulgated by 
Grotberg (2002) that refers to the thoughts, feelings, and even the 
spirit of individuals toward their community and its members. It is 
perceived as an ideal state where communities and its members posses an 
optimistic, pliable, and hardy perspective toward both normal and 
crisis conditions. Resilient communities are those that enjoy strong 
relationships within and outside the family, understand the need for 
vibrant community services (such as education, health, social, 
welfare), and are energetic in developing a community climate that is 
compassionate, empathic, respectful, and communicative. Research has 
discovered that resilient communities possess four common 
characteristics (Grotberg, 2002): Collective self-esteem, cultural 
identity, social humor, and collective honesty. It is through resilient 
acts that communities and their members construct strategies that 
discourage terrorism. Building resilient, socially networked 
communities where stores of communication capital reside offer greater 
comfort and security than disconnected communities. One of the 
centerpieces of the C-CIM is enhancing community resilience. Because of 
the top-down, command and control structure of planning processes in 
the status quo, additional resources must be specifically earmarked and 
funded directly for state and community use.

Q2.  The Administration last week released a plan to respond to the 
threat of pandemic flu. Do you believe the Administration's plan 
reflects sufficient attention to the social/behavioral factors that 
would be associated with public reaction to a pandemic situation and 
that should be incorporated into preparedness and response plans? Are 
you aware of whether behavioral and social scientists had a substantial 
role in developing this pandemic strategy? What areas of behavioral and 
social science research associated with other types of disasters would 
have particular relevance to this strategy? And specifically, in what 
areas do you feel the plan is deficient with regard to social science 
research or any other research activities?

A2. It is our impression, and that of others we have consulted, that 
few if any behavioral/social scientists were actively involved in the 
development of the Administration's pandemic strategy. The original 
plan outlined by the Bush Administration recommended $583 million for 
pandemic preparedness, $100 million of which is to be employed in 
assisting states to complete and exercise their pandemic plans prior to 
an outbreak. However, in a Congressional Briefing sponsored by the 
House Science Committee on December 14th, it was revealed that very few 
funds were intended for behavioral and social dimensions, and that 
Congress will now cut the pandemic flu budget in half with almost all 
of it focused on vaccines. $120 million was removed to fund various 
other initiatives included $60 million for Viagra.
    While the Administration's plan is vague with regard to specific 
recommendations for risk communication strategies, it does encourage 
states and localities to consider several tactics that are likely to 
facilitate a pandemic response. For example, the plan suggests 
strategies for travel restrictions, quarantines, and isolation in the 
event of a pandemic, all of which will be necessary to restrict the 
spread of infection. However, where the Administration's plan requires 
additional breadth and depth is in addressing the behavioral and social 
dimensions of social distancing. Previous research on ``sheltering-in-
place'' reveal that robust risk and threat communication plans must be 
developed and deployed in order to realize substantial compliance with 
behavioral proxemic patterns desired by social isolation.

References

Arvai, J.L. (2003). Using Risk Communication to Disclose the Outcome of 
        a Participatory Decision-making Process: Effects on the 
        Perceived Acceptability of Risk-policy Decisions. Risk 
        Analysis: An International Journal, 23(2), 281-289.
Arvai, J., & Gregory, R., & McDaniels, T. (2001). Testing a Structured 
        Decision Approach: Value Focused Thinking for Deliberative Risk 
        Communication. Risk Analysis: An International Journal, 6, 
        1065-1076.
Flora, J., Jatilus, D., Jackson, C., & Fortmann, S. (1993). The 
        Stanford Five-City Heart Disease Prevention Project. In T.E. 
        Backer & E. Rogers (Eds.), Organizational Aspects of Health 
        Campaign: What Works? (pp. 101-128). Thousand Oaks: Sage.
GAO report. (2004). Key Cross-agency Emergency Communications Effort 
        Requires Stronger Collaboration. Washington: Government 
        Printing Office. GAO 04-494.
Gregrory, R., Arvai, J., & McDaniels, T. (2001). Value Focused Thinking 
        for Environmental Risk Consultations. Environmental Risk: 
        Perceptions, Evaluation, and Management, 9, 249-273.
Grotberg, E.H. (2002). From Terror to Triumph: The Path to Resilience. 
        In C.E. Stout (Ed.), The Psychology of Terrorism: Vol. 1. A 
        Public Understanding (pp. 185-208). Westport, Connecticut: 
        Praeger Publishers.
Heath, R.L., Bradshaw, J., & Lee, J. (2002). Community Relationship 
        Building: Local Leadership in the Risk Communication 
        Infrastructure. Journal of Public Relations Research, 14(4), 
        317-353.
Kim, Y.-C., Ball-Rokeach, S.J., Cohen, E.L., & Jung, J.-Y. (2002). 
        Communication Infrastructure and Civic Actions in Crisis. In 
        B.S. Greenberg (Ed.), Communication and Terrorism: Public and 
        Media Responses to 9/11. Cresskill, New Jersey: Hampton Press, 
        Inc.
McComas, K.A. (2003). Citizen Satisfaction With Public Meetings Used 
        for Risk Communication. Journal of Applied Communication 
        Research, 31(2), 164-184.
McDaniels, T., Gregory, R., & Fields, D. (1999). Democratizing Risk 
        Management: Successful Public Involvement in Local Water 
        Management Decision. Risk Analysis, 19, 491-504.
National Incident Management System. (2004). Washington, DC: Department 
        of Homeland Security.
O'Hair, D. (2004). Measuring Risk/Crisis Communication: Taking 
        Strategic Assessment and Program Evaluation to the Next Level. 
        Risk and Crisis Communication: Building Trust and Explaining 
        Complexities When Emergencies Arise. Washington, DC: Consortium 
        of Social Science Associations.
O'Hair, D., Heath, R., & Becker, J. (in press). Toward a Paradigm of 
        Managing Terrorism and Communication. In D. O'Hair, R. Health, 
        & G. Ledlow (Eds.), Community Preparedness and Response to 
        Terrorism: Communication and the Media. Westport, CT: Praeger.
O'Hair, D. & Heath, R.. (in press). Conceptualizing Terrorism and 
        Communication. In D. O'Hair, R. Health, & G. Ledlow (Eds.), 
        Community Preparedness and Response to Terrorism: Communication 
        and the Media. Westport, CT: Praeger.
O'Hair, D., Matusitz, J., & Eckstein, J. (in press). The Role of 
        Communication in Terrorism. In D. O'Hair, R. Heath, K. Ayotte, 
        & G. Ledlow (Eds.), Terrorism: Communication and Rhetorical 
        Perspectives. Cresskill, NJ: Hampton Press.
Rodriguez, H. (2004). The Role of Science, Technology and Media in the 
        Communication of Risk Warnings. Risk and Crisis Communication: 
        Building Trust and Explaining Complexities When Emergencies 
        Arise. Washington, DC: Consortium of Social Science 
        Associations.
Stephens, K., Rimal, R., & Flora, J. (2004). Expanding the Reach of 
        Health Campaigns: Community Organizations as Meta-channels for 
        the Dissemination of Health Information. Journal of Health 
        Communication, 9, 97-111.
Stoto, M., Abel, C., & Dievler, A. (1997). Healthy Communities: New 
        Partnerships for the Future of Public Health. Washington, DC: 
        National Academies Press.
                   Answers to Post-Hearing Questions
Responses by Roxane Cohen Silver, Professor, Department of Psychology 
        and Social Behavior and the Department of Medicine, University 
        of California, Irvine

Questions submitted by Representative Darlene Hooley

Q1.  From the Federal Civil Defense Act of 1950 through the creation 
and evolution of FEMA, the top-down, command and control approach has 
been the model used in crafting emergency plans. What has social 
science research revealed about the effectiveness of the top-down, 
command and control paradigm in meeting the challenges posed by 
disasters? Is there a better approach, and how might it work?

A1. Research in the social and behavioral sciences suggests that 
community-based organizations are likely to be more effective, and more 
efficient, in developing response plans in advance of, and implementing 
them following, community disasters. In fact, pre-existing social 
relationships and community organizations often already have experience 
working together, and thus will have more capacity to effectively 
mobilize (in terms of both resources, experience, and inter-group 
trust) in response to disaster. Nonetheless, while no formal survey has 
measured the make-up of these groups, anecdotal evidence suggests that 
very few formal efforts toward disaster preparedness have included 
contributions from the social sciences. If they have, their 
recommendations are too often ignored, as evidenced by the consequences 
of the activation of the response plans in the wake of a disaster.

Q2.  Some have argued that FEMA, as part of the Department of Homeland 
Security, is hamstrung by a command and control mentality that is ill-
suited to the realities of disasters. Do you agree with this 
assessment? Does social science research support the view that there is 
a fundamental problem in the way the Federal Government is organized 
for dealing with disasters?

A2. It is difficult to maintain that the problem with current disaster 
preparation and response is merely attributable to a failure in the 
organization of federal entities to address this topic. In addition to 
the Federal Government, municipalities, states and non-governmental 
organizations like universities and businesses often have crisis 
management teams or emergency response plans. The typical such team 
includes the mayor, police and fire chief, hospital representative, Red 
Cross chapter director, local college or National Guard and perhaps a 
handful of active community members representing other sectors. 
Effective response plans must involve the cooperation across all 
federal, State, and local entities. The social sciences can contribute 
recommendations as to how to maximize trust and cooperation across 
these groups, and how to minimize conflicts and territorial posturing 
between them. As noted above, with few exceptions, very few formal 
efforts toward disaster preparedness and response have incorporated the 
myriad of contributions from the social sciences that can facilitate 
effective response to disasters.

Q3.  A significant share of federal support for disaster related 
behavioral and social science research comes from the National 
Earthquake Hazards Reduction Program. Does this distort the research 
priorities in these fields in an inappropriate way?

A3. While extremely important work has been, and continues to be 
conducted by the National Earthquake Hazards Reduction Program, all 
disasters are not the same in terms of their individual and community 
impact. In fact, there is a great deal of research in the social and 
behavioral sciences that has identified both similarities and 
differences between human-caused and natural disasters, and among 
disasters for which one has some warning (e.g., hurricanes) as compared 
to those that occur suddenly (e.g., tornadoes). In addition, man-made 
disasters, such as the September 11 terrorist attacks, or the Columbine 
High School Shootings (both on which I have conducted research) differ 
from natural disasters in meaningful ways in terms of the victim's 
ability to identify perpetrators and seek justice from them. What seems 
crucial, in my opinion, is to enhance research funding beyond the study 
of earthquakes. As I mentioned in my testimony, there is currently no 
mechanism for researchers to obtain social science funding for such 
work in the immediate aftermath of a natural or man-made disaster, as 
well as too little funding for the study of the impact of these 
community disasters over time.

Questions submitted by Representative Eddie Bernice Johnson

Q1.  You describe in your testimony the prevalence of misconceptions 
about what research has found about psychological responses to 
disasters. This is another aspect of failure to apply existing 
knowledge derived from behavioral and social science research. What are 
the responsibilities of scientists who conduct disaster related 
research for transferring knowledge derived from that research to the 
general public and to organizations that develop public policy?

A1. A cadre of social scientists invests their research efforts and 
resources in the empirical study of the progression, psychological 
effects, responses and social consequences of disaster. Admittedly, we 
tend to publish the results of our investigations in professional peer-
reviewed journal articles and books. It is also true that, in general, 
our opinions are not solicited by policy-makers (although the Research 
Subcommittee Hearing addressing this topic is a welcome exception). 
Nonetheless, many of us also invest a great deal of time preparing 
articles for non-professional publications, give public lectures, and 
serve as pro bono consultants to community and government 
organizations. Many of us also frequently avail ourselves to the media 
to correct misconceptions and to educate the public about our findings. 
In addition, professional organizations such as the American 
Psychological Association (APA) advises congressional decision-makers 
on a wide range of legislative and regulatory issues by communicating 
the results of social science research and introducing social 
scientists to policy-makers. For example, beginning shortly after the 
September 11 terrorist attacks, I was invited by the APA Science Policy 
Office to present my work and its implications on Capitol Hill. In 
numerous trips to Washington, I was asked to convey concisely the 
results of my research to congressional staff, and to describe how 
these results could be directly applied to public policies. In 
addition, in early 2002 I was introduced by members of the APA's 
Science Policy Office to staff in the White House's Office of Homeland 
Security (which subsequently became the Department of Homeland 
Security). On the basis of that introduction, I was appointed by former 
Secretary Ridge to the Academe and Policy Research Senior Advisory 
Committee of DHS to provide advice, guidance and recommendations to the 
Homeland Security Advisory Council, which reports directly to the 
Secretary. Nonetheless, after two years of active involvement on that 
committee, including preparing numerous presentations on crisis 
communications and the psychological impact of terrorism, after 
attending dozens of briefings, and preparing several reports and 
recommendations, I would suggest that there appears to be no one in 
place who can hear these empirically-based recommendations and 
effectively act on them. Despite this fact, my colleagues and I 
continue to be committed to doing whatever we can to bring our 
important policy-relevant social science research findings into the 
public domain. I was pleased when a member of the Subcommittee 
recommended that the messages delivered by the social scientists that 
attended the Hearing be made available to the media and others on 
Capitol Hill. I, personally, would welcome additional opportunities to 
present my research and its implications more broadly.

Q2.  The 2003 Office of Science and Technology Policy report, 
``Reducing Disaster Vulnerability Through Science and Technology,'' 
identified six important areas for attention, including ``expand[ing] 
risk communication capabilities, especially public warning systems and 
techniques.'' The report recommends investment in social and behavioral 
science dimensions of public response to information and education 
campaigns. Are you aware of any increases in federal funding to address 
this recommendation? Is adequate research underway in this area?

A2. The 2003 Office of Science and Technology Policy report, ``Reducing 
Disaster Vulnerability Through Science and Technology,'' did indeed 
recommend investment in social and behavioral science dimensions of 
risk communications. Unfortunately, I am not aware of any increases in 
federal funding in response to this report's recommendation. This is 
extremely unfortunate, because while there are researchers who are 
poised to conduct such research at universities across the country, 
their efforts are severely hampered by the difficulties in obtaining 
funding to support it.
    In addition, the report missed an opportunity to specify specific 
behavioral and social scientific opportunities, including those that 
would go well beyond risk communication and public response to warning 
programs. Risk communication, effective messaging, source credibility 
and public response to warnings are, of course, critical areas for 
social and behavioral research. Beyond this focus, however, the 
importance of studying individual and community resilience, as well as 
collective and individual response to disaster and loss, cannot be 
overemphasized. Our empirical research offers ample evidence that 
strategies for reducing vulnerability to disaster can and should 
incorporate scientific understanding of how individuals, and the 
communities within which they reside, respond to stress and loss. I 
would suggest that although some research, including my own, is 
underway in these areas, a robust scientific approach to reducing our 
nation's vulnerability to disaster demands greater financial investment 
in its investigation. Methodologically rigorous scientific research is 
necessary to understand how human beings respond individually and 
socially to natural and man-made disasters. As my testimony suggests, 
we cannot afford to accept reigning misconceptions and anecdotal or 
media-generated expectations about human behavior as we anticipate and 
plan for future disasters. The collection of data, analysis, 
description and prediction of human behavior is integral to an adequate 
national scientific and engineering approach to disaster preparedness 
and response.

Q3.  The Administration last week released a plan to respond to the 
threat of pandemic flu. Do you believe the Administration's plan 
reflects sufficient attention to the social/behavioral factors that 
would be associated with public reaction to a pandemic situation and 
that should be incorporated into preparedness and response plans? Are 
you aware of whether behavioral and social scientists had a substantial 
role in developing this pandemic strategy? What areas of behavioral and 
social science research associated with other types of disasters would 
have particular relevance to this strategy? And specifically, in what 
areas do you feel the plan is deficient with regard to social science 
research or any other research activities?

A3. In my opinion, the plan unfortunately does not reflect sufficient 
attention to the social/behavioral factors that would be associated 
with public reaction to a possible pandemic and that I believe should 
be incorporated into preparedness and response plans. I am not aware of 
the active involvement of behavioral and social scientists in the 
development of this pandemic strategy, nor in the solicitation of their 
opinions. Social and behavioral scientists have conducted a great deal 
of research that could be directly applicable to development of this 
strategy. Research on risk and crisis communication is directly 
relevant. Research on community response to disasters can provide great 
insights into preparedness and response plans. Research on how 
individuals and communities cope with stressful life events, of which 
mine is but one example, is also crucially relevant. Unfortunately, 
this work is not adequately represented in the current plans.
    You ask in what areas I specifically see deficiencies in the plan 
with regard to social science research or other research activities. 
First, the plan offers very little funding to achieve its goals. 
Moreover, while the plan includes is a statement of commitment to 
providing public information, there is unfortunately no mention of 
empirical research to ensure its realization or evaluate its 
achievement. The plan offers a brief reference to avoiding panic and a 
reference to the public's beliefs about the food supply, but neither is 
informed by the social science research on these topics (e.g., panic is 
a rare response to emergencies, and the assumption that it will occur 
is a myth without any empirical support). In general, the plan is 
severely deficient in its attention to decades of relevant social 
science research. Unfortunately, without the development of adequate 
preparation and response plans, and without clear communication of 
authoritative information, the current situation has the potential to 
undermine public morale and facilitate media hype and the spread of 
misinformation, even without a pandemic striking.
    Thank you again for providing me the opportunity to share my 
additional opinions with the members of the Research Subcommittee. I 
welcome further requests to provide information that can assist in the 
achievement of your important goals.
</pre></body></html>
